<html>
<title> - H.R. 4289, COLORADO WILDERNESS ACT OF 2009</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
               H.R. 4289, COLORADO WILDERNESS ACT OF 2009 

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                        Thursday, March 11, 2010

                               __________

                           Serial No. 111-47

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

55-394 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 























                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Frank Pallone, Jr., New Jersey       Jeff Flake, Arizona
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Cathy McMorris Rodgers, Washington
Madeleine Z. Bordallo, Guam          Louie Gohmert, Texas
Jim Costa, California                Rob Bishop, Utah
Dan Boren, Oklahoma                  Bill Shuster, Pennsylvania
Gregorio Sablan, Northern Marianas   Doug Lamborn, Colorado
Martin T. Heinrich, New Mexico       Adrian Smith, Nebraska
George Miller, California            Robert J. Wittman, Virginia
Edward J. Markey, Massachusetts      Paul C. Broun, Georgia
Peter A. DeFazio, Oregon             John Fleming, Louisiana
Maurice D. Hinchey, New York         Mike Coffman, Colorado
Donna M. Christensen, Virgin         Jason Chaffetz, Utah
    Islands                          Cynthia M. Lummis, Wyoming
Diana DeGette, Colorado              Tom McClintock, California
Ron Kind, Wisconsin                  Bill Cassidy, Louisiana
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico
Vacancy

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

 Dale E. Kildee, Michigan            Don Young, Alaska
Grace F. Napolitano, California      Elton Gallegly, California
Rush D. Holt, New Jersey             John J. Duncan, Jr., Tennessee
Madeleine Z. Bordallo, Guam          Jeff Flake, Arizona
Dan Boren, Oklahoma                  Henry E. Brown, Jr., South 
Martin T. Heinrich, New Mexico           Carolina
Peter A. DeFazio, Oregon             Louie Gohmert, Texas
Maurice D. Hinchey, New York         Bill Shuster, Pennsylvania
Donna M. Christensen, Virgin         Robert J. Wittman, Virginia
    Islands                          Paul C. Broun, Georgia
Diana DeGette, Colorado              Mike Coffman, Colorado
Ron Kind, Wisconsin                  Cynthia M. Lummis, Wyoming
Lois Capps, California               Tom McClintock, California
Jay Inslee, Washington               Doc Hastings, Washington, ex 
Stephanie Herseth Sandlin, South         officio
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Pedro R. Pierluisi, Puerto Rico
Nick J. Rahall, II, West Virginia, 
    ex officio
Vacancy



















                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, March 11, 2010.........................     1

Statement of Members:
    DeGette, Hon. Diana, a Representative in Congress from the 
      State of Colorado..........................................     2
        Prepared statement of....................................     4
        Browns Canyon Wilderness Area Supporters.................     6
        Central Colorado Wilderness Coalition ``Wild Ten'' 
          Endorsers..............................................     8
        Coloradans Express Strong Support for Wilderness 
          Protection.............................................     6
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Brown, Chris, Director, Wilderness and Wild and Scenic Rivers 
      Programs, National Forest System, Forest Service, U.S. 
      Department of Agriculture..................................    16
        Prepared statement of....................................    18
    Burke, Marcilynn A., Deputy Director, Bureau of Land 
      Management, U.S. Department of the Interior................    13
        Prepared statement of....................................    14
    Dice, Jenn, Government Affairs Director, International 
      Mountain Bicycling Association, Boulder, Colorado..........    38
        Prepared statement of....................................    40
    Dvorak, Bill, President, Dvorak Rafting & Fishing 
      Expeditions, Nathrop, Colorado.............................    34
        Prepared statement of....................................    36
    Goodtimes, Art, Commissioner, San Miguel County, Norwood, 
      Colorado...................................................    25
        Prepared statement of....................................    27
    Holsinger, Kent, Holsinger Law, LLC, Denver, Colorado........    51
        Prepared statement of....................................    52
    Salazar, Hon. John T., a Representative in Congress from the 
      State of Colorado..........................................     9
        Prepared statement of....................................    10
    Smith, Steve, Assistant Regional Director, The Wilderness 
      Society, Denver, Colorado..................................    28
        Prepared statement of....................................    30
    Stansfield, John, Coordinator, Central Colorado Wilderness 
      Coalition, Monument, Colorado..............................    48
        Prepared statement of....................................    49

Additional materials supplied:
    Graham, Glenn, President and Chairman of the Board, Colorado 
      Off-Highway Vehicle Coalition, and Don Riggle, Director of 
      Operations, Trails Preservation Alliance, Letter 
      submittedfor the record....................................    58
    Houpt, Tresi, Commissioner, Garfield County, Colorado, 
      Statement submitted for the record.........................    22
    List of documents retained in the Committee's official files.    63
    Moreland, Edward, Vice President, Government Relations, 
      American Motorcyclist Association, Letter submitted for the 
      record.....................................................    64


  LEGISLATIVE HEARING ON H.R. 4289, TO DESIGNATE CERTAIN LANDS IN THE 
STATE OF COLORADO AS COMPONENTS OF THE NATIONAL WILDERNESS PRESERVATION 
   SYSTEM, AND FOR OTHER PURPOSES. (COLORADO WILDERNESS ACT OF 2009)

                              ----------                              


                        Thursday, March 11, 2010

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 11:09 a.m. in 
Room 1324, Longworth House Office Building, The Honorable Raul 
M. Grijalva [Chairman of the Subcommittee] presiding.
    Present: Representatives Grijalva, Bishop, Heinrich, and 
DeGette.

 STATEMENT OF HON. RAUL GRIJALVA, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Mr. Grijalva. I call to order the Subcommittee on National 
Parks, Forests and Public Lands for our legislative hearing 
today. The Committee will come to order.
    Today we will receive testimony on H.R. 4289, the Colorado 
Wilderness Act of 2009. The legislation proposes designating 
approximately 850,000 acres across the State of Colorado as 
part of a National Wilderness Preservation System. Our 
colleague, Representative DeGette, has been a tireless champion 
of the Colorado Wilderness Act. She understands the unique 
threats facing her state's last pristine areas, and she has 
modified her legislation over the years to address the changing 
landscape and to protect its highest priorities.
    We recently heard legislation as well from the gentleman 
from Colorado, Mr. Salazar, San Juan Mountains Wilderness Act, 
also introduced during this hearing. We heard again about 
collaboration and the need to protect important pristine areas 
in Colorado. Our colleague, Mr. Heinrich, has also joined us 
today. He is part of the Committee, and I look forward to a 
good hearing and a good discussion.
    Before Ranking Member Bishop arrives. let me turn the time 
over to the sponsor of the legislation, Ms. DeGette, for any 
opening comments she might have regarding her legislation.
    [The prepared statement of Chairman Grijalva follows:]

        Statement of The Honorable Raul M. Grijalva, Chairman, 
        Subcommittee on National Parks, Forests and Public Lands

    The Subcommittee will now come to order. Thank you.
    Today we will receive testimony on H.R. 4289: Colorado Wilderness 
Act of 2009. The legislation proposes designating approximately 850,000 
acres across the State of Colorado as part of the National Wilderness 
Preservation System.
    Our colleague, Representative Diana DeGette, has been a tireless 
champion of the Colorado Wilderness Act. She understands the unique 
threats facing her state's last pristine areas, and she has modified 
her legislation over the years to address the changing landscape and to 
protect the highest priority areas.
    Recently, the Subcommittee heard testimony on another Colorado 
wilderness bill, the San Juan Mountains Wilderness Act, introduced by 
Representative John Salazar. During the hearing, it was clear that 
despite the sometimes controversial nature of land management issues, 
Mr. Salazar had walked a path of collaboration and compromise that led 
to a strongly endorsed piece of legislation.
    As a wilderness champion myself, I recognize that there are 
multiple ways to successfully pass wilderness legislation. I look 
forward to hearing from the witnesses about the Colorado Wilderness Act 
and the lands across Colorado proposed for designation. The citizens of 
Colorado are lucky to have representatives that are so dedication to 
the preservation of the unique areas across their state.
    I would now like to turn to Ranking Member Bishop for any opening 
statement he may have.
                                 ______
                                 

 STATEMENT OF HON. DIANA DeGETTE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you so much, Mr. Chairman, for having 
this hearing today. I have been waiting 11 years to have this 
hearing, so I really appreciate it.
    As you said, I have introduced my newest version of the 
Colorado Wilderness Act, a version that I have introduced each 
Congress for the last decade. This bill was put together by a 
coalition of Colorado citizens who are committed, as I am and 
as all of us are, to protecting the few remaining wild places 
in our state, and I do not need to tell you that Coloradans 
from Carbondale to Colorado Springs, from Denver to Durango, 
live in our state because of the very special outdoor heritage 
that we have and because of the outdoors.
    The bill before us today, the Colorado Wilderness Act of 
2009, protects some of the most cherished areas in our state. 
Many of the lands in my bill are lower lying canyon areas, 
foothills and lower elevation terrain, and I sent a book to 
each one of your offices that was written about my bill, 
``Colorado Canyon Country'' that talks about the very special 
areas that we have, the canyon areas, and how important it is 
that we protect those areas. Here it is.
    This type of landscape is not well represented among our 
current wilderness areas because almost all of the existing 
wilderness in Colorado is above 9,000 feet in elevation. Part 
of the reason we don't have lower lying canyon areas in our 
wilderness inventory now is because the original Wilderness Act 
that Congress passed directed the Forest Service and the 
National Park Service, but not the BLM to study lands under 
their control for potential wilderness designation.
    Congress remedied this in 1976 in the Federal Land Policy 
Management Act. The BLM then undertook the process of 
inventorying lands in Colorado and elsewhere to determine their 
suitability for wilderness. In 1991, the BLM presented its 
final list of Wilderness Study Areas (WSAs). These areas from 
1991, almost 20 years ago, continue to be managed to preserve 
their natural position and wilderness character. About three-
quarters of the land in the bill we are talking about today 
consist of BLM-managed Wilderness Study Areas.
    In the early 1990s, after the WSAs were designated, a group 
of dedicated citizens took it upon themselves to review the 
areas that BLM had recommended and to suggest additional areas 
that might have outstanding wilderness characteristics. These 
thorough citizen inventories were conducted by volunteers who 
spent countless hours on the ground mapping and looking at 
areas that merited the wilderness designation.
    In 1994, those citizens published their first proposal for 
Colorado wilderness on BLM lands. For the next decade they 
continued to review and inventory wilderness-quality areas. 
They held public meetings across western Colorado seeking input 
on the proposal, and as a result of those efforts a revised 
citizen proposal was published in 2001, and another revision 
took place in 2007. This bill stemmed directly from those 
citizen efforts.
    Over the last decade, the bill has evolved in significant 
ways, and I expect, Mr. Chairman, that it will continue to 
evolve through this hearing and the legislative process. The 
full citizens' wilderness proposal is 62 areas, comprising 1.6 
million acres.
    While I support the vision of that original citizens' 
proposal, I have scaled back my bill over time to focus on 
those areas that are most deserving of protection and have the 
fewest potential conflicts. I have done this in consultation 
with local citizens, other Members of Congress, and local 
elected officials. I have also made significant changes, Mr. 
Chairman, to the legislative language over time. For example, I 
removed the Federal reserve water right that was in earlier 
versions of the bill, and I made specific boundary adjustments 
as a result of direct local input.
    The current bill that I introduced late last year contains 
34 areas consisting of roughly 850,000 acres. It would leave 
unaffected over 90 percent of BLM-managed lands which would 
remain open to oil and gas drilling, mining, off-road vehicle 
use and other development.
    Since I introduced the first version of this bill in 1999, 
I have consulted with interested groups, local leaders and 
other Members of the Congressional Delegation to focus on 
select areas. I have personally traveled the state, visiting 14 
of the areas by foot, horse and boat. On those trips, I was 
joined by landowners, ranchers, business leaders, elected 
officials, and many others. I have also held a number of public 
meetings and discussions on the proposal, soliciting feedback 
from all interested parties.
    Last year, before I reintroduced my bill, I released a 
discussion draft of this revised proposal and accepted public 
comments from citizens and elected leaders all over the state. 
As a result of the feedback from this process, I am actually 
personally sorry to say I made the tough decision to remove the 
Roan Plateau from the final bill. While the Roan Plateau is a 
remarkable area that deserves to be protected, it is entangled 
in litigation over energy development and the ongoing 
settlement discussions should be given a chance to succeed 
before Congress intervenes.
    My proposal has received significant local support over the 
last decade. It has been endorsed by 350 businesses and 
organizations from across the state, 14 Colorado counties and 
municipalities have expressed their support for wilderness, and 
just last summer over 14,000 Colorado residents signed cards in 
support of the wilderness areas proposed in our bill.
    I am going to leave it to the witnesses, Mr. Chairman, to 
talk about the many benefits for Colorado that wilderness has, 
but as you said, increased pressures on the public lands for 
population growth, mining, natural gas drilling and diverse 
forms of recreation have made it even more important to 
preserve our few remaining wild places, and I think that it is 
not contradictory to both preserve wilderness and also 
encourage oil and gas drilling and other types of public lands 
use.
    For all of these reasons, over 70 percent of Coloradans 
supported additional wilderness designation in a 2007 statewide 
poll, including majorities in all parts of the state and from 
both political parties. In that same poll, over 90 percent of 
Coloradans agreed that wilderness was important for the tourism 
it supports, and 71 percent agreed that wilderness-quality 
lands should not be sacrificed for energy development. Seventy-
three percent of the people who live on the western slope of 
Colorado, where most of these lands occur, support more BLM 
wilderness.
    This bill, Mr. Chairman, has seen a decade of work for me 
and my staff and from the many citizens statewide who have been 
involved. The proposed areas have been reviewed and inventoried 
by the BLM, the Forest Service, and local citizens for even 
longer. But Mr. Chairman, I recognize and I think Mr. Salazar 
recognizes too, today's hearing is not the end of the process. 
I look forward to continuing to work with local residents and 
leaders, and all of the Members of the Congressional Delegation 
going forward to continue to refine this proposal, and I 
welcome the feedback and input of today's session.
    Our public lands are valued for many reasons, for motorized 
recreation and resource extraction, to their ability to find 
solitude and unblemished landscapes. But I strongly believe, 
Mr. Chairman, that we must conserve a small portion of those 
very most special public lands for future generations. Thank 
you.
    [The prepared statement of Ms. DeGette follows:]

Statement of The Honorable Diana DeGette, a Representative in Congress 
                       from the State of Colorado

    Thank you, Mr. Chairman. I very much appreciate you holding this 
hearing today.
    I have introduced a version of the Colorado Wilderness Act each 
Congress for the last decade. This bill was brought to me by Colorado 
citizens committed to protecting the few remaining wild places in our 
state. Colorado has a remarkable outdoor heritage. Its residents--from 
Carbondale to Colorado Springs, from Denver to Durango--live in 
Colorado because of the outdoors. As Coloradans, our quality of life is 
enhanced tremendously from access to our state's magnificent public 
lands. The outdoors is central to our lifestyle, and is essential to 
our state's economy. Our natural lands bring in millions of tourist 
dollars every year and support industries from outfitters to gear 
manufacturers.
    The bill before us today, the Colorado Wilderness Act of 2009, 
would protect some of the most cherished lands in our state. Many of 
these lands are lower lying canyon areas, foothills, and lower 
elevation desert terrain. This type of landscape is not well 
represented among our current wilderness areas. Nearly all existing 
wilderness in Colorado is above 9,000 feet in elevation.
    Part of the reason for this oversight is historical. The original 
Wilderness Act directed the Forest Service and the National Park 
Service--but not the BLM--to study lands under their control for 
potential wilderness designation. Congress remedied this in 1976 in the 
Federal Land Policy Management Act. The BLM then undertook a process of 
inventorying lands in Colorado and elsewhere to determine their 
suitability for wilderness. In 1991, the BLM presented its final list 
of Wilderness Study Areas. These areas continue to be managed to 
preserve their natural condition and wilderness character. 
Approximately three-quarters of the land in this bill consist of BLM-
managed Wilderness Study Areas.
    In the early 1990's, after the Wilderness Study Areas were 
designated, dedicated citizens took it upon themselves to review the 
areas BLM had recommended and to suggest additional areas that had 
outstanding wilderness characteristics. These thorough citizen 
inventories were conducted by volunteers who spent countless hours on 
the ground mapping areas that merited wilderness designation. In 1994, 
the citizens published their first proposal for Colorado wilderness on 
BLM lands. For the next decade, they continued to review and inventory 
wilderness-quality areas. They held public meetings across Western 
Colorado, seeking input on their proposal. As a result of these 
efforts, a revised citizen proposal was published in 2001, and another 
revision took place in 2007.
    This bill has stemmed directly from the citizen efforts. Over the 
last decade, the bill has evolved in significant ways, and it will 
continue to evolve through this hearing and the legislative process. 
The full citizen's wilderness proposal is 62 areas consisting of 1.65 
million acres. While I support the vision of the citizen's proposal, I 
have scaled back my bill over time to focus on those areas that are 
most deserving of protection and have the fewest potential conflicts. I 
have done this in consultation with local citizens, other Members of 
Congress, and local elected officials.
    I have also made significant changes to the legislative language 
over time. For instance, I removed the federal reserve water right that 
was in earlier versions of the bill, and I made specific boundary 
adjustments as a result of direct local input.
    The current bill contains 34 areas consisting of roughly 850,000 
acres. It would leave unaffected over 90% of BLM-managed lands, which 
would remain open to oil and gas drilling, mining, off-road vehicle use 
and other development.
    Since I introduced the first version of this bill in 1999, I have 
consulted with interested groups, local leaders, and other members of 
the Congressional delegation to focus on select areas. I have traveled 
the state, visiting 14 of the areas by foot, horse, or boat. On these 
trips, I was joined by landowners, ranchers, business leaders, and 
elected officials. I have also held a number of public meetings and 
discussions on my proposal, soliciting feedback from all interested 
parties.
    Last year before I reintroduced my bill, I released a discussion 
draft and accepted public comments from citizens and elected leaders 
all over the state. As a result of feedback from this process, I made 
the tough decision to remove the Roan Plateau from the final bill. 
While the Roan Plateau is a remarkable area that deserves to be 
protected, it is entangled in litigation over energy development and 
the ongoing settlement discussions should be given a chance to succeed 
before Congress intervenes.
    My proposal has received significant local support over the last 
decade. It has been endorsed by 350 businesses and organizations from 
across the state. Fourteen Colorado counties and municipalities have 
expressed their support for wilderness. And just last summer, over 
14,000 Colorado residents signed cards in support of the wilderness 
areas proposed in our bill.
    Wilderness has many benefits for Colorado. With increased pressures 
on our public lands from population growth, mining, natural gas 
drilling, and the diverse forms of recreation Coloradans now pursue, it 
is incredibly important to preserve our remaining wild places. I think 
it's important to have energy development, but on the other hand, I 
don't think it's contradictory to preserve wilderness. Wilderness areas 
are available for many low-impact recreational activities, including 
hiking, hunting, fishing, rafting, camping, rock climbing, and 
horseback riding. Wilderness provides important ecological benefits, 
protecting wildlife habitat, watersheds, and air quality. Also, 
wilderness designation contributes significantly to the local economy 
by attracting tourism, and can increase local property values.
    For all of these reasons, over 70% of Coloradans supported 
additional wilderness designation in a 2007 poll, including majorities 
in all parts of the state and from both political parties. In the same 
poll, over 90% of Coloradans agreed that wilderness was important for 
the tourism it supports, and 71% agreed that wilderness-quality lands 
should not be sacrificed for energy development. Seventy percent of 
Western Slope residents supported additional BLM wilderness.
    This bill has seen a decade of work from me and my staff, and the 
proposed areas have been reviewed and inventoried by the BLM, the 
Forest Service, and local citizens for even longer. But I recognize, 
and I know Mr. Salazar recognizes too, that today's hearing is not the 
end of the process. I look forward to working with local residents and 
leaders, and all members of the Congressional delegation going forward 
to continue to refine this proposal. And I welcome the feedback and 
input of today's witnesses.
                                 ______
                                 
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
         
         Coloradans Express Strong Support for Wilderness Protection

    A May 2007 poll conducted by Talmey-Drake found that a solid 
majority of Colorado voters favor additional wilderness designation of 
federal public lands in Colorado. This support is shared widely among 
Coloradans across geographic, political party affiliation and gender 
categories, and is nearly identical whether respondents hunt, fish or 
recreate in other ways. Specific results are highlighted below.
    <bullet> Nearly Three-Quarters of Coloradans Statewide Agree 
Wilderness Quality Lands Are More Important for Recreation, Tourism and 
Wildlife than for Energy Development and Motorized Recreation. When 
read pro-wilderness and anti-wilderness statements, nearly three-
quarters (71%) of those surveyed agreed with the pro-wilderness 
argument, versus 24% who aligned themselves with the anti-wilderness 
statement. This support was consistent across all geographic regions of 
the state (ranging from 59% to 76%, with both Denver and West Slope at 
76%). There was also majority support for the pro-wilderness statement 
across all political parties; although support was higher among 
Democrats (85%) and Independents (76%), Republicans also favored BLM 
wilderness (52% supporting versus 43% opposed).
        Supporters of more wilderness protection say Colorado's 
        population has grown 20 percent in the past eight years and new 
        development uses up about 250 acres every day. They also point 
        out that tourism, recreation and hunting are some of the 
        largest contributors to Colorado's economy, and that this rapid 
        growth, as well as increased drilling of oil and gas on our 
        public lands, is putting intense pressure on Colorado's 
        national parks, wilderness areas and forests. Therefore more of 
        the state's remaining wild places should be protected for 
        recreation, wildlife, and our children before it's too late. 
        Further, they say that we can never drill our way to energy 
        independence and we ought to implement sustainable energy 
        alternatives before we damage these last best wild places.

        Opponents of more wilderness protection say there are already 
        enough protected areas in Colorado. They say the state has more 
        than 30 million acres designated as national parks and forests, 
        state parks, and open space, and more than ten percent of this 
        30 million acres is already locked up as wilderness, where off-
        road vehicles users and mountain bikers are prohibited. 
        Further, they say that locking up more wilderness areas goes 
        too far by banning oil and gas exploration at a time we need 
        more domestic oil and gas production to provide greater energy 
        independence from the Middle East countries like Saudi Arabia, 
        Iraq and Iran.

        Now, with which do you tend to agree more--the statement in 
        support of more wilderness protection, or the statement opposed 
        to more wilderness protection? [n=617]
    <bullet> Voters Favor Protection of Wilderness-Quality Bureau of 
Land Management (BLM) Lands. About one million out of the eight million 
acres of public lands managed in Colorado by the BLM meet the criteria 
for wilderness designation. Nearly two-thirds of Coloradans statewide 
(64%) support wilderness designation of these BLM lands--70% strongly 
so--versus 27% who opposed this proposal (55% strongly so). Again, 
support for this wilderness proposal was consistent across all 
geographic regions of the state and political parties.
    <bullet> West Slopers Strongly Support Additional Wilderness near 
their Communities. Seventy percent of West Slope respondents favored 
designation of wilderness-quality Forest Service or BLM lands in or 
near the county where they live, 84% strongly so. Only 23% of those 
surveyed on the West Slope were in opposition (75% strongly opposed). 
This support was particularly high among Democrats (78%) and 
Independents (77%), but less so among Republicans (48% supportive 
versus 41% opposed).
    <bullet> Coloradans Believe Wilderness is Important to the Economy 
and their Quality of Life. When read statements about wilderness, more 
than 90% agreed that wilderness areas were important economically for 
the hunting, fishing and tourism they support, versus 9% who opposed. 
This result was very consistent across political party and geographic 
region.
    Strong support (80%) was also found for the statement that ``[t]he 
presence of nearby wilderness helps define Colorado and is an important 
reason why I choose to live here.'' While high across all geographic 
regions, this sentiment was highest on the West Slope (89%, with 67% 
feeling strongly) and lowest on the Eastern Plains at 68%.
    <bullet> Coloradans Are Not Swayed by Energy and Motorized 
Recreation Arguments Against Wilderness. Only 33% of respondents agreed 
with a statement that wilderness-quality lands are needed for domestic 
energy development, while 71% supported an alternative statement that 
wilderness-quality lands should not be sacrificing for energy 
development but clean energy alternatives pursued instead.
    Similarly, a statement suggesting that wilderness unfairly 
restricts off-road vehicles users and mountain bikers from recreation 
opportunities received much less support (37%) than an alternative 
statement arguing that these uses have ample access to the majority of 
public lands while additional wilderness is necessary for quiet uses 
(78%). Notably support for this statement was highest on the West Slope 
and North Corridor (Larimer and Weld counties) at 83%.
Methodology
    The survey was conducted by Talmey-Drake Research & Strategy, Inc., 
a public opinion and market research firm in Boulder, Colorado. The 
results of this survey are based on 617 random telephone interviews 
with Colorado residents, conducted from May 1st to 14th, 2007. Quotas 
were established to obtain equal representation for men and women, and 
an appropriate representation from among certain counties <SUP>1</SUP>. 
The West Slope was then oversampled to obtain approximately 100 
completed interviews on the West Slope. Results were then weighted to 
reflect the actual population of the West Slope. A random sample of 617 
has a worst-case 95% confidence interval of plus or minus 3.9% about 
any one reported percentage.
---------------------------------------------------------------------------
    \1\ Quotas were established for Adams, Arapahoe, Boulder, Denver, 
Douglas, El Paso, Jefferson, Larimer, Mesa, Pueblo and Weld.
---------------------------------------------------------------------------
    The poll was commissioned by Colorado Environmental Coalition, The 
Wilderness Society and Wilderness Workshop. For more information, 
please contact: Elise Jones, CEC, 303-534-7066, x1504; Suzanne Jones, 
TWS, 303-650-5818, x102; or Sloan Shoemaker, WW, 970-963-3977.
                                 ______
                                 

      Central Colorado Wilderness Coalition ``Wild Ten'' Endorsers

               (the ``Wild Ten'' including Browns Canyon)

Aiken Audubon Society--Colorado Springs, CO
American Lands Alliance--Boulder, CO
Arkansas River Outfitters Association--Salida, CO
Arkansas Valley Audubon Society--Pueblo, CO
Audubon Colorado--Colorado
Catamount Institute--Colorado Springs, CO
Center for Native Ecosystems--Denver, CO
Colorado Environmental Coalition--Colorado
Colorado Mountain Club--Colorado
Colorado Native Plant Society--Fort Collins, CO
Colorado River Outfitters Association--Buena Vista, CO
Colorado Wild--Denver, CO
Environment Colorado--Denver, CO
Friends of Browns Canyon--Salida, CO
Great Old Broads for Wilderness--Durango, CO
Mountain Chalet--Colorado Springs, CO
Quiet Use Coalition--Buena Vista, CO
Rocky Mountain Recreation Initiative--Nederland, CO
San Luis Valley Ecosystem Council--Alamosa, CO
Sierra Club--Rocky Mountain Chapter
The Evergreen Naturalists Audubon Society (TENAS)--Evergreen, CO
The Wilderness Society-- Four Corners Regional Office, Denver, CO
Trails and Open Space Coalition--Colorado Springs, CO
University of Colorado Environmental Center--Boulder, CO
Western Resource Advocates--Boulder, CO
Western Slope Environmental Resource Council--Paonia, CO
Wild Connections--Florissant, CO
Wildlands Center for Preventing Roads--Missoula, MT
Wildlands Project--Colorado
Wilderness Study Group--University of Colorado, Boulder, CO
Wilderness Workshop--Carbondale, CO
                                 ______
                                 
    Mr. Grijalva. Let me now ask our Ranking Member if he has 
any opening comments.
    Mr. Bishop. No, I will waive and we can get on with the 
testimony.
    Mr. Grijalva. OK. Mr. Heinrich, any opening comments? No? 
Thank you.
    The first panel consisting of a panelist, Representative 
Salazar from Colorado's Third District. Welcome, sir, and I 
look forward to your comments.

STATEMENT OF HON. JOHN T. SALAZAR, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. Salazar. Well, thank you, Mr. Chairman, and thank you 
for having this very important hearing, and I do want to 
commend Mrs. DeGette from Colorado who has been a strong 
advocate for wilderness and protecting our environment in 
Colorado.
    As many of you know, I represent the Third Congressional 
District, it is the most beautiful district in the entire 
country, and I appreciate having this opportunity to comment on 
Colorado wilderness. Let me first say at the outset that no one 
has been a greater champion for protecting Colorado than Ms. 
Diana DeGette, and I appreciate that. She has tenaciously 
worked for over 11 years to ensure that worthy areas that help 
define the beauty that is Colorado are preserved for future 
generations, and I applaud her for that.
    The bill before the Committee today would designate as 
wilderness hundreds of thousands of acres that are located 
within the Third and the Second District of Colorado, and some 
in Mr. Lamborn's district. The Congresswoman and I have had 
several opportunities and several conversations about her 
proposal, and I agree that some of these areas deserve further 
review and potential consideration. However, it is my strong 
belief that there is a right way to proceed with wilderness 
legislation in my district.
    As many of you recall, the Committee recently held a 
hearing on H.R. 3914, the San Juan Mountain Wilderness Act 
which designates 62,000 acres in my district as wilderness and 
other protected designations. The way we developed this bill, I 
believe, was the right way to proceed. The San Juan bill is a 
product of three years of hard and detailed work. We spoke with 
all the interested stakeholders in the region, including 
landowners, oil and gas companies, recreational groups, 
ranchers, conservation groups, elected officials, the Forest 
Service, and others in order to resolve the issues and develop 
a bill that receive wide support and almost 100 percent 
consensus.
    It was a time-consuming process but I believe that the 
result is a wilderness bill that protects pristine natural 
areas and habitat, and that has support of the major 
stakeholders in the area. It was a win/win for our region. I 
think it is critical that we weigh the competing demands when 
considering areas for wilderness protection. We cannot impose 
wilderness designations from the outside but instead must be a 
carefully considered process.
    Although I know the Congresswoman has pursued some of these 
areas for over 11 years and has garnered some support for her 
proposal, I have found that numerous obstacles remain in 
virtually most of the proposed areas. As a Member of Congress 
who represents these areas, I cannot support simply imposing 
wilderness on my constituents. I believe it must be negotiated 
and worked out with all the various stakeholders in order to 
achieve a consensus.
    There are some specific concerns about this bill that I 
would like to highlight, and the language used for water issues 
in this legislation would cause major problems with the water 
use in the western slope of my district. The Congresswoman 
addressed the issue of Federal reserve and non-Federal reserve 
water rights which has been addressed. However, there is a 
delicate balance that we have and there are major concerns 
among the Dolores water users, and with the delicate balance of 
water distribution in these basins. Major water uses could be 
curtailed, causing sever economic hardship in my district, and 
the most important part of it is it could jeopardize interstate 
compact agreements.
    This bill also does not have language that protects the 
existence of ditches and reservoirs that are within the areas 
proposed for wilderness. Each and every specific area must be 
addressed differently. While one ditch may not seem like a big 
deal to some, to a farmer who depends on it for his livelihood 
it is, and he should be protected.
    This bill in its current form closed numerous motorized 
routes, snowmobile areas and mountain bike trails. These are 
important activities in my district that contribute to both the 
quality of life that my constituents enjoy as well as being a 
major economic activity in these communities. I believe that we 
will hear testimony about how the San Juan Wilderness Bill will 
improve the economics of the Telluride and San Miguel County 
areas.
    There are some areas in this bill that some say have all 
their issues resolved. However, I call your attention to the 
fact that there are still some critical issues that need to be 
resolved, even in some of these cases. For instance at the 
Palisade, the Powderhorn and the Roubideau, there are motorized 
routes that would be closed by this legislation. In short, even 
in the area some argue that they are most ready for designation 
as wilderness, some critical issues still need to be discussed 
with local communities.
    To shed more light on these issues, I would like to 
introduce for the record the letters, and I have shared these 
with the Congresswoman, that I have received from entities in 
my district expressing their concern about the legislation.
    Finally, I share the concerns that I have heard from the 
U.S. Forest Service and the Bureau of Land Management for this 
legislation, which you will be hearing about later on in the 
testimony. I do appreciate you holding this hearing today, Mr. 
Chairman, and I commend Mrs. DeGette for her efforts. Our 
staffs have spoken, and it is my understanding that the 
Congresswoman's intention of moving this bill is one of using 
it as a means to identify potential wilderness for future 
discussions, and if that is the case, I can assure you that I 
will continue to work with the interested parties and I will 
continue to work with Ms. DeGette to identify areas in my 
district which may be appropriate for wilderness consideration, 
and I will work to form a consensus with stakeholders just as I 
did with the San Juan Mountain Wilderness Bill.
    I want to thank you for your time and allowing me to 
testify. We may differ in the details but we share the same 
goal of seeing more wilderness created in Colorado. Thank you, 
Mr. Chairman.
    [The prepared statement of Mr. Salazar follows:]

    Statement of The Honorable John T. Salazar, a Representative in 
                  Congress from the State of Colorado

    Mr. Chairman and members of the Committee, I appreciate having this 
opportunity to comment on H.R. 4289, The Colorado Wilderness Act of 
2009,
    Let me first just say at the outset that no one has been a champion 
for protecting natural areas like Congresswoman DeGette has been. She 
has tenaciously worked to ensure that worthy areas that help define the 
beauty that is Colorado are preserved for future generations. And I 
applaud her for that. But there is a right to do this, and there is a 
wrong way. And as the representative of the district in which most of 
the proposed designations are located, I am going to insist that this 
process be done the right way. And that has not yet happened in this 
case.
    The bill before the Committee today would designate as Wilderness 
hundreds of thousands of acres that are located within the 3rd 
congressional district of Colorado, which I represent. The 
Congresswoman and I have had several conversations about her proposal, 
and I agree that some of these areas deserve further review and 
potential consideration.
    However, it is my strong belief that there is a right way to 
proceed with wilderness legislation in my district and, unfortunately, 
H.R. 4289 does not meet what I believe are the appropriate standards of 
discussion and negotiation with my constituents who would be affected. 
As you'll recall, the Committee recently held a hearing on H.R. 3914, 
the San Juan Mountain Wilderness Act, which designates 62thousand acres 
in my district as Wilderness and other protective designations The way 
we developed this bill is, I believe, the right way to proceed.
    My San Juan bill is the product of three years of hard and detailed 
work. We spoke with all the interested stakeholders in the region, 
including landowners, recreational groups, ranchers, conservation 
groups, elected officials, and the Forest Service, in order to resolve 
issues and develop a bill that received wide support and consensus. It 
was a time consuming process, but I believe the result is a Wilderness 
bill that protects pristine natural areas and habitat and that has the 
support of the major stakeholders in the area. It is a win-win for our 
region.
    It is critical that we weigh the competing demands when considering 
areas for wilderness protection. We cannot impose a wilderness 
designation from the outside, as H.R. 4289 would do, but it instead 
must be a carefully considered process. Although I know the 
Congresswoman has pursued some of these areas for a number of years and 
has garnered some support for her proposals, I have found that numerous 
obstacles remain in virtually all of the proposed areas. As the Member 
of Congress who represents these areas, I cannot support simply 
imposing Wilderness on my constituents--it must be negotiated and 
worked out with all the various stakeholders in order achieve a 
consensus.
    There are some specific concerns about this bill that I would like 
to highlight. The language used for water issues in this legislation 
would cause major problems with water use on the Western Slope of my 
district. By creating a federal reserved water right on major rivers 
such as the Dolores, the delicate balance of water distribution in 
these basins would be forever lost. Major water uses could be curtailed 
causing severe economic hardship in my district. This bill also does 
not have language that protect the existence of ditches and reservoirs 
that are within the areas proposed for Wilderness. While one ditch may 
not seem like a big deal to some, to the farmer who depends on it is 
their lifeblood and should be protected.
    This bill in its current form would close numerous motorized 
routes, snowmobile areas and mountain bike trails. These are important 
activities in my district that contribute to both the quality of life 
that my constituents enjoy as well as being a major economic activity 
in these communities. In addition many of the areas proposed for 
Wilderness designations in my district have existing mineral leases 
that are important to our nation's energy supply and an important part 
of the economy in my district. As you know a Wilderness designation on 
top of an existing mineral lease is just not something Congress does 
without the cooperation, or at least consultation with the lease 
holder. To do so compromises energy companies private property rights 
and I cannot support that.
    There are some areas in this bill that some are saying have all 
their issues resolved. However I call your attention to the fact there 
are still some critical issues that need to be resolved even in these 
areas. For instance at The Palisade, Powderhorn and Roubideau there are 
motorized routes that would be closed by this legislation. Perhaps the 
community in these areas will support this closure if they want to see 
the protection that Wilderness would give these areas, but the 
discussion has to take place at the community level before that 
decision can be made. In the Thompson Ridge area this legislation would 
close a mountain bike trail. In short even in the areas some argue are 
most ready for designation as Wilderness some critical issues still 
need to be discussed with local communities.
    To shed more light on these issues I would like to introduce for 
the record letters I have received from entities in my district 
expressing their concern with this legislation.
    Mr. Chairman I would also like to take the time to update you on 
several processes under way in the third Congressional District that 
may result in a community consensus to pursue legislation. Some of the 
areas included in H.R. 4289 are directly impacted by these processes 
All across Western Colorado the difficult patient work of many 
communities are working to explore the possibility of designating more 
Wilderness Areas that will have broad based support. I believe it is 
important to let these processes proceed at their own pace at the 
community level before Congress acts. The people of these communities 
who live and work in these areas are best positioned to make these 
recommendations and decisions to us, not the other way around. These 
are some of the processes ongoing in my district that I am monitoring 
and participating in:
Hermosa Creek Workgroup
    For over two years the Hermosa Creek workgroup has met to work 
towards a consensus set of recommendations to me about how to proceed 
with a legislative approach to protect this amazing watershed. This 
group is composed of all interested parties that have a stake or an 
interest in the Hermosa Creek watershed including outfitters, 
conservationists, sportsmen, property owners, mining advocates, water 
district officials, motorized users, mountain bikers and local elected 
officials. In short anyone who has an interest was invited to the table 
for two years worth of meetings and all options were on the table and 
just this last month I received an official communication from this 
group that they are requesting that I draft legislation to implement 
their recommendations. I am currently taking a hard look at this 
request and if I decide local support for this proposed legislation is 
strong enough then I will indeed introduce legislation for this area. 
This legislation could provide permanent protection for around 150,000 
acres of this watershed, including a new 50,000 acre Wilderness west of 
Hermosa Creek.
Alpine Triangle
    Trout Unlimited and other stakeholders have been working at the 
grassroots level in Hinsdale, Ouray and San Juan Counties to explore 
the possibility of creating an Alpine Loop National Conservation Area 
that could include a Wilderness designation for some or all of the 
proposed Redcloud and Handies areas from H.R. 4289. This effort may 
result in legislation the local communities can support. But both the 
counties and Trout Unlimited do not support an effort to push any 
federal designations through before the extensive on the ground work is 
done. This community discussion should be given time to unfold at its 
own pace and reach its own conclusion. While this effort is in its 
early stages if the discussion yields a community consensus with broad 
support for a legislative approach I would be happy to introduce 
legislation for this area.
Lower Dolores Plan Working Group
    Just this week the Lower Dolores Plan Working Group formed a 
subcommittee to forge a proposal for a legislative approach to 
management of the Dolores River between McPhee Reservoir and the town 
of Bedrock. While it is far too soon to tell if this will result in an 
actual recommendation from this community to seek legislation, if it 
does then I will carry forth legislation on behalf of this community. 
This legislation could designate as Wilderness many of the areas 
proposed for designation in H.R. 4289 in the Dolores River basin.
    To act now on designating any of these areas before the community 
based processes can conclude is quite simply disrespectful to the 
constituents of my district. Many of my constituents have put in long 
nights away from home to come and gather around a table and meet with 
the other members of their community. This is long difficult work that 
requires patience and perseverance. I commend and thank each and every 
one of my constituents who have participated in these work groups. I 
feel strongly that to act to designate these areas before these 
discussions have a chance to conclude is something I simply cannot 
support. I will continue to monitor all of these ongoing efforts and 
feel the chances are good at least some of them will result in 
legislation. Mr. Chairman please do not be surprised to see me back 
here before you in the near future with legislation that I will bring 
to this committee on behalf of my constituents.
    I appreciate your holding this hearing today, Mr. Chairman, and I 
commend Ms. DeGette for her efforts. However, I cannot support her bill 
today. I will, though, continue to work with interested parties to 
identify areas in my district which may be appropriate for wilderness 
consideration and will work to form a consensus with stakeholders, just 
as I did with the San Juan Mountains Wilderness bill.
                                 ______
                                 
    Mr. Grijalva. Thank you, Mr. Salazar. As you informed me, 
you have pending business right now after this hearing and you 
are going to have to leave immediately, as I understand it. I 
want to thank you for your testimony and I am sure if there is 
any follow-up that members of the panel will be more than glad 
to provide those requests for information or requests to you 
directly, so let me thank you.
    Ms. DeGette. Mr. Chairman. I just wanted--
    Mr. Grijalva. Please.
    Ms. DeGette. If I could just say one thing. I want to thank 
Mr. Salazar for coming and I also want to thank him for all the 
work he has done with my office and all of the discussions we 
have had. I think I can fairly say we consider ourselves to be 
brother and sister. Now sometimes we argue and sometimes we can 
agree, but we have agreed that we both care about wilderness. 
We have agreed to work on all of these issues--not just in my 
district, but throughout the state--to make sure that we make 
the state the best place, and I just really appreciate him 
coming.
    I would also ask unanimous consent to put his letters in 
the record because he has shared those with me.
    Mr. Grijalva. Without objection.
    [NOTE: A list of documents submitted for the record and 
retained in the Committee's official files can be found at the 
end of this hearing.]
    Mr. Grijalva. Again, thank you, Mr. Salazar. I appreciate 
your time.
    Mr. Salazar. Thank you, Mr. Chairman, and I just wanted to 
say that this has been a great opportunity. This is the first 
time that I have been able to sit at the table by myself. I 
feel a little bit lonely, like a bull's eye. However, I do 
appreciate it, sir, and anyone who may have questions for me I 
would be happy to submit written responses to them. Thank you.
    Mr. Grijalva. Thank you, sir.
    Let me now invite the second panel up, please. Thank you 
very much for being here. Let me begin with Ms. Marcilynn 
Burke, Deputy Director, Bureau of Land Management. Welcome, and 
thank you for your time. I am looking forward to your comments 
regarding the legislation before us. Thank you.

               STATEMENT OF MARCILYNN A. BURKE, 
           DEPUTY DIRECTOR, BUREAU OF LAND MANAGEMENT

    Ms. Burke. Thank you, Mr. Chairman, and thank you for 
inviting the Department of the Interior to testify on H.R. 
4289, the Colorado Wilderness Act.
    The department strongly supports the constructive 
resolution of public lands issues and wilderness designation 
issues in Colorado and across the western United States. H.R. 
4289, as you know, proposes to designate 34 wilderness units on 
BLM-managed lands and U.S. Forest System lands totaling nearly 
850,000 acres to be added to the National Wilderness 
Preservation System. These designations are largely focused in 
western Colorado and includes spectacular canyons, vast open 
spaces, unique habitats, diverse wildlife, and nationally 
significant cultural resource sites.
    The Bureau of Land Management has not undertaking a 
detailed analysis and review of each of the many areas, 
however, proposed for wilderness designation under the bill. 
Such a review would take a careful look at the myriad of land 
use issues, including wilderness character or quality, boundary 
manageability, and conflict with current uses, including 
motorized recreation and energy development.
    Many of the areas proposed for designation have important 
wilderness values and deserve protection. There are also 
several areas proposed for wilderness designation under H.R. 
4289 where conflicts exist with existing and proposed uses, 
making manageability of wilderness here problematic.
    As always, we welcome the opportunity to work cooperatively 
with the sponsor of the legislation, the Committee, and all the 
Members of the Colorado Delegation on wilderness issues in 
Colorado. However, we suggest a more narrow geographical focus 
here. Our nation's wilderness system includes many of our most 
treasured landscapes and ensures that these untrammeled lands 
and resources are conserved with these outstanding wilderness 
characteristics intact as they are passed down from one 
generation of Americans to the next.
    Through our wilderness decisions, we demonstrate a 
stewardship and conservation that is uniquely American and is 
sensibly balanced with the other decisions we make that affect 
public lands. Colorado's exquisite deserts, canyons, cliffs, 
and peaks deserve our careful attention and thoughtful review. 
We recommend a more limited approach here so that we can assure 
proper review and consultation. Working cooperatively with 
local and national constituencies, this Subcommittee, the 
sponsor of the bill, and the Colorado Congressional Delegation, 
we can protect these very special places.
    Thank you for the opportunity to testify, and I would be 
happy to answer any questions.
    [The prepared statement of Ms. Burke follows:]

   Statement of Marcilynn A. Burke, Deputy Director, Bureau of Land 
              Management, U.S. Department of the Interior

    Thank you for inviting the Department of the Interior to testify on 
H.R. 4289, the Colorado Wilderness Act. The Department strongly 
supports the constructive resolution of public lands and wilderness 
designation issues in Colorado and across the western United States. 
Enactment of the Omnibus Public Land Management Act (Public Law 111-11) 
last year provided resolution of wilderness issues for a wide array of 
lands in California, Colorado, Idaho, New Mexico, Oregon and Utah.
    The scope of H.R. 4289 is vast; covering over 615,000 acres of 
lands administered by the Bureau of Land Management (BLM). The BLM has 
not undertaken a detailed analysis and review of each of the many areas 
proposed for wilderness designation. Such a review would require 
detailed mapping by the BLM and a careful look at a myriad of land use 
issues including: wilderness quality, boundary manageability, and 
conflicts with current uses, including motorized recreation and energy 
development.
    As always, we welcome the opportunity to work cooperatively with 
the sponsor of the legislation, the Committee, and all members of the 
Colorado delegation on wilderness issues in Colorado. However, we 
suggest an approach that utilizes a narrower geographical focus.
    Our Nation's wilderness system includes many of our most treasured 
landscapes and ensures that these untrammeled lands and resources are 
conserved with these outstanding wilderness characteristics intact as 
they are passed down from one generation of Americans to the next. 
Through our wilderness decisions, we demonstrate a sense of stewardship 
and conservation that is uniquely American and is sensibly balanced 
with the other decisions we make that affect public lands.
Background
    The Department strongly supports the constructive resolution of 
public lands and wilderness designation issues in Colorado and across 
the Western United States. The Omnibus Public Land Management Act (P.L. 
111-11) signed by the President a year ago, added to America's 
treasured landscapes and included designation in Colorado of the 
66,000-acre Dominguez Canyon Wilderness Area within a larger 210,000-
acre National Conservation Area (NCA). In January of this year, we 
testified in support of designating 8,600 acres as the McKenna Peak 
Wilderness in San Miguel County, Colorado. Both of these proposals are 
the result of consensus and cooperation, bringing together all 
interested parties to the debate.
    The BLM understands that numerous citizen volunteers have spent 
countless hours combing the cliffs, valleys, canyons, and mountains of 
western Colorado, and have contributed to the proposal before us. These 
individuals care deeply about the land and its protection, and we share 
that commitment.
H.R. 4289
    Colorado's treasured landscapes are recognized for their powerful 
impact on the human spirit and are a source of inspiration. The BLM is 
committed to managing wildlands responsibly in the context of our 
multiple-use mission. H.R. 4289 proposes to designate 34 wilderness 
units on BLM-managed lands and U.S. Forest System lands, totaling 
nearly 850,000 acres, adding them to the National Wilderness 
Preservation System. These designations are largely focused in western 
Colorado. These include spectacular canyons, vast open spaces, unique 
habitat, diverse wildlife, and nationally significant cultural resource 
sites. The DOI defers to the U.S. Department of Agriculture regarding 
proposed designations on National Forest System lands.
    Many of the areas proposed for designation by H.R. 4289 have 
important wilderness values and deserve protection. I would like to 
highlight three areas where existing uses and land management are well-
suited to wilderness designation.
    Known for its spectacular beauty, the proposed Palisade Wilderness 
contains nearly 27,000 acres of remarkable scenery and varied plant and 
wildlife species. The Palisade itself is an iconic fin--a three-mile 
rocky spine slicing through the area. A 12-mile cliff line with steep 
slopes characterizes the southern area of the proposed wilderness and 
deep rugged canyons dominate the eastern areas. Extraordinary 
backcountry hiking and backpacking provide challenges to experienced 
travelers. The North Fork of West Creek and West Creek waterways 
running through the Palisade area exhibit unusually high species 
diversity and density, and are eligible for Wild and Scenic River 
designation.
    The proposed Castle Peak Wilderness consists of over 16,000 acres 
of steep rugged slopes, rolling hills, deep basins, and sprawling 
meadows. The region is home to a vibrant assortment of wildlife, 
including elk, deer, black bear, mountain lion, bobcat, and raptors. 
Hunting and fishing are popular activities in the area and are 
consistent with wilderness designation.
    The proposed Browns Canyon Wilderness is one of rugged beauty, 
colorful outcroppings, and abundant wildlife. The 3,000-foot deep 
canyon along the Arkansas River forms the western boundary of the 
proposed wilderness. From there the land climbs dramatically to an 
elevation of 10,000 feet to the east. While a single ecosystem, the 
land is divided administratively. The BLM manages the western portion, 
including the canyon, while the Forest Service manages the eastern 
portion. A significant herd of bighorn sheep resides within Browns 
Canyon, and it is an important winter range for deer and elk. Views 
from the area across the Arkansas Valley to the 14,000-foot peaks of 
the Collegiate Range are among the most spectacular in Colorado. The 
Arkansas River is one of this country's most popular white water 
rafting destinations, with more than 300,000 visitors floating it 
annually. Nearly half of these visitors float the nationally renowned 
Browns Canyon segment, which is adjacent to the proposed wilderness but 
is not included in the proposed wilderness.
    There are also several areas proposed for wilderness designation 
under H.R. 4289 where conflicts with existing and proposed uses make 
manageability as wilderness problematic. Recreational use has exploded 
on public lands throughout the West, including in Colorado. While many 
recreational activities, such as hunting, fishing, and hiking are 
compatible with wilderness designation, others, such as mountain biking 
and off-highway vehicle use, are not. Some of the areas proposed for 
wilderness designation contain popular motorized or mechanized 
recreation areas.
    The proposed Bangs Canyon Wilderness is bisected by the nationally 
recognized Tabeguache Trail. Almost 9 miles of the 142-mile Tabeguache 
Trail connecting Grand Junction and Montrose pass through the area 
proposed for wilderness designation. This trail receives about 30,000 
visitors annually and accommodates both mountain bikes and motorized 
recreationists, both of which are incompatible with wilderness 
designation. Approximately 8,000 of the acres of the proposed 
wilderness are managed by the BLM for these mechanized and motorized 
uses. The BLM manages approximately 13,000 acres of the ``heart'' of 
the proposed wilderness (Bangs Canyons East and West) as a back-country 
primitive area.
    Existing and proposed energy development pose inherent conflicts 
with wilderness designations, creating the challenge of managing 
extensive active mining claims and oil and gas leases within a 
designated wilderness. For example, all 27,569 acres of the proposed 
South Shale Ridge Wilderness are currently leased under 44 leases for 
oil and gas and include 11 producing wells. This area, part of the 
Piceance Basin, has been identified by the BLM as an oil and gas 
emphasis area for over 20 years.
    Likewise, nearly half of the proposed Snaggletooth Wilderness is 
currently under lease for oil and gas development, with 27 leases 
existing within the area. Active uranium mining is also currently 
underway within this area.
    Similarly the proposed Table Mountain Wilderness includes over 300 
active mining claims (largely for uranium). An extensive network of 47 
miles of primitive roads supporting uranium exploration crisscrosses 
the area.
Conclusion
    The Department of the Interior looks forward to future 
opportunities to expand the protection of treasured American 
landscapes. Colorado's exquisite deserts, canyons, cliffs, and peaks 
deserve our careful attention and thoughtful review. However, we 
recommend an approach more limited in scope so that we can assure 
proper review and consultation. Working cooperatively with local and 
national constituencies, this subcommittee, the sponsor of the bill, 
and the Colorado Congressional delegation, we can protect these special 
places.
                                 ______
                                 
    Mr. Grijalva. Thank you.
    Mr. Chris Brown, Director of Wilderness and Wild and Scenic 
Rivers Programs, Forest Service. Welcome, Mr. Brown. Look 
forward to your comments.

  STATEMENT OF CHRIS BROWN, DIRECTOR, WILDERNESS AND WILD AND 
  SCENIC RIVERS PROGRAMS, FOREST SERVICE, U.S. DEPARTMENT OF 
                          AGRICULTURE

    Mr. Brown. Thank you, Mr. Chairman. Mr. Chairman, Members 
of the Committee, thank you for the opportunity today to 
testify and share the department's view on H.R. 4289, the 
Colorado Wilderness Act. I am Chris Brown. I am the Director of 
Wilderness and Wild and Scenic Rivers for the Forest Service.
    Wilderness, the lands designated by Congress possessing 
truly special characteristics and beauty are part, a unique 
part of our American heritage. The management of these lands is 
the responsibility that we in the Forest Service take very 
seriously, and I am proud to lead a national program which 
includes well over 50 percent of the units in the Wilderness 
Preservation System.
    H.R. 4289 would designate 34 parcels of Federal land in 
Colorado, comprising a little over 850,000 acres as new 
components of the national system. Some of these parcels would 
be stand alone, and some would expand existing wilderness 
areas. Most of the Federal land addressed by the act, about 
615,000 acres, is managed by my colleagues at BLM. The 
department defers to the Interior Department in regards to 
those lands.
    But about 218,000 acres lying in 14 of 34 parcels 
identified in the act include National Forest System lands. All 
14 parcels have public land administered by BLM contiguous with 
the Forest Service lands, and I want to state that we are 
really proud to partner with BLM in our wilderness management 
on some of our nation's most treasured lands.
    We have not completed an extensive review of each of the 
proposed areas. However, during the development or revision of 
our forest land and resource management plans each national 
forest conducts a thorough evaluation of potential wilderness 
to assure recommendations fully satisfy the definition of 
wilderness found in Section 2 of the Wilderness Act.
    Extensive public involvement and input from many interested 
user groups goes into the development of those forest plans. 
They are the foundation by which we evaluate any proposal 
related to our national forests, and many of the areas cited in 
this bill were not recommended for wilderness designation in 
their respective forest plans.
    In an initial assessment of the parcels shows them falling 
into three distinct categories for us. Areas we support with 
minimal adjustment or changes, areas that merit further 
discussion and modification, and areas on which we feel 
different management options or designations would be more 
appropriate to best balance the interests of many user groups 
and fulfill our multiple use mission.
    We respectfully ask to work with the Committee and the 
bill's sponsor, Representative DeGette, to address these 
concerns. I am submitting a more detailed breakdown of each of 
the proposed parcels as part of my written testimony. In 
general though the areas we support include Browns Canyon, the 
majority of the Thompson Creek area, and a small portion of the 
Flat Tops Addition. Areas that we feel merit further 
consideration and more discussion include Badger Creek, Beaver 
Creek, Grape Creek, Roubideau and West Elk Addition. Parcels 
that we do not support as potential wilderness areas include 
Handies Peak, Norwood Canyon, Sewemup Mesa, Snaggletooth, 
Unaweep and Deep Creek.
    Most of these areas that we are not supporting have 
extensive motorized vehicle trails, roads, other kinds of uses 
through them, conflicting uses such as existing mineral, oil 
and gas leases. In addition, the White River National Forest 
Plan specifies that the Deep Creek area be managed for wild and 
scenic river objectives, pending the completion of a 
suitability study we were doing with the Bureau of Land 
Management. If as a result of that study the river is 
determined suitable, we would be pleased to support the river's 
addition to the National Wild and Scenic River System. Also, in 
the Deep Creek area, we have the issues of military aviation 
training that is a consideration for us.
    So, in summary, some of the proposed areas in this bill 
merit wilderness designation or at least further discussion, at 
the same time many of the parcels cited in the bill have a 
variety of conflicting uses and human impacts that are 
inconsistent with wilderness character. We want to work with 
the Committee to take a close look at some of these proposed 
wilderness areas to identify those nonconforming uses in detail 
and adjust boundaries, where possible, to identify manageable 
areas that include high quality wilderness characteristics.
    So, Mr. Chairman, and Members of the Committee, thank you 
again for the opportunity to be here today. That concludes my 
statement. I would be happy to answer questions.
    [The prepared statement of Mr. Brown follows:]

  Statement of Chris Brown, Director, Wilderness and Wild and Scenic 
     Rivers Programs, National Forest System, Forest Service, U.S. 
                       Department of Agriculture

    Mr. Chairman, Members of the Committee, thank you for the 
opportunity today to provide the Department's view on H.R. 4289, the 
Colorado Wilderness Act of 2009. I am Chris Brown, Director of the 
Wilderness and Wild and Scenic Rivers Programs for the USDA Forest 
Service.
    Wilderness--those lands designated by Congress possessing truly 
special characteristics and beauty--is a part of our uniquely American 
heritage. The management of these lands is a duty the United States 
Forest Service takes very seriously. I am proud to lead a national 
program that manages well over half of the Federal land units 
designated for wilderness.
    H.R. 4289 would designate 34 parcels of federal land in Colorado--
comprising 850,134 acres--as new components of the National Wilderness 
Preservation System (NWPS). Some of these parcels would be stand-alone 
wilderness areas, and some would expand existing wilderness areas. Most 
of the federal land addressed by this Act--about 615,000 acres--is 
managed by the Bureau of Land Management (BLM). The Department defers 
to the Department of the Interior in regards to the proposal to 
designate BLM lands. A total of about 218,000 acres, lying in 14 of the 
34 parcels identified in the Act, include National Forest System (NFS) 
lands. All 14 parcels also have public land administered by BLM 
contiguous to the NFS lands. I also want to state how proud we are to 
partner with the BLM on managing some of our nation's most treasured 
lands.
    The proposed legislation would designate 13 of the 14 areas having 
National Forest System Lands as components of the National Wilderness 
Preservation System upon enactment. The parcels are Badger Creek, 
Beaver Creek, Browns Canyon, and Grape Creek on the Pike and San Isabel 
National Forests; the Flat Tops Addition and Thompson Creek on the 
White River National Forest; Norwood Canyon, Roubideau, West Elk 
Addition and Unaweep on the Grand Mesa, Uncompahgre and Gunnison 
National Forests (GMUG); Sewemup Mesa on the Manti-LaSal and GMUG; 
Snaggletooth on the San Juan National Forest; and Handies Peak on the 
Rio Grande, San Juan, and GMUG. In addition, Deep Creek, on the White 
River National Forest, is identified as a ``Potential Wilderness 
Area.''
Evaluation of Proposed Wilderness Areas
    We have not completed an extensive review of each of the proposed 
areas. However, during the development or revision of a forest land and 
resource management plan (LRMP), each national forest conducts a 
thorough evaluation of potential wilderness or wilderness study areas 
to assure recommendations fully satisfy the definition of wilderness 
found in section 2(c) of the Wilderness Act of 1964. Extensive public 
involvement and input from many interested user groups goes into the 
development of these plans. They are the foundation by which we 
evaluate any proposal related to our national forests. Many of the 
areas cited in this bill were not recommended for wilderness 
designation in their respective forest plans. An initial assessment of 
the parcels show them falling into 3 distinct categories: areas we 
support with minimal adjustment or change, some that merit further 
discussion and modification; and some we feel different management 
options or designations would be more appropriate to best balance the 
interests of our many user groups and fulfill our multiple use mission. 
We respectfully ask to work with the committee and the bill's sponsor, 
Representative DeGette, to address these concerns.
NFS Proposed Wilderness Areas on the White River National Forest
    The Department supports wilderness designation of 830 acres of the 
16,392 acres in the Flat Tops Addition Proposed Wilderness Area, as 
recommended in the White River National Forest Land and Resource 
Management Plan (2002). The remaining acres would present management 
problems, such as a cherry-stemmed road intersecting the middle of the 
area that would encourage the spread of unauthorized motorized trails; 
a developed campsite; a private resort development directly adjacent to 
the proposed wilderness; and frequent snowmobile use.
    The Department supports wilderness designation of Assignation 
Ridge, an area comprising 11,752 acres of the 17,114 acres in the 
Thompson Creek Proposed Wilderness Area, as recommended in the White 
River Land and Resource Management Plan. The Braderich Trail, heavily 
used by mountain bikers, lies within the proposed wilderness boundary. 
Adjusting the western boundary to reflect the forest plan 
recommendation would exclude the trail from wilderness, and allow the 
continuation of mountain biking opportunities while minimizing concern 
about mechanized trespass. Leasable minerals, three oil and gas leases, 
and adjacent private lands needing wildland urban interface fuels 
treatments are additional concerns that argue for limiting the proposed 
wilderness area to that recommended in the forest plan.
    The Department does not support ``Potential Wilderness'' 
designation for the 16,392-acre NFS portion of the Deep Creek Proposed 
Wilderness Area. The White River National Forest Land and Resource 
Management Plan specifies that Deep Creek be managed for wild and 
scenic river objectives pending completion of an ongoing joint BLM/FS 
suitability study. If, as a result of this study, the river is 
determined suitable, we would be pleased to support its addition to the 
National Wild and Scenic Rivers System (WSRS).
    The Act specifies that the Deep Creek area would be designated 
wilderness ``upon the Secretary publishing in the Federal Register a 
notice that all nonconforming uses'' have ceased.'' The non-conforming 
uses relate to High-Altitude Aviation Training Site (HAATS) activities 
(aerial navigation training maneuver exercises) that occur in this area 
under a memorandum of understanding (MOU) among the Colorado Army 
National Guard, Forest Service, and BLM. It should be noted that the 
correct date of this MOU is November 19, 2007, not August 4, 1987.
    The Act specifies that HAATS exercises may continue under the MOU, 
but the MOU and associated operating plan shall be reviewed by the 
parties not later than 180 days after enactment of Act, and annually 
thereafter. The review is to include consideration of alternative 
locations for HAATS activities on NFS lands or lands administered by 
the BLM, other than designated wilderness or potential wilderness 
areas.
NFS Proposed Wilderness Areas on the Pike and San Isabel National 
        Forests
    The Department supports designation of the Browns Canyon Proposed 
Wilderness Area. However, we are concerned that the Act would allow 
continued motorized use of the Turret Road. The road extends 3.25 miles 
from the proposed wilderness boundary into the heart of the proposed 
area, virtually bisecting it. This use is problematic for several 
reasons: some motorized users are driving off the road, creating a 
system of informal trails that damage vegetation and soil, and disturb 
wildlife; motorized use creates noise that is inconsistent with 
wilderness character; and motorized use complicates management of the 
area for wilderness. Therefore, we suggest that the road be closed to 
motorized use at Green Gulch, on the border of the proposed wilderness 
area.
    The Department would like to further discuss designation of the 
14,696 acres in the Badger Creek Proposed Wilderness Area. 14,440 acres 
are inventoried roadless acres. The remaining acres contain motorized 
roads that would complicate management. We therefore would suggest 
adjusting the boundary of the proposed wilderness area.
    The Department would also like to further discuss designation of 
the Beaver Creek Proposed Wilderness Area. This 4,326-acre area is 
classified as inventoried roadless with no non-conforming uses. 
However, there are concerns that designating this area as wilderness 
could inhibit our ability to actively fight fire in the wildland urban 
interface.
    The Department does not support designation of the 16,913-acre 
Grape Creek Proposed Wilderness Area. Much of the proposed area is a 
network of motorized roads that would not offer a true wilderness 
experience. Other nonconforming uses include power transmission lines 
and pipelines under special-use permit.
    At the same time there is a smaller portion of this area-5,866 
inventoried roadless acres known as West Tanner Peak-that we feel would 
merit further consideration. The westernmost portion of the Tanner Peak 
area, adjacent to BLM lands, makes a more manageable topographic 
boundary and would exclude motorized trails.
NFS Proposed Wilderness Areas on the Rio Grande, San Juan and Grand 
        Mesa, Uncompahgre and Gunnison National Forests (GMUG)
    The Handies Peak Proposed Wilderness Area has a number of uses that 
would not conform to the Wilderness Act and that could complicate its 
management as wilderness. Wager Gulch is a heavily used motorized 
corridor on the east side of the proposed wilderness area; numerous 
roads would encourage motorized trespass. Moreover, a land exchange in 
Wager Gulch is currently being analyzed. Mountain bike use occurs in 
the Cuba Gulch area, and there is a private in-holding. The Hard Rock 
100 foot race also crosses a portion of the area. We do not support 
wilderness designation for this area.
NFS Proposed Wilderness on the GMUG
    The Norwood Canyon Proposed Wilderness Area has a number of 
nonconforming uses, including existing and pending oil and gas leases; 
a power line; past and planned forest management treatments, 
plantations and fuel treatment projects; and a four-mile cherry stem 
that would complicate management as wilderness. We do not support 
wilderness designation of this area.
    The NFS portion of the Roubideau Proposed Wilderness Area adjoins 
the BLM's Roubideau Wilderness Study Area. This 2,161 acre parcel has 
no motorized or non-conforming uses. Rather than discussing the merits 
of this smaller parcel, we would like to be involved in any future 
discussions regarding the designation of the entire Roubideau 
Wilderness Area.
    The Department does not support designation of the 39,392-acre 
Unaweep Proposed Wilderness Area. Most of this area has a number of 
nonconforming uses including motorized use, extensive vegetation 
management (pinyon, juniper, and oakbrush), timber harvest, mechanical 
fuels treatments, water transportation ditches, and reservoirs.
    The Department would like to further discuss designation of the 
West Elk Addition Proposed Wilderness Area. Currently the West Elk 
Wilderness is managed as a single-unit by the GMUG. The proposed 
addition comprises lands adjacent to it that are managed by the Forest 
Service, BLM, and National Park Service. The complexity of managing the 
proposed addition could be reduced by consolidating management of the 
federal lands in the proposed addition under one agency. It should be 
noted that the proposed area was identified in the Final Resource 
Protection Study/EIS for the Curecanti National Recreation Area (NRA) 
(August 2008) as land to be added to the NRA.
Manti-LaSal and GMUG National Forests
    The Sewemup Mesa Proposed Wilderness Area straddles the state line 
of Colorado and Utah. There are old uranium mines at the lower end of 
Roc Creek, and uranium and active oil and gas leases within the 
proposed wilderness. Limited public access and uncontrolled motorized 
traffic would also pose significant problems. We do not support the 
proposed wilderness designation of Sewemup Mesa.
San Juan National Forest
    The Snaggletooth Proposed Wilderness Area has a large number of 
nonconforming uses, including 27 oil and gas leases, roads that are 
used for recreation and permitted uses, active uranium mine claims, 
potash prospecting permits, timber treatments, wildlife habitat 
improvements, and fuels treatments. We do not support the proposed 
wilderness designation for this area.
Summary
    In summary, some of the proposed areas in this bill merit 
wilderness designation or at least, further discussion. However, many 
of the parcels cited in the bill have a variety of conflicting uses and 
human impacts that are inconsistent with wilderness character. We want 
to work with the Committee to take a close look at some of the proposed 
wilderness areas to identify these nonconforming uses in detail and 
adjust boundaries, where possible, to identify manageable areas that 
include the highest-value wilderness characteristics. In addition, we 
strongly support the water provisions in the Act, which state that the 
Secretary shall obtain and exercise water rights pursuant to the laws 
of the State of Colorado for federal purposes necessary for wilderness 
and wilderness uses.
    This concludes my statement. I would be happy to answer any 
questions that you may have.
                                 ______
                                 
    Mr. Grijalva. I don't have any questions at this point. We 
have six votes coming up and I am going to ask for the 
panelists' indulgence to come back. I know we have follow-up 
questions for you.
    Let me at this point ask Mr. Bishop if he has any comments 
before we break for voting?
    Mr. Bishop. If we are going to vote right now, I would move 
to vote and then come back, Mr. Chairman.
    Mr. Grijalva. We have six votes.
    Mr. Bishop. I would obviously ask this request for the 
panel however long this goes that we have the right to submit 
written questions with the expectations they will be coming 
back, and I think we can vote and come back afterwards if that 
is OK with you.
    Ms. DeGette. I do have questions for the panel.
    Mr. Grijalva. OK.
    Mr. Bishop. OK. After the voting?
    Mr. Grijalva. Yes, after the votes.
    Mr. Bishop. Fine.
    Mr. Grijalva. OK, so we are going to recess until after 
these votes--a half an hour or so. That's the hope. Thank you.
    [Recess.]
    Mr. Grijalva. After that short interlude, will the 
panelists come back up? Thank you.
    And again thank you. Obviously my prediction of a half an 
hour was a little bit off, but thank you for waiting through, 
and to the witnesses that are coming up in the next panel thank 
you as well.
    Deputy Director Burke, your testimony mentions that you 
would support a narrower geographic focus. Is that because of 
the level of support in certain areas is stronger than in 
others or are there other reasons for the narrower approach?
    Ms. Burke. Thank you, Mr. Chairman.
    We think that the Omnibus Public Land Management Act of 
2009 gives us several good models about how to go about 
designating wilderness in the future, the Washington County 
portion of that bill, for example, or the Ouray County portion 
of the bill. So that was one county at a time. Certainly we can 
look at multi-county proposals as well, but our concern here is 
that we haven't had an opportunity to thoroughly evaluate the 
land in order to make a good management decision.
    It is very rare, in fact, I am only aware of one case where 
we have had active development in a wilderness area.
    Mr. Grijalva. Mr. Brown, could you expand a little bit on 
why potential wilderness designation is not acceptable to the 
Forest Service?
    Mr. Brown. We in our forest plans look at the potential for 
wilderness and evaluate the areas, roadless areas for possible 
designation, but from a management point of view we would 
prefer to have a designation, if Congress wants to designate a 
specific name, something like a special management area, it is 
difficult for us to manage with a trigger or the sort of 
uncertainty created by potential wilderness. We would rather 
have the definitiveness of a special particular designation 
such as special management area.
    Mr. Grijalva. Yes. The same question that I asked Ms. 
Burke, mining claims, oil and gas leases, there are some, you 
mentioned there are some in Forest Service areas, how have you 
handled similar leases in other wilderness areas?
    Mr. Brown. Well, when an area is designated by law, the 
area is withdrawn from oil/gas leasing new leases subject to a 
valid existing claims. Where there are operations underway, 
those operations will continue. We will honor the authority 
under which those are being conducted. We will typically review 
the conditions, the stipulations that they are being conducted 
under, but they do continue. We have, for example, an operation 
underway in a wilderness area in Texas. It is not common but it 
does occur.
    Mr. Grijalva. OK, thank you. Thank you, both.
    Ms. DeGette, any questions?
    Ms. DeGette. Thank you so much, Mr. Chairman. Before I ask 
my questions I would like to ask unanimous consent to enter 
into the record the results of the 2007 wilderness poll that I 
referenced in my opening statement.
    Mr. Grijalva. Without objection.
    Ms. DeGette. A list of supporters from the Central Colorado 
Wilderness Coalition; a list of supporters from the proposed 
Browns Canyon Wilderness Area; a survey on the economic impact 
of hunting and fishing, and a statement from Tresi Houpt, who 
is a Garfield County Commissioner in support of my legislation.
    Mr. Grijalva. Without objection.
    Ms. DeGette. Thank you so much, Mr. Chairman.
    [The statement of Tresi Houpt, Garfield County 
Commissioner, submitted for the record follows:]

   Statement of Commissioner Tresi Houpt, Garfield County Commission

    Thank you, Mr. Chairman and members of the committee, for this 
opportunity to comment on H.R. 4289, the Colorado Wilderness Act of 
2009.
    I am honored to say that I am a native Coloradan and proud 15 year 
resident of Garfield County, Colorado. My county is a diverse county in 
every sense of the word, from our flat top peaks, lush riparian river 
valleys to our sage brush covered desert highlands. Our economy spreads 
from tourism to growing natural gas development across the county. What 
makes our county special are our unique residents who range from old-
time ranchers, workers in the service industry, and workers on a 
drilling rig. However, the fabric which binds us together in Garfield 
County is the land, the Roaring Fork and Colorado Rivers which run 
through it, and the wilderness all around us.
    Garfield County contains one of the first reserves ever established 
by the federal government under President Theodore Roosevelt and one of 
the earlier wilderness areas set aside in the Wilderness Act of 1964--
the Flat Tops Wilderness.
    Even back then, the process of establishing wilderness in Colorado 
brought controversy with views ranging from those who felt the land 
should never be set aside if it had even the potential for economic 
production, to those who felt that every acre of land ``untouched'' by 
humans should be set aside for wildlife and recreation. However, people 
came together, as they do today, talked about what was possible, 
compromised, and put together a wilderness proposal that was 
reasonable, attainable and yet visionary.
    The citizens of Colorado and Congresswoman Diana DeGette have put 
together a similar proposal--the Colorado Wilderness Act--which was 
closely considered, ground-truthed by citizen volunteers and federal 
agencies, and vetted for the proposed lands' wilderness potential and 
characteristics.
    Colorado is a fast-growing state with a population that has spread 
itself out as we have grown. Moreover, my county and the western slope 
of Colorado, has seen a proliferation of energy development--benefiting 
our economy, but impacting our citizens and our land. So it is truly 
remarkable to say there are remaining public lands still worthy of 
wilderness protection. The Colorado Wilderness Act before you today 
contains many of these remaining areas.
    I applaud the work of Congresswoman DeGette who has engaged our 
elected officials and local residents on the areas in the Colorado 
Wilderness Act of 2009. Without her leadership of proposing these areas 
and encouraging public debate and discussion of wilderness in 
Colorado--in particular the lower-elevation Bureau of Land Management 
areas which are the focus the Congresswoman's legislation--we may never 
have had this historic hearing.
    There are some areas in this proposal that will require renewed 
review with local officials and citizens across the State who want to 
have additional opportunities for input. But that doesn't mean we 
should not be initiating discussions on these areas or that they should 
not be considered for the very special federal designation of 
wilderness.
    As I look at my county today and western Colorado as a whole, I 
embrace the changes we have seen but I am also concerned for what may 
be lost in the future, particularly to our public lands. In the areas 
which do qualify for wilderness across our State and where citizens can 
move forward together, as generations have done before, we must embrace 
our opportunities and protect our wilderness lands so our children and 
grandchildren can enjoy the beauty and splendor of what makes the 
Colorado we love today.
    I would like to close by stating that I fully support Congressman 
Salazar's San Juan Wilderness Bill and the process he followed for 
identifying wilderness boundaries. In developing wilderness 
legislation, it is critical to engage local officials and citizens, as 
well as state and federal agencies. I appreciate the promise of 
collaboration demonstrated by Ms. DeGette and Mr. Salazar and the 
commitment to continued dialogue in Colorado as we move through this 
process.
                                 ______
                                 
    [NOTE: The other documents submitted for the record can be 
found on pages 6 and 8.]
    Ms. DeGette. I want to thank both of you for testifying 
today and ask you a couple of questions about your testimony. 
Ms. Burke, I want to thank you for your testimony today, and I 
appreciate the BLM support for several areas in my bill.
    Are there additional areas that you believe the BLM could 
support with boundary fixes or other kinds of fixes on oil and 
gas, minerals language, other kinds of language?
    Ms. Burke. We would welcome the opportunity to work with 
you and to determine what areas would be appropriate for the 
designation.
    Ms. DeGette. And many of the areas in my legislation are 
area that were identified by the BLM in the original wilderness 
inventory back in the early 1990s, correct?
    Ms. Burke. Yes, there are a number of WSAs, or Wilderness 
Study Areas that were identified.
    Ms. DeGette. Of those Wilderness Study Areas, all of those 
areas have been managed as if they were wilderness since that 
date, is that correct?
    Ms. Burke. That is correct.
    Ms. DeGette. And so for the areas, the BLM Wilderness Study 
Areas that have been managed as such, what that would mean is 
there would be no legal motorized use, ATVs, or other kinds of 
motorized use in those areas, would that be correct?
    Ms. Burke. Those sorts of uses would be precluded in 
wilderness areas.
    Ms. DeGette. And also in the Wilderness Study Areas that 
are being managed as wilderness?
    Ms. Burke. Correct.
    Ms. DeGette. All right. So for people who might talk about 
use of motorized vehicles or other types of vehicles that are 
not allowed in wilderness areas, for the last 20 years or so 
the WSAs that are managed by the BLM have been managed without 
those kinds of motorized uses?
    Ms. Burke. Yes.
    Ms. DeGette. OK. I also wanted to ask you, Ms. Burke, about 
Handies Peak because this is an interesting area. Handies and 
Red Cloud are two of the areas in my bill that I, frankly, am 
particularly attached to because Handies Peak is the highest 
peak managed by the BLM outside of Alaska, and there is a 
16,000-acre Wilderness Study Area in Handies that the BLM did 
not recommend for wilderness designation. My understanding is 
back when the BLM did the original inventory this was because 
of mining potential. And my question to you is, now it has been 
over 15 years since that inventory was conducted. Has there 
been any interest in mining on Handies since that time?
    Ms. Burke. I am not aware of any interest in mining on that 
area. We are currently managing it as a primitive or semi-
primitive recreational area, and I understand from my staff in 
Colorado that it is really a spectacular back country 
recreational area.
    Ms. DeGette. Yes, and I will say as someone who has been up 
there, I mean, it is a gorgeous alpine area, and so I would 
imagine anybody's management plans for that, since it is alpine 
tundra, would not include ATVs or other kinds of--I mean, one 
of the management problems they have, one of the management 
problems your agency has right now with Handies, there is a 
road that cuts right through Handies and Red Cloud which we 
cherry stem in my bill, but then they have a problem with 
unauthorized ATV use and other use in that area which might be 
helped by wilderness management.
    Would your agency be willing to work with me on boundaries 
and other kind of issues in Handies if we wanted to move 
forward with that particular area?
    Ms. Burke. Absolutely.
    Ms. DeGette. OK, thank you very much.
    Mr. Brown, I just have a couple of questions for you. Your 
testimony and your written testimony, and you reflected it 
today, your agency supports seven of the Forest Service-managed 
areas in my bill with some modification or additional 
discussion, and I appreciate that, and I want to thank you for 
saying, as Ms. Burke does, that you are willing to work with me 
as we go forward. I want to talk to you about two of the 
specific issues.
    The first one is Browns Canyon. One of the areas you 
identify is Browns Canyon but the Forest Service says it is 
concerned that the bill might leave the turret trail open and 
the Forest Service would like to see it closed. I am wondering 
if you can explain that rationale for that particular area.
    Mr. Brown. We do support Browns Canyon for wilderness 
designation, and we would like to see the road closed. It is a 
road that bisects the area and really provides for access for 
motorized use that would lead to trespass, very difficult to 
manage, and creates enforcement issues for us. So without the 
road closure on that, we just don't think--well, the job of 
managing the wilderness would be very difficult, so we are 
very----
    Ms. DeGette. And do you think that if we closed that trial, 
that would hamper peoples' access into the Browns Canyon area?
    Mr. Brown. Well, I think for wilderness users that would 
not be a problem. There is adequate access for them.
    Ms. DeGette. OK. One last question, Mr. Chairman. I know in 
your written testimony you said that your agency supports the 
water language in my bill. I am wondering if you could just 
describe briefly what are the advantage of requiring the 
Federal government to obtain water rights pursuant to Colorado 
versus the old language we used to use of the Federal reserve 
water rights?
    Mr. Brown. Well, the language in your bill tracks with the 
language that is in the Great Sand Dunes National Park Preserve 
Act of 2000, and that is language we are very comfortable with 
because it does assert that the Federal government can gain a 
water right, but it is working within the State of Colorado 
system for appropriation and that is really what we are 
comfortable with, so we appreciate very much your having that 
language in your bill.
    Ms. DeGette. Thank you. Thank you very much, Mr. Chairman. 
I have no further questions of this panel.
    Mr. Grijalva. Thank you, and let me thank the panelists for 
your comments and information, and also for your patience. 
Thank you.
    Ms. Burke. Thank you.
    Mr. Grijalva. Let me invite the next panel up, please, and 
we will go out of order and ask Commissioner Goodtimes of San 
Miguel County Commissioner to be the first one because I think 
he has a pending exit somewhere that he has to be at.
    Thank you very much, and again thank you for waiting us 
out. I appreciate it and thank you for those that come a 
distance for being here. It is an important piece of 
legislation and we appreciate you being here and your comments, 
we are looking forward to them.
    Commissioner, if you don't mind.

           STATEMENT OF ART GOODTIMES, COMMISSIONER, 
         SAN MIGUEL COUNTY, COLORADO, NORWOOD, COLORADO

    Mr. Goodtimes. Thank you very much, Mr. Chairman. It is an 
honor to be once more before your Committee, to be here with 
Congresswoman DeGette, the Committee Members and staffers.
    I would like to echo the testimony of Representative John 
Salazar, who is my elected official here in the House, and 
applaud Congresswoman DeGette for all of her great work as a 
protector of wild places and for seeking to preserve a few of 
our natural systems relatively free of human influences in this 
great State of Colorado.
    I count her as the esteemed dean of the Colorado 
Congressional Delegation. She has been an environmental ally, 
an ideological colleague, and a personal political friend, and 
I just want to again take this opportunity to commend her for 
her great work with wilderness.
    You know, I believe her championing of this Omnibus 
Colorado Wilderness Bill, House Bill 4289, in doing that she 
has given our centennial state a grand vision of wilderness 
that we need to work toward putting into law. Many of these 
areas are most suitable for wilderness designation by the 
Congress, and it is something that I think a lot of us support 
in the grand picture, but I think this isn't a final picture. I 
think the omnibus bill needs to be fine tuned in some places.
    We need to have the kind of face-to-face hearings that 
Representative John Salazar and his staff had on the San Juan 
Mountains Wilderness Bill where ranchers were sitting down with 
the environmental community. We had hunters with motorized 
users, hikers, and bikers with rafters and professional guides. 
We had politicos from all different jurisdictions, along with 
special-interest groups. I think it is that kind of broad-
ranged collaborative processes that are really critical as we 
move forward in the 21st Century into putting wild lands into 
protective status. We understand the needs of communities for 
strong economies, particularly in this downturn. At the same 
time, we have to preserve for the future some of these amazing 
areas that we have.
    I think we also need kind of a full vetting process in 
which folks closest to the wilderness boundaries have as much 
say as their distant constituencies, and I believe that deeply 
as both as a progressive and a local elected official. I think 
we have started a national coalition of gateway communities 
specifically to address at the national level the ability of 
local communities to have a say in decisionmaking.
    You know, we have couched it as local control, and that is 
not appropriate on Federal lands, but it is appropriate, I 
think, to have real local input and local influence and 
decisionmaking. So I think we need a full round of negotiations 
and collaborations, some round table discussions that are 
happening in western Colorado right now, things like the 
Dolores River dialogue in Cortez, and the public lands 
partnership in Montrose. I think those are great examples of 
collaborative efforts that have taken quite some time, but have 
been very, very useful to getting us to a better place in terms 
of understanding our needs both for a strong economy and for 
strong ecology.
    I think we heard testimony from our agency people that we 
need to do a little bit more review on some of these areas. 
Some of them, as the Congresswoman has pointed out, I think are 
perhaps are close to ready, but some aren't. Personally I have 
been a life-long champion of wilderness. I have been a member 
of numerous community groups devoted to wilderness protection. 
I have been an activist who founded a local environmental group 
in my county, and so I know it is really important about 
wilderness, and so many of my constituents have worked very 
hard, particularly on Representative Salazar's bill.
    I am Chair of the San Miguel County Board of Commissioners, 
I am Chair of my state association's Public Lands Committee, 
and I am also chair of this new National Association of County 
Gateway Community Subcommittee.
    So, again, the effect of public lands on all aspects of 
peoples' lives, both as a driver for tourism, as a place of 
refuge for our biome, and also for a way to move forward and 
protect these special places. I think all of these places have 
real meaning for us.
    You know, 11 years ago I was one of the few commissioners 
that supported Congresswoman DeGette when she came forward with 
this wilderness bill, and I think my quote appeared in the 
Colorado Coalition's brochure in support at that time.
    In those years since that time of the initial support I 
have met and talked with many of my Colorado citizen 
constituents, and those who are for wilderness and those who 
have been against wilderness, and I think I have learned a 
number of controversies and on-the-ground skepticism expressed 
by rural commissioner, both progressive and conservatives, 
regarding House Bill 4289. I think personally what 
Congresswoman DeGette has offered us is am omnibus bill is a 
road map for investigation that can begin the arduous and 
lengthy task of vetting meetings, hearings, tours and detail 
work that will get us to a wilderness designation for suitable 
public lands in these areas.
    I also would like to just stand by thanking her for her 
vision. Without this kind of vision, without this kind of idea 
of the areas that are so special, I think it would be a lot 
harder for us to move forward. But I also hope you will defer 
consideration on this omnibus bill at this time and commend 
wilderness advocates to undertaking the region by region 
process that Representative Salazar's bill has demonstrated, a 
process that I personally would hope will become a template for 
how wilderness designations should be done in our country.
    With that, I thank you very much, Mr. Chair, Congresswoman, 
Members and staffers.
    [The prepared statement of Mr. Goodtimes follows:]

       Statement of Commissioner Art Goodtimes, San Miguel County

    I applaud Rep. Diana DeGette for being a protector of wild places 
and of preserving natural systems relatively free of human influences.
    I count her as the esteemed dean of the Colorado congressional 
delegation, environmental ally, ideological colleague, and political 
friend.
    I believe by championing this omnibus Colorado wilderness bill, she 
has given the Centennial State a grand vision of wilderness that we 
need to work towards putting into law. There are many areas most 
suitable for wilderness designation by the Congress included in the 
bill. But it's not a final picture. It's a rough draft.
    The Omnibus bill needs to be fine-tuned. Ground-truthed. We need to 
have the kind of face-to-face hearings that Salazar's San Juan 
Mountains Wilderness Bill had, where ranchers sit down with enviros, 
hunters with motorized-users, hikers and bikers with rafters and 
professional guides, politicos with special-interest groups.
    We need a full vetting process in which folks who live closest to 
wilderness boundaries have as much say as distant constituencies. We 
need a full round of negotiations, collaborations, round-table 
discussions like are becoming more common in rural Colorado, from the 
Dolores River Dialogue in Cortez to the Public Lands Partnership in 
Montrose.
    I have been a lifelong champion of wilderness, a member of 
countless community groups devoted to wilderness protection, an 
activist who helped found our local environmental group in San Miguel 
County--where I live and which is supporting Salazar's wilderness bill.
    I'm chair of the San Miguel County Board of Commissioners, chair of 
my state county organization's Public Lands Steering Committee, and 
chair of the National Association of Counties' Gateway Communities 
Subcommittee.
    I publicly supported Rep. DeGette's omnibus Colorado wilderness 
proposal when she first introduced it a number of years ago. My quote 
appeared on the Colorado Environmental Coalition brochure supporting 
her bill. The bill has not won a hearing before this committee until 
this very year.
    In the years since I first supported it, I have met and talked with 
many Colorado citizens, both those for and those against wilderness. 
I've listened to constituents who know many of these areas intimately, 
and I've learned of numerous controversies and seen the on-the-ground 
skepticism of my rural commissioner colleagues, both progressive and 
conservative.
    What Rep. DeGette has offered us in the omnibus bill here is a 
roadmap for investigation to begin the arduous and lengthy task of 
vettings, meetings, hearings, tours and detail work that will get us to 
wilderness designation for suitable public lands and some other 
suitable designation compatible with developing forest and resource 
management plans in Colorado forests.
    I thank her for her vision. But I hope you will defer consideration 
of this omnibus bill at this time, and commend wilderness advocates to 
undertaking the region-by-region process that Rep. Salazar's bill has 
demonstrated--a process that should become the template for bringing 
new wilderness to fruition in Colorado
                                 ______
                                 
    Mr. Grijalva. And before you depart, Commissioner, Ms. 
DeGette have any comments?
    Ms. DeGette. I just want to thank Mr. Goodtimes for making 
the long trip here, a trip which was made even longer by the 
collapse of one of our main roads in Colorado, which is why 
Commissioner Houpt couldn't be with us today. So thanks for 
coming. I appreciate it. We will keep working on this.
    Mr. Goodtimes. Thank you very much, Congresswoman.
    Mr. Grijalva. And Commissioner, I am fascinated by the 
point that you are making because we see it all the time, that 
collaboration and consensus building and accommodation now has 
to be part and parcel of the wilderness designation process as 
we go forward. Local communities, interested groups, whatever 
kind having to be part of it.
    The question that lingers for me, at what point is that 
process over or is it an ongoing process and never ends because 
that is the reverse criticism of it.
    Mr. Goodtimes. Mr. Chairman, that is an excellent question. 
I guess I would answer it by saying what I have discovered, 
particularly with the public land partnership, is that we 
establish a table of trust, and it took seven, eight, nine 
years to get that table of trust in place where when the woman 
who represented the timber industry spoke, I actually believe 
her. When the motorized community said that this was important 
to them, I really believe what they were saying, and they began 
to hear when we said that this are was very critical 
environmentally, they began to listen. Even though it took a 
long time, I think that process of building a table of trust is 
almost the most important element. Once you get to the table of 
trust and you begin listening to each other, then I think we 
begin to make the accommodations that make this a successful 
bill, and I think that is what has happened with Representative 
Salazar's 30,000 acres. It took us two and a half years.
    Congresswoman DeGette has been working at this for 11. I 
think it takes awhile sometimes, but you are right, there is a 
point at which when you can't get people together, when you 
have done very reasonable thing, that you finally have to say 
that is enough, we need to make legislation, and with your good 
graces I believe that is your authority and I appreciate your 
willingness to take a look at that.
    Ms. DeGette. Mr. Chairman, if I may.
    Mr. Grijalva. Yes.
    Ms. DeGette. I agree with a lot of what Mr. Goodtimes says. 
In fact, one of the key areas in Mr. Salazar's bill is an area 
from my bill, that was originally in my bill, McKenna Peak, so 
those kinds of collaborative efforts have been happening and I 
am sure they will continue.
    Mr. Grijalva. Appreciate your time, Commissioner. Thank 
you. Good to see you again.
    Mr. Goodtimes. It is an honor, sir.
    Mr. Grijalva. Mr. Steve Smith, Assistant Regional Director, 
The Wilderness Society. Welcome.

  STATEMENT OF STEVE SMITH, ASSISTANT REGIONAL DIRECTOR, THE 
              WILDERNESS SOCIETY, DENVER, COLORADO

    Mr. Smith. Thank you, Mr. Chairman. I am delighted to be 
here to take this generous opportunity to comment on H.R. 4289. 
I am always happy to speak about the remarkable splendor of 
Colorado wildlands in general, and the importance of promptly 
protecting more of our enduring resource of wilderness.
    My name is Steve Smith. I live in Glenwood Springs, 
Colorado. I am speaking today for The Wilderness Society as 
well as for our associate organizations, Colorado Environmental 
Coalition, Colorado Mountain Club, Environment Colorado, and 
Wilderness Workshop.
    We are especially pleased to see our state's Congressional 
Representatives here today, Congresswoman Diana DeGette, of 
course, whose visionary legislative proposal is the topic of 
today's hearing, and Congressman John Salazar who was here 
earlier, in whose district so many of these wonderful lands are 
found and who has taken important wilderness protection 
initiatives of his own.
    Colorado is generously blessed with an astounding heritage 
of wilderness, some already recognized and designated by 
Congress, and still others so deserving of that designation. In 
addition to more typical wilderness of high showy mountain 
peaks, Colorado also boasts serpentine sandstone canyons, rich 
and vibrant desert ecosystems, and temperate elevation lands 
that provide essential seasonal habitat for wildlife and year-
round respite and recreation for people.
    In the pursuit of protection of this more complete tapestry 
of Colorado's wonder that brings us here today to seek your 
help. Congresswoman Diana DeGette has long stood as a true 
wilderness champion in Colorado. Over the past decade she has 
proposed variations of wilderness designations that help 
complete that tapestry. Her legislation before you is a well-
considered installment on those new protections that are 
needed.
    The lands in this proposal have been carefully researched 
on the ground to embrace the key features of these wildlands 
and to avoid conflicts with a variety of non-wilderness 
activities. We are proud to have helped with those field 
inventories of the areas which come from our citizen-crafted 
Colorado's Canyon Country Wilderness Proposal. For all that we 
have done on that proposal we recognize that significant work 
still remains focused on learning and incorporating the views, 
recommendations and commitments of local elected officials, of 
local people in general, and of the broader Colorado citizenry.
    The protection of natural stream flows in wilderness is an 
important policy question in Colorado, and H.R. 4289 proposes 
straightforward language for protecting streams based on 
Colorado water law. Normally we would endorse this clear and 
simple approach. Last year, however, we saw Congress approve 
new Colorado customized water protection language for midstream 
wilderness areas. That language directs Federal managers to 
work directly with the State of Colorado to establish state-
held in-stream flow water rights for wilderness streams. This 
new Federal/state partnership is, I believe, the new model for 
midstream wilderness. Combined with the head waters language, 
also Colorado crafted and first approved by Congress in 1993, 
we think we have a good creative approach to water protection 
in wilderness.
    Another key policy issue, the Wilderness Act declares that 
historical grazing is compatible with wilderness. H.R. 4289 
affirms that declaration, and we support that.
    Military helicopter training is a unique issue in a few of 
the areas proposed in this legislation, and the bill includes 
accommodations for that important training program based on the 
Congresswoman's extensive discussions with the military and 
Federal managers.
    More recent discussions with the national guard and army 
are nearing agreement on a new version of legislative 
provisions that will protect these areas. Once finished, we 
will encourage their use.
    In all instances, even where we have made good progress in 
these and other technical issues, we all need to do more to 
incorporate local knowledge and to secure local support for 
these deserving areas, and to help facilitate a team approach 
among our congressional wilderness champions. Specifically 
critical to that teamwork, areas proposed in Colorado's Third 
Congressional District need to be shepherded through Congress 
with the insights and leadership of Congressman Salazar, who 
has undertaken specific wilderness negotiations and legislation 
in that part of our state.
    In addition to the bills already introduced, we will soon 
bring to our representatives and to you additional proposals to 
establish mid-elevation wilderness in central Colorado in the 
White River National Forest, and as you will hear shortly, some 
marvelous areas along the Arkansas River Watershed.
    We are blessed to have both diverse wilderness in our state 
and we are also blessed with a team of wilderness advocates in 
our Congressional Delegation. We are now poised to add to both 
these legacies the legacy of wilderness itself and the legacies 
of wilderness champions working together. This is the way 
successful wilderness legislation has always worked in 
Colorado, and this is the way we must approach the work now.
    We will provide our help to getting this done. With such 
remarkable places at stake, each detail of their permanent 
protection must be resolved carefully. With so many pressures 
on these lands we must act quickly to protect them before we 
lose the opportunity to do so. Carefully and quickly are the 
watch words for successful wilderness legislation.
    We thank Congresswoman DeGette for pressing a Colorado 
wilderness vision. We thank our Delegation Members for joining 
in that effort, and we thank the Committee for giving it its 
timely attention. Thank you very much.
    [The prepared statement of Mr. Smith follows:]

        Statement of Steve Smith, Assistant Regional Director, 
                The Wilderness Society, Denver, Colorado

    Thank you, Mr. Chairman, and members of the committee, for this 
opportunity to comment on H.R. 4289, the proposed Colorado Wilderness 
Act of 2009, to speak about remarkable splendor of Colorado wildlands 
in general, and to support an array of legislative opportunities to 
protect the best of those lands as ``an enduring resource of 
wilderness''.
    I live in Glenwood Springs, Colorado, where I serve as Assistant 
Regional Director for The Wilderness Society. I speak today in behalf 
of The Wilderness Society, Colorado Environmental Coalition, Colorado 
Mountain Club, Environment Colorado, and Wilderness Workshop.
    We are especially pleased to see our state's congressional 
representatives here today--Congresswoman Diana DeGette, of course, 
whose visionary legislative proposal is the topic of today's hearing; 
Congressman Mike Coffman, who represents so many of our fellow citizens 
who enjoy the outdoors; Congressman Doug Lamborn, whose district 
includes several rich areas proposed for wilderness; and Congressman 
John Salazar, in whose district so many of these wonderful lands are 
found.
    Colorado is generously blessed with an astounding heritage of 
wilderness, some already recognized and designated by Acts of Congress, 
others still waiting for--and ever so deserving of--additional 
protective designation.
    Our state is home to more towering, snow-capped peaks over 14,000 
feet high than in any other state. Many of those are in wilderness. 
Colorado also boasts deep, serpentine, sandstone canyons, rich and 
vibrant desert ecosystems, and more temperate elevation lands of 
gnarled oak, pinyon pine, and western juniper that provide essential 
seasonal habitat for wildlife, and year-round respite and recreation 
for people.
    It is the pursuit of enduring and reliable protection for this more 
complete tapestry of Colorado's wonder that brings us here today, and 
we seek your help in securing that protection.
    Congresswoman Diana DeGette has long stood as a true wilderness 
champion in Colorado over the past decade, proposing variations of new 
wilderness designations that will help complete that tapestry. Her 
Colorado Wilderness Act of 2009, before you today, is the latest 
refinement of that proposal and a well-considered installment on the 
new wilderness protections that are needed.
    The lands in this proposal have been carefully researched on the 
ground, both to embrace the key features of these wildlands, and to 
avoid conflicts with a variety of non-wilderness human activities and 
needs. We are proud to have helped with those field inventories and 
with crafting the individual wilderness proposals in this package as 
part of our larger Colorado's Canyon Country Wilderness Proposal.
    Many of those areas are formal BLM wilderness study areas; others 
are recommended for wilderness by the U.S. Forest Service. All will add 
essential mid-elevation wilderness, so uniquely under-represented in 
the National Wilderness Preservation System.
    Congresswoman DeGette has visited many of these areas herself, 
deliberately taking along local officials and on-the-ground experts in 
order to engage in thorough discussions of issues, boundaries, and 
local concerns.
    For all that we and others have done on that proposal, we recognize 
that significant work still remains.
    This work must be focused on learning and incorporating the views, 
recommendations, and commitments of local elected officials, of local 
people in general, and of the broader Colorado citizenry. In many 
regions of the state, we are doing that work, meeting with local 
citizens, advocacy organizations, and local governments. In other parts 
of the state, this proposed legislation queues up that needed work and 
those discussions to come.
    We are committed to seeing the areas in our proposal, and in this 
bill, protected as wilderness, and we will continue this work, with 
sensitive attention to local needs, even if that means that some of the 
areas need to move at a later date.
    This is a good bill in that it includes some areas that are, by 
practical measure, ready for congressional action, and in that it 
provides the foundation and stimulus for additional discussions and 
work toward consensus on other areas.
    Some of the additional work that is needed relates to general 
policy issues, some of it to boundaries and other details of individual 
areas.
Wilderness proposal issues
Water
    The protection of natural streamflows in wilderness is one of those 
policy questions, and H.R. 4289 proposes straightforward language 
directing the establishments of water protections secured through 
negotiations and acquisitions based in Colorado water law. Normally, we 
would endorse this clear and simple approach.
    A year ago, however. we saw Congress approve new Colorado-
customized water protection language for mid-stream wilderness areas. 
That language directs federal managers to ensure that protective water 
rights are secured to protect wilderness streams--in that instance, at 
the new Dominguez Canyon Wilderness. The legislation simultaneously 
directs federal officials to work directly with the Colorado Water 
Conservation Board, with the preferred intention that the board 
establish state-held instream flow water rights for the wilderness 
streams. If this partnership with the state is successful--as we think 
it will be--no federal water rights will be needed.
    Another passage of Colorado-crafted water protection language for 
headwaters wilderness areas, first approved by Congress in 1993, 
completes the water templates for future wilderness legislation. This 
headwaters language recognizes the importance of healthy wilderness 
streamflows but prohibits the use of federal water rights to protect 
those flows and also prohibits construction of new water projects in 
the wilderness. This works simply because the wilderness areas 
involved--and their streams--lie at the top of watersheds, with no 
opportunity for water diversions upstream and, correspondingly, no 
conflict with other water rights.
    This combination of provisions ensures healthy wilderness streams 
while affirming the continued operation and maintenance of key water 
diversion and delivery facilities for agriculture and for communities. 
We recommend that H.R. 4289, and any upcoming Colorado wilderness 
legislation, use these carefully negotiated and well reasoned 
approaches to wilderness water protection.
Grazing
    The Wilderness Act declares that historical grazing is compatible 
with wilderness. H.R. 4289 affirms that declaration, and we support 
that principle. The bill appropriately references Section 4(d)(4) of 
The Wilderness Act, finer detail provided in the Colorado Wilderness 
Act of 1980, and the grazing clarifications presented in House Report 
101-405.
    Wilderness advocates and Members of Congress need to be sure that 
farmers and ranchers who use wilderness lands are both familiar and 
comfortable with those provisions.
Military training
    Military helicopter training--with periodic landings and low-
altitude flights--is a unique issue in some of the lands proposed in 
this legislation. H.R. 4289 proposes accommodations for that important 
training program, based in the congresswoman's discussions with the 
military and with federal land managers.
    More recently--even in the months since H.R. 4289 was introduced--
wilderness advocates have been working diligently with the Colorado 
National Guard and with the United States Army toward agreement on a 
new version of legislative provisions that will protect the wilderness 
values in those areas while ensuring the continued operation and 
success of the military training.
    We will be pleased to work with Congresswoman DeGette, and with 
other members of our congressional delegation, once those agreements 
are completed, to incorporate the new agreements into any new 
legislation affecting areas used the National Guard's High Altitude 
Aviation Training Site.
Areas
    All the areas in this bill are eminently qualified for wilderness 
protection. All the areas contain the remarkable wildland features that 
are the essence of Colorado's beauty.
    The practical, on-the-ground details of least some of the areas 
proposed protection in H.R. 4289 are resolved or very nearly resolved. 
These well-worked areas include Beaver Creek, Brown's Canyon, Castle 
Peak, Bull Gulch, Maroon Bells Addition, Powderhorn Addition, West Elk 
Addition, The Palisade, Roubideau, a newly modified Thompson Creek/
Assignation Ridge, and, soon, Pisgah Mountain.
    Some other areas in the proposal need additional technical 
refinement--certainly additional discussion--to be certain that policy 
questions, boundary details, and local support are put in clean and 
final form.
    Many technical questions have been addressed or are being actively 
addressed. Just a few examples of the extensive research and outreach 
undertaken by our wilderness network and by Congresswoman DeGette are 
instructive.
    <bullet>  Private land inholdings in some of the proposal areas 
can, under the proposed legislation, be acquired only for willing 
sellers.
    <bullet>  Portions of the Thompson Creek wilderness proposal that 
contain existing oil and gas leases have been removed, deferring 
instead to a community approach that will help retire or mitigate those 
leases in order to ensure continued healthy grazing use of that land.
    <bullet>  Existing major water diversion and delivery facilities 
have been drawn out of proposal areas.
    <bullet>  Boundaries for Dolores River Canyon proposal, a stunning 
icon of southwestern canyon country, have been carefully drawn to 
exclude used roads, powerlines, and other potential conflicts.
    <bullet>  Former coal leases in Little Book Cliffs have been 
relinquished, and gas development has been dropped there; existing 
motor routes are outside the proposal area.
    <bullet>  The Palisade proposal area provides remarkable backdrop 
to the growing successful tourism economy for the adjacent community 
and region.
    In all instances, even where basic technical issues appear to be 
simple or resolved, we need to do more to gain support, from citizens 
and from local officials, for areas that are otherwise fully deserving 
of wilderness designation.
    One element very essential to those continuing discussions and 
refinements will be combined and collaborative work of all key members 
of our Colorado congressional delegation. Much of this has already been 
undertaken with Congresswoman DeGette's leadership and urging, starting 
the process that now continues.
    Specifically critical to that delegation collaboration, areas 
proposed in Colorado's Third Congressional District in particular need 
to be shepherded through Congress with the insights and leadership of 
Congressman Salazar, who has also undertaken specific wilderness 
negotiations and legislation for that part of our state.
    Mr. Salazar has engaged in vigorous discussions with local 
stakeholders in his wilderness efforts. This approach is important both 
to the citizens of his district and to the success of wilderness 
protection itself. This is the model to guide continuing Colorado 
wilderness negotiations.
    Certainly, Congresswoman DeGette's wilderness initiative, and her 
steadfast promotion of wilderness protection, have also contributed to 
this principle of involvement. We thank her for setting in a motion a 
wilderness agenda for Colorado. We are pleased that other congressional 
members have also taken up the task of securing strong and enduring 
protection for deserving lands.
    In addition to being blessed with extensive and diverse wildlands 
in our state, therefore, we also continue to be blessed with a team of 
wilderness advocates within our congressional delegation.
    This is the way successful wilderness legislation has worked in 
Colorado in the past and present, and it is the way we must approach 
this work now.
    Colorado's congressional representatives have always approached 
this essential task of wilderness protection in a combined, collective, 
patient, and respectful coalition manner. Fourteen times, beginning in 
1964, Colorado's leaders have teamed up to pass wilderness legislation.
    Personalities as diverse as Aspinall, Allard, Brown, Campbell, 
Hefley, Kogovsek, McInnis, Salazar, Schroeder, Skaggs, and Wirth have 
variously come together to protect places with names like Dominguez, 
Sangre de Cristo, Flat Tops, Never Summer, Ptarmigan, and O-Be-Joyful--
all areas originally championed by citizens and ultimately negotiated 
with local and statewide partners.
    Now we are poised to add to both those legacies--the legacy of 
Colorado wilderness itself, and the legacy of wilderness champions 
working together--respectfully, and efficiently--to create and expand 
that wilderness tapestry.
    Each of our congressional representatives, in his or her own way, 
recognizes the significance of Colorado's wildlands and the importance 
of permanently protecting those lands while there still is opportunity 
to do so.
    This is timely. A place as attractive as Colorado faces relentless 
population growth and, with that, increasing pressures on our public 
lands--for development, road-building, motor travel, and general wear 
and tear. Just as there is no better time than now to plant a tree, 
knowing that its full benefits will really come in the distant future, 
there is no better time than now to protect more wilderness.
    In addition to the Colorado Wilderness Act of 2009 before you 
today, Congress is now considering bold and carefully crafted 
legislation from Congressman John Salazar--H.R. 3914, the proposed San 
Juan Mountains Wilderness Act of 2009--that will protect sweeping 
alpine vistas and rugged canyons in southwestern Colorado. That bill 
has some lands in common with H.R. 4289. Prompt action by Congress on 
Mr. Salazar's legislation is important to this larger collaborative and 
coalition effort.
    Soon, we will also bring to you additional measures establishing 
mid-elevation wilderness in the rich and scenic mountains of central 
Colorado--in and around White River National Forest--adding to the 
collection of protected lands and to the collaboration of leaders. As 
you will hear from other witnesses, we also have rich landscapes in the 
Arkansas River watershed that warrant the highest of protections.
    In each of these instances, and in their combination, we look 
forward enthusiastically to providing any and all help we can to our 
team of Colorado wilderness champions in Congress, always putting first 
focus on the land and on the benefits that come from protecting that 
land.
    We urge the committee to help guide and encourage these 
discussions. Wilderness legislation is necessarily a team effort. With 
such remarkable lands at stake, and with their permanent protection the 
question before us, each detail must be resolved carefully, and each 
leader must be consulted and engaged. Only this approach will ensure 
that diverse support for wilderness protection will be as enduring as 
the protection itself.
    Make no mistake; the pressures on these lands are immense, and we 
must act quickly if we are to protect them before we lose the 
opportunity to do so. All the more reason for us foster open, 
respectful, and active engagement among our elected leaders, building 
on the knowledge and advice of their citizen constituents.
    Thank you again.
                                 ______
                                 
    Mr. Grijalva. Thank you. Mr. Bill Dvorak, President of 
Dvorak Rafting & Fishing Expeditions. Welcome, sir.

 STATEMENT OF BILL DVORAK, PRESIDENT, DVORAK RAFTING & FISHING 
                 EXPEDITIONS, NATHROP, COLORADO

    Mr. Dvorak. Thank you. Thank you, Chairman Grijalva and 
Members of the Committee. My name is Bill Dvorak, and I am 
President of my own outfitting company, Dvorak Rafting & 
Fishing Expeditions, and I am here to talk today about the 
benefits of wilderness designation for businesses like mine.
    I have been an outfitter in Colorado since 1975, and have 
the privilege of holding the first river-issued recreation 
outfitter license, Serial No. 001. Since 1984, I have owned an 
outfitting business and I am proud to say that our business has 
grown to be one of Colorado's most respected outfitters. I have 
served on the board of directors of some of the outfitter 
industry's leading organizations, including the Colorado River 
Outfitters Association and America Outdoors. I have also been a 
member of the Colorado Tourism Board and was elected to be the 
recreational representative for the Colorado Travel & Tourism 
Authority for three terms.
    My company runs rafting trips on nine different rivers in 
five different states, as well as we do some international 
trips in New Zealand and Nepal. We employ about 30 to 40 people 
with guides and backup staff, and we have been honored by the 
National Geographic Adventure Magazine as one of the best 10 
river-oriented adventure companies in the world for the last 
two years.
    Colorado has a vibrant recreation community and culture. We 
have hundreds of outfitting businesses like mine throughout the 
state. Colorado is also home to lots of different gear 
manufacturers, rental shops, and all these folks rely on the 
outdoors for their livelihood. These businesses means jobs for 
Coloradans. The tourism sector employs about 144,000 people in 
Colorado, making tourism, I believe, the second largest 
industry in the state after manufacturing.
    In 2008, the total amount spent in the state was about 
$15.3 billion. Commercial rafting is a fairly small part of 
that. We only generate about 142 million. But other industries 
like skiing, I think are about 2.1 billion. A lot of people 
don't realize that hunting and fishing account for 2.5 billion 
of that tourism recreational industry, and that tourism of 
hunting and fishing very much relies on wilderness areas, 
particularly when we are getting all of the additional kinds of 
pressures on other sorts of areas, a lot of people, hunters in 
particular, are having to go into wilderness areas to find the 
game that they are after because there is, again, a lot of 
other pressure, particularly vehicle pressure in other areas.
    As an outfitter, my livelihood is based upon those 
protected lands and rivers in which we raft, fish, and paddle. 
We have the benefit of operating in a state with truly 
remarkable natural assets, but many of these areas are 
undergoing pressures from increased demand on public lands. 
Wilderness designation is one of the vital tools the Federal 
government has to set aside some of our most cherished land for 
low impact recreation.
    Colorado wilderness areas are potent draws for both in-
state and out-of-state recreation. When an area is designated 
as wilderness, this raises its profile and acts as a draw to 
recreationists from around the country. Expanding wilderness in 
Colorado would keep rafting and the tourism industry growing 
and would create new jobs in the outdoor industry.
    Wilderness is valuable for many non-economic reasons as 
well. Wilderness areas serve as sanctuaries for wildlife of all 
kinds. As private land across Colorado is seeing more 
development and population growth, our public lands serve as a 
final refuge for many species.
    The Colorado National Heritage Program based out of 
Colorado State University has assembled the most complete data 
of critical areas for sensitive species and natural communities 
in Colorado. Based on this data, the CNHP ranks in Colorado, 
depending on how important the habitat is to bio diversity. 
Many of the areas in the Colorado Wilderness Act of 2009 rank 
highly in those maps. For example, the proposed Sewemup Mesa, 
Palisade, Handies Peak, South Shell Ridge and West Elk Addition 
Wilderness Areas all contain areas classified as having 
outstanding bio diversity significance, the most critical need 
category.
    The bill focuses on many of the landscapes that matter to 
me most, low-lying canyon lands that provide outstanding 
opportunities for rafting, fishing, and paddling. These areas 
are not well represented in our current wilderness areas in 
Colorado. Almost all the wilderness areas that we have now are 
high elevation alpine areas. The bill proposes to protect some 
of our outstanding low elevation lands, which provide unique 
opportunities for recreation and are no less striking in their 
beauty and wilderness characters.
    I am familiar with many of these proposed wilderness areas 
in the bill. My company actively leads rafting trips every year 
on several of the rivers protected by the bill. For example, we 
run the Dolores River, which is actually my favorite river in 
Colorado, and my only true real claim to fame is that I 
actually had more runs of Snaggletooth Rapid, a Class 4 or 5 
rapid, of any person alive, 17 in a day, I did 12 in a kayak, 
and five in a raft one time.
    I floated through the Dolores River Canyons, Sewemup Mesa, 
Palisade, Snaggletooth areas. The Dolores River actually runs 
through a pristine desert area containing some of the most 
outstanding canyon scenery in Colorado. In some areas the cliff 
rise 700 feet above the water. In my opinion, the float through 
Slick Rock Canyon from Slick Rock down to Bed Rock is probably 
the prettiest Slick Rock Desert Canyon in the Southwest. I 
would actually rate a five or six-day trip on the Dolores River 
as one of the three best river trips in the country. It ranks 
right up there with the Grand Canyon and the Middle Fork of the 
Salmon River, and I think it is one of those things that really 
needs to be preserved.
    I know there are some issues about maybe gas and oil leases 
on the rim, but the central corridor down in the canyon is 
definitely worth wilderness protection.
    I am actually proud to say that my company usually has more 
commercial use on the Dolores than all the other river 
companies combined. My company also leads trips down the 
Colorado near the proposed Bull Gulch Wilderness Area, and wile 
Bull Gulch does not actually include the Colorado River, it 
would protect remarkable lands above the river, including 
golden aspen, dark green spruce, and cliffs of blinding white 
sandstone.
    The area I care about most about though is Browns Canyon 
along the Arkansas River in Chaffee County. It lies just in 
front of my home, and it is our bread and butter river. Almost 
a third of my trips through Browns Canyon are wilderness 
camping multi-day trips, and the main-attraction selling point 
for those trips is the fact that people do get to camp in a 
wilderness area, and because it is a wilderness are they get to 
see lots of critters.
    Browns is one of the last pristine canyons in the state. 
The area includes important habitat for elk, deer, eagles, 
hawks, coyotes, bears, big horn sheep, mountain lions, bobcats, 
and I have even seen a couple of antelope in that area. It 
provides needed sanctuary for these critters. It is a stunning 
landscape with picturesque vistas and rugged rock outcroppings. 
Browns Canyon is actually the heart of the Arkansas River which 
is the most popular white water river in the world, and about 
half of the use of the Arkansas River happens in Browns Canyon. 
I think we had over 200,000 people that floated that canyon 
last year, and again the reason people come there is because it 
is good. The white water is good, the scenery is good, the 
canyon is beautiful, and that is why people want to come to 
that magical place.
    I am not alone in wanting Browns Canyon to be protected. In 
addition to Representative DeGette's efforts, bills to protect 
Browns Canyon have been introduced by former Senator Ken 
Salazar, former Senator Wayne Allard and former Representative 
Joel Hefley. When Representative Hefley introduced his 
legislation in the 109th Congress to protect Browns Canyon, the 
bill was co-sponsored by every Colorado Member of the House of 
Representatives. Wilderness protection to the canyon has also 
been endorsed by dozens of local and statewide organizations 
and businesses, as well as The Denver Post.
    In sum, I am a strong supporter of new wilderness in 
Colorado. Wilderness protection will increase tourism, increase 
jobs, and preserve some of the most special places in our state 
for future generations. I have spoken in favor of Wilderness 
protection for many years in Colorado, and appreciate the 
opportunity speak to Congress about the importance of 
protecting the areas proposed in this bill.
    Thank you for having me here today and I am glad to answer 
any questions, and again I would love to thank Representative 
DeGette for having the foresight to bringing these areas to our 
attention.
    [The prepared statement of Mr. Dvorak follows:]

                 Statement of Bill Dvorak, President, 
                  Dvorak Rafting & Fishing Expeditions

    Good morning Chairman Grijalva and members of the Subcommittee. My 
name is Bill Dvorak and I am President of my own outfitting company, 
Dvorak Rafting & Fishing Expeditions. I am here today to talk about the 
benefits of wilderness designation in Colorado for businesses like 
mine.
    I have been an outfitter since 1975, and have the privilege of 
holding the first-issued River Recreation Outfitter license, serial 
number 001. Since 1984, I have co-owned an outfitting business, and am 
proud to say that our business has grown to be one of Colorado's most 
respected outfitters. I have served on the Board of Directors for some 
of the outfitting industry's leading organizations, including the 
Colorado River Outfitters Association, and America Outdoors. I have 
also been a member of the Colorado Tourism Board, and was elected as 
the recreational representative to the Colorado Travel and Tourism 
Authority for 3 terms.
    My company leads rafting trips on 9 different rivers in 5 different 
states, as well as international trips to New Zealand and Nepal. We 
employ about 30 to 40 guides and support staff. We have also been 
honored by National Geographic Adventure Magazine as one of the 10 best 
river-oriented adventure travel companies in the world.
    Colorado has a vibrant recreation culture and economy. In addition 
to my own outfitting company, there are dozens of others throughout the 
state. Colorado is also home to hundreds of outdoor gear manufacturers 
and retail goods shops that rely on customers who love the outdoors.
    These businesses mean jobs for Coloradans. The tourism sector 
employs 144,000 people in Colorado, making tourism one the largest 
industries in the state. In 2008, the total amount spent in the state 
from tourists was $15.3 billion. Commercial rafting alone contributes 
about $140 million annually to Colorado's economy, while providing 
river trips to around 500,000 people.
    As an outfitter, my livelihood is based on having protected land 
and rivers in which to raft, fish, and paddle. We have the benefit of 
operating in a state with truly remarkable natural assets. But many of 
areas are under growing pressures from increased demands on our public 
lands. Wilderness designation is one of the vital tools the federal 
government has to set aside some of our most cherished land for low-
impact recreation.
    Colorado's wilderness areas are one of the potent draws for both 
in-state and out-of-state recreation. When an area is designated as 
wilderness, this raises its profile and acts as a draw to 
recreationalists from across the country. Expanding wilderness in 
Colorado would help the rafting and tourism industries grow, and would 
create new jobs in the outdoor industry.
    Wilderness is valuable for many non-economic reasons as well. 
Wilderness areas serve as sanctuaries for wildlife of all kinds. As 
private land across Colorado is seeing more development and population 
growth, our public lands serve as the final refuge for many species. 
The Colorado Natural Heritage Program (CNHP), based out of Colorado 
State University, has assembled the most complete data of critical 
areas for sensitive species and natural communities in Colorado. Based 
on this data, the CNHP ranks areas in Colorado depending on how 
important the habitat is to biodiversity. Many of the areas in the 
Colorado Wilderness Act of 2009 rank highly on the CNHP maps. For 
example, the proposed Sewemup Mesa, Palisade, Handies Peak, South Shale 
Ridge, and West Elk Addition Wilderness Areas all contain areas 
classified as having Outstanding Biodiversity Significance--the most 
critical need category.
    This bill focuses on many of the landscapes that matter most to 
me--low-lying canyon lands that provide outstanding opportunities for 
rafting, fishing and paddling. These areas are not well represented in 
our current wilderness areas in Colorado. Almost all of the wilderness 
areas in Colorado are high-elevation alpine areas. This bill proposes 
to protect some of our outstanding low elevation lands, which provide 
unique opportunities for recreation and are no less striking in their 
beauty and wilderness character.
    I am very familiar with many of the proposed wilderness areas in 
this bill. My company actively leads rafting trips every year on 
several of the rivers protected by the bill. For example, we run the 
Dolores River, which is my personal favorite river trip and my only 
true claim to fame. I have more runs of the class 4-5 Snaggletooth 
Rapid than any other person. My record in a day was 17 runs, 12 kayaks 
and 5 rafts.
    I have floated through the proposed Dolores River Canyon, Sewemup 
Mesa, Palisade, and Snaggletooth areas. The Dolores River runs through 
pristine desert areas containing some of the most outstanding canyon 
scenery in Colorado. In some areas, the cliffs rise 700 feet above the 
water. In my opinion the float through Slickrock Canyon is the 
prettiest slickrock canyon trip in the Southwest. I would rate a 5-6 
day Dolores River trip as one of the 3 best trips in the lower 48, 
right up there with the Grand Canyon and the Middle Fork of the Salmon 
River in Idaho. Rafting on the Dolores also provided over $150,000 in 
economic impact in 2009, with over 500 user days. I'm proud to say that 
my company usually has more commercial use on the Dolores than all 
other outfitters combined.
    My company also leads trips down the Colorado River, near the 
proposed Bull Gulch wilderness area. While the Bull Gulch proposal does 
not include the Colorado River itself, it would protect the remarkable 
landscape above the river, including golden aspen, dark green spruce, 
and cliffs of blinding white sandstone.
    The area I care about most deeply, though, is Browns Canyon, along 
the Arkansas River in Chaffee County. It lies just in front of my home 
and is our bread and butter river. Almost one-third of my trips through 
Browns Canyon are wilderness camping, multi-day trips. The main 
attraction or selling point for these trips is the true wilderness 
aspect of camping in that area.
    Browns Canyon is one of the last pristine canyons in the state. The 
area includes important habitat for elk, deer, eagles, hawks, coyotes, 
bear, bighorn sheep, mountain lions, and bobcats. I've even seen a few 
antelope in there. It provides needed sanctuary for all these critters. 
It is a stunning landscape with picturesque vistas and rugged rock 
outcroppings.
    Browns Canyon is also one of the most popular rafting rivers in the 
state. In 2009, there were over 200,000 user days on the river, 
generating over $60 million in economic benefit. The rafting run at 
Browns Canyon is 16 miles of challenging Class II and Class III rapids 
slicing through beautiful, solid pink granite. Protection of the 
remarkable wild country surrounding the river canyon would be a boon to 
our vital rafting business along the river and would help protect a 
truly magical place.
    I am not alone in wanting Browns Canyon to be protected. In 
addition to Representative DeGette's efforts, bills to protect Browns 
Canyon have been introduced by former Senator Ken Salazar, former 
Senator Wayne Allard, and former Representative Joel Hefley. When 
Representative Hefley introduced legislation in the 109th Congress to 
protect Browns Canyon, his bill was co-sponsored by every Colorado 
member of the House of Representatives. Wilderness protection of the 
Canyon has also been endorsed by dozens of local and statewide 
organizations and businesses, as well as The Denver Post.
    In sum, I am a strong supporter of new wilderness in Colorado. 
Wilderness protection will increase tourism, create jobs, and will 
preserve some of the most special areas in our state for future 
generations. I have spoken in favor of wilderness protections for many 
years in Colorado, and appreciate the opportunity to speak to Congress 
about the importance of protecting the areas proposed in this bill. 
Thank you for having me here today and I'll be glad to answer any 
questions you may have.
                                 ______
                                 
    Mr. Grijalva. Thank you, sir, and you ran over your time 
but after I butchered your name I felt it was the least I could 
do. I apologize for that.
    Mr. Dvorak. It has happened before, believe me.
    Mr. Grijalva. Jenn Dice, Government Affairs Director, 
International Mountain Bicycling Association. Welcome. Look 
forward to your comments.

     STATEMENT OF JENN DICE, GOVERNMENT AFFAIRS DIRECTOR, 
INTERNATIONAL MOUNTAIN BICYCLING ASSOCIATION, BOULDER, COLORADO

    Ms. Dice. Mr. Chairman, Members of the Committee, thank you 
for inviting me to speak today. I will begin by asking you to 
imagine yourself visiting Colorado. It is not a work trip. You 
have come to enjoy yourself, to vacation and to recreate like 
so many visitors do each year. You might imagine yourself 
hiking in one of our gorgeous mountains or casting a fishing 
line into a sparking river, or maybe you are a skier, or maybe 
you will take the opportunity to get back on a bicycle.
    Remember when you were a kid and you had that wind-in-your-
face feeling of freedom riding a bike? Well, thousands of 
visitors come to Colorado each year to mountain bike on our 
incredible trails. After all, it is revered as one of the best 
places in the world to enjoy our majestic scenery.
    My name is Jenn Dice, and I work for IMBA, the 
International Mountain Bicycling Association, and mountain 
bikers are passionate about the outdoors. We cherish the places 
that we can take epic forays into the back country. We love 
trails and are amount the very first to volunteer to build and 
repair them. Annually, mountain bikers contribute almost 1 
million volunteer hours building and repairing environmentally 
sound sustainable trail, and advocating for public land 
protection.
    We share a concern with conservationists and fellow trail 
users that the pressures of growth in industry threaten the 
very qualities that make our favorite trails special. Now, 
wilderness designations are one of the most historically 
important methods for protecting natural areas. However, 
because bicycling is not allowed in wilderness, IMBA recommends 
the use of companion designations such as national conservation 
areas, national protection areas or national scenic areas to 
complement wilderness, protect more land and maintain bicycle 
access to Colorado's world renowned mountain bike trails.
    We believe mountain biking has been caught in the cross 
fire of well-intentioned legislation to protect public lands. 
Colorado's natural areas need to be protected from poorly 
planned resource extraction. However, they don't need to be 
protected from bicycles. Fortunately, we know that land 
protection proposals can be crafted in a way to include 
mountain biking as this Committee has done in the past for 
several states. We believe there are many tools in the toolbox 
to protect public lands.
    And H.R. 4989, IMBA can support 13 proposed units totaling 
more than 230,000 acres of wilderness, but we believe that 
there are significant improvements that can be made to the 
bill. We object to the approximate 200 miles of dirt trails and 
roads that would be closed to bicycling. We hope to see our 
traditional use protected in several parcels included in my 
written testimony, including Thompson Creek and Banks Canyon.
    Colorado has a long history of protecting public lands 
through inclusive collaborate processes. We believe this bill 
needs to go through some more community vetting to make sure 
that those closest to the land have an opportunity to draw 
boundaries and to write robust land protections. IMBA has 30 
clubs in Colorado and we stand ready to participate.
    Although research shows that the impact of bicycling are 
much less than those caused by motorized recreation and 
equestrian use, and similar to hiking, outdated Forest Service 
regulations often equate bicyclists to motorized users, and 
inappropriately group bicycles into categories with motorized 
and mechanized in their analysis.
    The Forest Service needs better management tools to address 
our quiet, low impact sport. We hope to work with Congress, the 
Forest Service, the BLM and others to write robust, strong 
public land protections that give land managers better forest 
and recreation management tools that are inclusive of our human 
power use.
    At a time when every Federal public land agency has 
initiatives to get kids exercising, to get them outdoors, to 
get them to experience their public lands, we don't understand 
why we would exclude bicycles. Bicycles create future public 
land stewards. They make national forests more relevant to 
today's youth, and bicycling is fun.
    In closing, mountain biking is an extremely popular sport 
with more than 47 million Americans participating. IMBA has 
inspired, trained, and organized one of the most committed 
volunteer corps in our nation's history. We are proud that our 
members have embraced the ethic of trail stewardship and we 
will continue to protect the water, wildlife, clean air and 
back country landscapes for the foundation of America's great 
outdoors.
    In closing, I will thank you for the opportunity to speak 
and we would love to take you and your staff on a bike ride in 
Colorado anytime soon. Thank you.
    [The prepared statement of Ms. Dice follows:]

         Statement of Jenn Dice, Government Affairs Director, 
    International Mountain Bicycling Association, Boulder, Colorado

    On behalf of the International Mountain Bicycling Association 
(IMBA) and our Colorado IMBA-affiliated clubs, thank you for the 
opportunity to offer comments on the Colorado Wilderness Act of 2009 
H.R. 4289.
    IMBA is a national and international education and advocacy 
organization whose mission is to create, enhance, and preserve great 
trail experiences for mountain bicyclists worldwide. Nationally, we 
represent 750 IMBA-affiliated clubs, 32,000 individual members, and 
more than 800 corporate partners and bike shops. Annually, mountain 
bikers contribute almost one million volunteer hours advocating for 
public land protection and building environmentally sustainable trails.
    We begin by thanking Congresswoman DeGette for her outstanding 
support for Colorado public lands. There are many special places across 
our beautiful state threatened by resource extraction, development, and 
road building. IMBA agrees that Colorado's most treasured places must 
be safeguarded. Our hope is to see them protected from detrimental 
activities while still allowing for healthy, low-impact recreation, 
such as mountain biking.
    Wilderness designations are one of the most historically important 
methods for protecting natural areas. However, because bicycling is not 
allowed in Wilderness by regulation, IMBA suggests a strategy of 
employing ``companion designations,'' such as Natural Conservation 
Areas, National Scenic Areas, and Natural Protection Areas, to 
complement Wilderness areas and maintain access for Colorado's world-
renown mountain biking trails.
Bicycling Brings $133 Billion to U.S. Economy and Supports 1.1 Million 
        Jobs
    Bicycling, both on road and off, contributes $133 billion annually 
to the U.S. economy, supports nearly 1.1 million jobs across the U.S. 
and generates $17.7 billion in annual federal and state tax revenues. 
Bicycling produces $53.1 billion annually in retail sales and services, 
including $6.2 billion in bicycling gear sales and services and $46.9 
billion in bicycling trip-related expenditures (Outdoor Industry 
Foundation 2006).
    In the mountain states--combining Arizona, Colorado, Idaho, New 
Mexico, Montana, Utah, Nevada, and Wyoming--bicycling contributes $6.2 
billion annually to the regional economy. Bicycling supports more than 
$1 billion in annual state and federal tax revenues and produces nearly 
$4.1 billion annually in retail sales and services.
Colorado a Top State for Mountain Bicycling
    In Colorado, IMBA represents 30 IMBA-affiliated mountain bike clubs 
and five volunteer mountain bike patrols. The state has 312 independent 
bicycle dealers that support our work. Tourism in Colorado industries 
is strongly influenced by mountain biking, including some of the 
nation's most popular races and festivals, plus guiding services, 
touring companies, and hut-to-hut travel.
    Colorado is truly an epicenter for the mountain bike industry, with 
almost 100 companies building and making mountain bike frames, 
components, accessories, and apparel. Many prominent outdoor companies 
that promote outdoor recreation and mountain biking are based here, 
including national and regional bicycling magazines and firms that deal 
in events marketing, public relations, advertising, and media services. 
Bicycling, in general, supports more than 60,000 jobs across the Rocky 
Mountain region (OIF 2006), with mountain biking comprising 
approximately 40 percent of that figure.
    Mountain bicycling is an extremely popular sport nationally. 
According to the National Survey on Outdoor Recreation and the 
Environment (NSRE 2007), the sport attracts 47 million participants, 
making it more popular than golf, hunting, backpacking, or horseback 
riding.
    Many young people enjoy mountain biking, helping counter a 
distressing trend toward youth obesity and inactivity. The Outdoor 
Foundation's Outdoor Recreation Participation Study (2008) shows that 
overall youth (ages 6 to 17) participation in the outdoors declined 
16.7 percent over the last three years. However, youth participation in 
mountain bicycling, hiking, backpacking, kayaking, and skiing all 
showed increases. This research affirms that outdoor activities like 
bicycling and hiking are popular, accessible, and often lead to 
participation in other healthy activities.
Mountain Bicyclists Are Enthusiastic Supporters of Public Lands 
        Protection
    Mountain bicyclists are passionate about the outdoors. We believe 
in managing public lands as a public trust and a priceless national 
treasure. We cherish the places where we can enjoy epic forays into the 
backcountry. We love trails and are among the first to volunteer to 
build and repair them. We share a concern with other trail users that 
the pressures of growth and industry threaten the qualities that make 
our favorite rides special.
    That's why Wilderness designations are such a difficult issue for 
us. Existing Wilderness protections near trails can contribute to the 
peace, quiet, and solitude that make them special. At the same time, 
Wilderness expansions and new Wilderness designations block access to 
those same trails.
    Fortunately, we know that land protection proposals can be crafted 
to include mountain biking, as they have been in Colorado, Washington, 
Oregon, California, Georgia, and Virginia. IMBA champions the strategy 
of combining Wilderness protections with other land protection 
solutions--such as National Scenic Areas, Recreation Areas, or 
Protections Areas. In this manner we can both safeguard the land and 
preserve local mountain biking traditions. We believe that there are 
many tools in the toolbox to protect public lands. Preserving Colorado 
public lands doesn't have to be at the expense of mountain bicycling.
    We believe there are significant improvements that can be made to 
the bill. In its present state, the legislation fails to acknowledge 
the large number of bicycle trails that would be closed by Wilderness 
boundaries. We believe that the addition of more companion 
designations, and corresponding adjustments to Wilderness boundaries, 
would create a better, more inclusive, bill.
Areas Appropriate for Wilderness in H.R. 4289
    IMBA can support roughly 216,958 acres for Wilderness in the 
Colorado Wilderness Act of 2009. IMBA believes that these parcels are 
appropriate for Wilderness: Badger Creek (25,229), Beaver Creek 
(38,378), Browns Canyon (20,025), Cross Canyon (25,947), Deep Creek 
(20,843), Flat Tops (16,427), Grand Hogback (11,701), Little Bookcliffs 
(30,557), Maroon Bells (316), McIntyre Hills (17,318), Platte River 
(33), Powderhorn (3,306), and West Elk (6,878).
Areas That Need to Be Further Examined for Partial Wilderness, 
        Companion Designations, and Boundary Adjustments
    Large segments of the following parcels could also be supported as 
Wilderness but IMBA needs to work with Congresswoman Degette and local 
stakeholders to determine if boundaries need to be redrawn for existing 
roads and trails or if a companion designation would be a more 
appropriate land protection.
    Further research and ground-truth efforts need to be conducted for 
the trails in these areas: Bull Gulch (15,155), Castle Peak (16,263), 
Demaree Canyon (25,881), Dolores River Canyon (41,133), Granite Creek 
(14,089), Norwood Canyon (13,288), Pisgah Mountain (15,679), Redcloud 
Peak (38,594), South Shale Ridge (27,569), Table Mountain (27,888), 
Weber-Menefee Mountain (14,598).
    IMBA can support the Snaggletooth Wilderness (32,050), so long as 
the boundary of the Wilderness respects the existing Snaggletooth Trail 
important to local bicyclists. The current map is unclear and it is 
difficult to determine if this trail is in or outside of the Wilderness 
boundary.
Areas Important to Bicyclists That Could Be Protected Through A 
        Companion Designation
    There are many trails that would close under H.R. 4289 and areas we 
cannot support for Wilderness: Bangs Canyon (21,110), Grape Creek 
(44,372), Handies Peak (72,397), McKenna Peak (33,467), The Palisade 
(26,914), Roubideau (22,604), Sewemup Mesa (65,448), Thompson Creek 
(25,285), and Unaweep (39,392).
    IMBA estimates that close to 200 miles of trails or dirt roads will 
close to bicycle use in the bills current form. In some places a simple 
boundary adjustment or non-Wilderness corridors would allow for 
continued use. In other places, trails split parcels and a companion 
designation may be more appropriate, such as a National Protection 
Area, National Conservation Area, or National Scenic Area. In all 
instances, IMBA wants to make sure the land is still protected. We hope 
to work will the bill's sponsor and the committee to write a robust 
protection that complements some of the key Wilderness areas.
Bangs Canyon
    IMBA would not support Wilderness for Bangs Canyon. This parcel 
provides mountain bike access on dirt roads accessible for winter 
riding around Grand Junction as well as the nationally famous 
Tabeguache Trail.
    Grand Junction is a world-renowned mountain bicycling destination. 
This area hosts an abundance of year round singletrack opportunities. 
IMBA's local club, the Colorado Plateau Mountain Bike Trail Association 
(COPMOBA), is a dedicated group of volunteers who organized in 1989 and 
were recently inducted into the Mountain Bike Hall of Fame for their 
stewardship. This group includes a board of directors and numerous 
member volunteers who work with land managers to protect resources in 
the Grand Junction, Fruita, Gateway, and Montrose areas. This group has 
been dedicated to maintaining trails such as the Tabeguache, Paradox, 
and Kokopelli trails.
    The proposed Bangs Canyon parcel would close approximately five 
miles of the Tabeguache Trail. This trail, in its entirety, is 144 
miles from Montrose to Grand Junction and was put together by the 
COPMOBA in 1990. The Tabeguache is also part of the three legs of the 
Grand Loop, a large triangle formed by the Kokopelli and Paradox 
trails. The closure would bi-sect this important long-distance trail 
and prevents completion of the Grand Loop. COPMBA has been working with 
the Grand Junction Bureau of Land Management Field Office to re-route 
this section of trail, but nothing official has come of the process.
Grape Creek
    IMBA would not support Wilderness for the Grape Creek parcel as 
local bicyclists of the Colorado Springs (Medicine Wheel Trail 
Advocates) and Canyon City (Lower Arkansas Mountain Bicycling 
Association) enjoy several trails that would be closed under the 
proposal: Bear Gulch Trail, Tanner Peak Trail, and Stultz Trail. The 
Grape Creek area is featured in a well-known guide, Mountain Biking 
Colorado Springs Guide Book, by David Crowell (Falcon Publishing).
Handies Peak
    IMBA does not support the Handies Peak Wilderness proposal. This 
proposed area includes the Colorado Trail, which is of critical 
importance to mountain bikers. It is a premier backcountry singletrack 
experience and certain segments are an international destination. Many 
bicyclists put this long-distance trail on their ``must-ride'' list of 
epic backcountry rides and aspire to bike the entire distance from end 
to end. There is a tremendous amount of Wilderness already in the area 
that restricts local bicyclists. The CO Wilderness Act of 2009 would 
needlessly close a critical segment (#23) that would make bicyclists 
detour around yet another parcel of Wilderness in the Handies Peak 
Proposed Wilderness. Mountain bikers love this trail and would be upset 
to be excluded.
    Already there are several Colorado Trail segments that require 
challenging and onerous reroutes. The Lost Creek Wilderness is a good 
example. Here, bicyclists must bike 71.6 miles on state highways and 
dirt roads to bypass roughly 20 miles of trail with no alternative 
trail route available. This is an enormous burden on our community. If 
segment #23 were closed, this would require a similar problem for this 
segment and require an extensive reroute for mountain bikers to stay 
outside of Wilderness. Other trails that would be affected in this area 
are West Lake Creek and Pole Creek.
McKenna Peak
    IMBA would not support Wilderness for major segments of McKenna 
Peak. There are several dirt roads that bicyclists use to view wild 
horse populations in the Spring Creek area.
The Palisade
    IMBA would not support the Palisade (26,914) proposal. With 
mountain biking on the rise in Gateway, we need to keep in mind 
amenities that go along with the sport such as camping. The Wilderness 
boundary cuts off small roads that allow for camping in the area. There 
is limited camping in the canyon and this area has provided bikers with 
numerous camping opportunities.
Roubideau
    IMBA does not support the Roubideau Wilderness proposal. This 
section bisects a very popular long distance trail, the Tabeguache 
trail. As previously mentioned in the Bangs Canyon proposal, this trail 
is in its entirety is 144 miles from Montrose to Grand Junction. The 
Tabeguache is also part of the three legs of the Grand Loop, a large 
triangle formed also by the Kokopelli and Paradox trails.
    The proposal would eliminate the #3 Transfer Road section (7.1 
miles) and #4 Roubideau Trial section (21.3 miles). This trail offers 
an experience for riders exploring diverse geologic areas and applying 
remote backcountry riding skills, a unique trail system for mountain 
bikers. Trail surface consists of gravel road, maintained dirt road, 
primitive 4WD paths, and singletrack.
Sewemup Mesa
    Sewemup Mesa is another area with an important trail to bicyclists 
and we ask there be boundary adjustments for this parcel. Sewemup Mesa 
is a wonderfully wild area, but H.R. 4289 goes outside the original BLM 
Wilderness Study Area proposal and would impact access to existing jeep 
roads near the Paradox Trail. The 100-mile Paradox Trail follows the 
stunning Paradox valley from Colorado's high plains to Moab's desert 
along trails and jeep roads and was put together by the COPMOBA in 
1995. Included in this proposal are a number of short sections of road 
and trail that mountain bicyclists currently use. Beehive Canyon is 
also an area that has a short section of singletrack that is important 
to bikers. The boundary could be adjusted to exclude these areas that 
our constituents find important.
Thompson Creek
    IMBA does not support Wilderness designation for Thompson Creek. 
This parcel borders the town of Carbondale, a destination for mountain 
biking and home to a very active IMBA club, the Roaring Fork Mountain 
Bike Association. There are many important trails in this parcel 
including Tall Pines and Braderich Creek trails that would close under 
the current proposal. IMBA suggests a companion designation for this 
unit. We cannot support the permanent restriction of mountain bike 
access to this areas urban trail development.
Unaweep
    IMBA would not support the Unaweep parcel for Wilderness 
designation. In the Unaweep area there are currently trails used by 
mountain bikers, which include: Lower Ute Creek (2.5 miles), Ute Creek 
#608 (7.7 miles), and Snowshoe #607. Although it is only 1.5 miles 
long, Snowshoe #607 is an important connector trail. This area provides 
opportunity for loop trail rides in the area. There are currently three 
trails that were closed in 2002, but COPMBA has been working with the 
U.S. Forest Service to reopen these three trails: #601, #654, and #650. 
A Wilderness designation would eliminate the option of allowing bikes.
H.R. 4289 Needs More Community Vetting
    IMBA hopes to work with Congresswoman Degette on conducting town 
hall meetings across the state to better collaborate with community 
groups affected by the legislation. Colorado has a long history of 
protecting public lands through inclusive processes that bring many 
interest groups to the table. We believe this bill needs to go through 
more community stakeholder meetings to make sure those closest to the 
land have been involved in drawing the boundaries.
    IMBA recently worked with Colorado Congressman John Salazar (D-3) 
over the course of several years to craft H.R. 3914 the San Juan 
Mountains Wilderness Act of 2009, which we support. The bill includes 
numerous boundary adjustments for critical trails and dirt roads that 
our community uses in southwest Colorado. Further, the legislation 
includes both Wilderness and a Special Management Area that allows our 
historical use to continue on one trail system. The bill recognizes the 
importance of outdoor recreation and also allows the Hard Rock trail 
running race, and heli-skiing and snowboarding, to continue on these 
newly protected lands.
    IMBA also worked collaboratively for years with then U.S. 
Representative Mark Udall (D-2) on shaping the James Peak Wilderness 
and Protection Area (H.R. 1576, P.L. 107-216 or 16 USC 5391). James 
Peak is another great example of complementing Wilderness through a 
companion designation of a National Protection Area, as it allows for 
bicyclists to continue riding an important, high-alpine trail.
    Last year, IMBA supported the Dominguez-Escalante National 
Conservation Area and Dominguez Canyon Wilderness Area Act (S. 3065) 
after working with then Colorado U.S. Senator Ken Salazar to draft a 
proposal that included a companion of a National Conservation Area, 
which protected public lands and allowed our traditional use along many 
important trails.
    IMBA is now working with Colorado Congressman Jared Polis (D-2) and 
the Hidden Gems coalition to craft a robust protection measure that 
includes Wilderness and a companion designation for Summit, Pitkin, 
Eagle, and Gunnison counties.
Forest Service Needs Better Management Tools for Human-Powered 
        Recreation
    IMBA believes the time has come for the Forest Service and Congress 
to consider another robust public land protection that gives clear 
guidance to the Forest Service for management. The Forest Service has 
specific regulations and management guidance for Wilderness, and needs 
better direction for companion designations.
    IMBA is asking the Forest Service to help address the disparities 
that unfairly restrict mountain bicycle access. Although research shows 
that the impacts of bicycling are much less than those caused by 
motorized recreation, Forest Service regulations often equate 
bicyclists to motorized users and inappropriately group bicycles into 
the category of ``motorized and mechanized'' in their analysis. Too 
often, environmental and social science research is based on the 
impacts of motorized users, ignoring the need for a unique analysis 
specific to bicycling as a low-impact, human-powered activity. The 
Forest Service needs better management tools to address our sport.
    IMBA believes it is important that this committee consider the 
congressional intent of the Wilderness Act and the inspiration behind 
that important moment in history. It is clear from the congressional 
record and study group reports, which recommended the parameters of the 
legislation, that even back in the late 1950's, Americans were becoming 
too sedentary. The pressures of development were starting to erode 
these treasured areas and Congress wanted places people were required 
to get to under their own human-power. No people movers, no motors, and 
no mechanized transport--which the Forest Service in 1966 defined as, 
``propelled by a non-living power source'' (36 CFR Sec. 293.6). Since 
bicycles are obviously powered by a living power source, they were not 
contemplated by the Act. IMBA believes the congressional intent was to 
prohibit motorized vehicles completely and any non-motorized but non-
human powered devices used to deliver people or supplies. Examples of 
the latter would include animal-powered wagons and mining carts.
    In addition, Congress has recognized that bicycling is compatible 
with Wilderness values in the Rattlesnake Wilderness Act (1980) where 
it found that ``bicycling'' was a form of ``primitive recreation'' 
fitting for Wilderness.
        ``The Congress finds that--(1) certain lands on the Lolo 
        National Forest in Montana have high value [as Wilderness]. 
        This national forest area has long been used as a 
        wilderness...as a source of solitude...and primitive 
        recreation, to include such activities as hiking, camping, 
        backpacking, hunting, fishing, horse riding, and 
        bicycling....''
    I mention this to further dispel the idea that bicycles are an 
incompatible use of pristine places. Almost 30 years have passed since 
the first invention of the mountain bike and twenty-five years since 
the 1984 Forest Service regulatory ban of bicycles in Wilderness. We 
have learned a lot in the last 30 years on recreation ecology and 
management of mountain bikes.
    We now know that the resource impacts of mountain biking are 
similar to hiking and much less than horses, two allowed uses of 
Wilderness. For example, a study published by Dr. Jeffrey L. Marion, 
Assessing and Understanding Trail Degradation: Results from Big South 
Fork National River and Recreational Areas, United States Department of 
the Interior (2006), demonstrates that mountain bike trails were the 
least eroded, narrowest, and least muddy of the trails studied (.6 
percent), including hiking (1.4 percent), equestrian (9.0 percent), ATV 
(24.0 percent) (See also Attachment B--Environmental Impacts of 
Mountain Biking: Science Review and Best Practices, Jeff Marion and 
Jeremy Wimpey). We have also learned a tremendous amount about the 
management of mountain bikes and shared-use trails and have hundreds of 
examples across the country where hikers, bicyclists, and equestrians 
successfully share trails. (See Minimum Tool Rule, Attachment B).
    Relying solely on Wilderness designations has other drawbacks. The 
Forest Service is restricted in Wilderness as to what tools they can 
use for forest restoration, watershed protection, forest thinning, and 
mechanized trail building. Further, Wilderness prevents fixed anchors 
for climbers and backcountry structures such as yurts that back-packers 
and cross-country skiers would appreciate.
    At a time when every federal public land agency has initiatives to 
get more kids exercising, into the woods, and out experiencing their 
public lands, why would we exclude bicyclists? Bicycling creates future 
public land stewards; it makes national parks and national forests more 
relevant to today's youth.
    As a community, mountain bikers can add a valuable new voice to 
campaigns to protect America's forests, water, wildlife, and scenic 
landscapes. Ask any mountain biker what they think about public land 
protection. They absolutely do not want the lands around their trails 
mined, developed, or turned into road systems. The fervently agree in 
protecting public lands.
    But the one-size fits all approach of Wilderness is no longer an 
adequate solution. Mountain bikers are slowly changing the national 
conversation on public land protection and introducing companion 
designations in legislation around the country. We hope to work with 
Congress, the Forest Service, Bureau of Land Management, and others to 
write better public land protections that are inclusive of our human 
powered use.
    In closing, I want to emphasize that IMBA has inspired, trained, 
and organized one of the most committed volunteer trail corps in this 
nation's history. We're proud that our members have embraced the ethic 
of trail stewardship so wholeheartedly and we will continue to promote 
riding that respects all trail users. We will continue to protect the 
water, wildlife, clean air, and backcountry landscapes that are the 
foundation of America's matchless outdoor recreation heritage.
    Thank you again for the opportunity to present this testimony.
                                 ______
                                 
                              ATTACHMENT A
 Summary Excerpt: Environmental Impacts of Mountain Biking: Science 
        Review and Best Practices.
By Jeff Marion and Jeremy Wimpey
    Mountain biking is still a relatively new activity whose 
environmental impact and contribution to trail degradation is poorly 
understood. As with all recreational pursuits, it is clear that 
mountain biking contributes some degree of environmental degradation. 
In the absence of adequate research, land and trail managers have 
frequently been cautious, implementing restrictive regulations in some 
instances (Edger 1997). Surveys of managers have shown that they 
frequently perceive mountain biking to be a substantial contributor to 
trail degradation but lack scientific studies or monitoring data to 
substantiate such concerns (Chavez and others 1993; Schuett 1997). In 
recent years, however, a small number of studies have been conducted 
that help clarify the environmental impacts associated with mountain 
biking. This article describes the general impacts associated with 
recreational uses of natural surface trails, with a focus on those 
studies that have examined mountain biking impacts. [...]
Conclusion
    While land managers have long been concerned about the 
environmental impacts of mountain biking, there are still very few good 
studies published in peer-reviewed journals. White and others (2006) 
and Hendricks (1997) note that the majority of mountain biking research 
has focused on social issues, such as conflicts between trail users. As 
a consequence, the ecological effects of mountain biking on trails and 
natural resources remain poorly understood.
    Still, an emerging body of knowledge on the environmental impact of 
mountain biking can help guide current management decisions. All of the 
existing scientific studies indicate that while mountain biking, like 
all forms of recreational activity, can result in measurable impacts to 
vegetation, soil, water resources, and wildlife, the environmental 
effects of well-managed mountain biking are minimal.
    Furthermore, while the impact mechanics and forces may be different 
from foot traffic, mountain biking impacts are little different from 
hiking, the most common and traditional form of trail-based 
recreational activity.
    Key observations about the environmental impacts of mountain 
biking:
    1.  Environmental degradation can be substantially avoided or 
minimized when trail users are restricted to designated formal trails. 
Many studies have shown that the most damage to plants and soils occur 
with initial traffic and that the per capita increase in further impact 
diminishes rapidly with increasing subsequent traffic. Many 
environmental impacts can be avoided and the rest are substantially 
minimized when traffic is restricted to a well-designed and managed 
trail. The best trail alignments avoid the habitats of rare flora and 
fauna and greatly minimize soil erosion, muddiness, and tread widening 
by focusing traffic on side-hill trail alignments with limited grades 
and frequent grade reversals. Even wildlife impacts are greatly 
minimized when visitors stay on trails; wildlife have a well-documented 
capacity to habituate to non-threatening recreational uses that occur 
in consistent places.
    2.  Trail design and management are much larger factors in 
environmental degradation than the type or amount of use. Many studies 
have demonstrated that poorly designed or located trails are the 
biggest cause of trail impacts. As evidence, consider that use factors 
(type, amount, and behavior of trail visitors) are generally the same 
along the length of any given trail, yet there is often substantial 
variation in tread erosion, width, and muddiness. These impacts are 
primarily attributable to differences in grade and slope alignment 
angle, soil type and soil moisture, and type of tread construction, 
surfacing, and drainage. This suggests that a sustainable trail that is 
properly designed, constructed, and maintained can support lower-impact 
uses such as hiking and mountain biking with minimal maintenance or 
degradation.
    3.  The environmental degradation caused by mountain biking is 
generally equivalent or less than that caused by hiking, and both are 
substantially less impacting than horse or motorized activities. In the 
small number of studies that included direct comparisons of the 
environmental effects of different recreational activities, mountain 
biking was found to have an impact that is less than or comparable to 
hiking. For example, Marion and Olive (2006) reported less soil loss on 
mountain bike trails than on hiking trails, which in turn exhibited 
substantially less soil loss than did horse and ATV trails. Similarly, 
two wildlife studies reported no difference in wildlife disturbance 
between hikers and mountain bikers (Taylor & Knight 2003, Gander & 
Ingold 1997), while two other studies found that mountain bikers caused 
less disturbance (Papouchis and others. 2001, Spahr 1990). Wilson and 
Seney (1994) found that horses made significantly more sediment 
available for erosion than hikers or mountain bikers, which were 
statistically similar to the undisturbed control.
    One final point to consider, however, is that mountain bikers, like 
horse and vehicle users, travel further than hikers due to their higher 
speed of travel. This means that their use on a per-unit time basis can 
affect more miles of trail or wildlife than hikers. However, an 
evaluation of aggregate impact would need to consider the total number 
of trail users, and hikers are far more numerous than mountain bikers.
Mountain Bike Management Implications
    So what does this mean for mountain biking? The existing body of 
research does not support the prohibition or restriction of mountain 
biking from a resource or environmental protection perspective. 
Existing impacts, which may be in evidence on many trails used by 
mountain bikers, are likely associated for the most part with poor 
trail designs or insufficient maintenance.
    Managers should look first to correcting design-related 
deficiencies before considering restrictions on low-impact users. By 
enlisting the aid of all trail users through permanent volunteer trail 
maintenance efforts, they can improve trail conditions and allow for 
sustainable recreation.
                                 ______
                                 
                              ATTACHMENT B

                           Minimum Tool Rule

THE MINIMUM TOOL RULE
    Public land managers who seek to provide high-quality recreation 
experiences on trails face the challenge of increasing user conflicts. 
Successful resolution of this problem depends on the management 
approach. The International Mountain Bicycling Association recommends 
that managers adopt the ``minimum tool rule'': Use the least intrusive 
measures that will solve the problem.
    This approach is explained well in ``Conflicts on Multiple-Use 
Trails: Synthesis of the Literature and State of the Practice,'' by 
Roger Moore (1994):
        The nature of the recreation experience limits the manager's 
        options in addressing the potential negative impacts of trail 
        use. Freedom, and freedom of choice in particular, are 
        essential for high-quality outdoor recreation on and off 
        trails. Multiple-use trail managers must be sensitive to this 
        fact and avoid restriction and manipulation whenever possible. 
        The 'minimum tool rule'' proposed by Hendee, Stankey, and Lucas 
        (1990) for wilderness management is an appropriate guideline 
        for the management of most multiple-use trails as well. They 
        advocate using the least intrusive measures (whether physical 
        or managerial) that will still achieve area objectives. This 
        sensitivity is critical to maintaining the freedom and 
        naturalness so important to most trail-based recreation.
    Some managers, unaware of this principle, have fallen into a more 
simple and less successful approach. Andy Kulla, a recreation manager 
in the Lolo National Forest of Montana, calls it ``Ignore or 
Restrict:...New uses are ignored until they conflict with a traditional 
established use and then are managed by prohibition or 
restriction...The manager then tries to resolve a conflict between two 
or more often very angry and alienated user groups. By then it's often 
too late...Positions are taken, heels are dug in, and emotions rather 
than rational thought dominate the negotiations.''
    Kulla developed a list of possible management actions and arranged 
them according to the minimum tool rule. His hierarchy of solutions 
offers excellent guidance to all recreation managers.
REFERENCES:
    Moore, Roger, ``Conflicts on Multiple Use Trails: Synthesis of the 
Literature and State of the Practice,'' U.S. Federal Highway 
Administration, Report No. FHWA-PD-94-031, 1994.
    Kulla, A., ``A New Perspectives Approach to National Forest 
Recreation and is Application to Mountain Bike Management.'' 
Unpublished paper prepared for Utah State University's Professional 
Development for Outdoor Recreation Managers/Planners Shortcourse, 1991.
A hierarchy of options for managing trail user conflict
by Andy Kulla, USDA Forest Service--Lolo National Forest 1994
    Listed from most preferable to least preferable.
Signing
    Urge cyclists to stay on routes, slow down, limit party size, 
consider other users, etc. voluntarily through signing. Use signs to 
make sure that cyclists who care, but don't know proper etiquette, have 
enough information to monitor themselves. Present a good map depicting 
areas that are open, closed, congested, or whatever.
Peer Pressure
    Encourage your friends and other cyclists to patrol their own ranks 
in a positive way.
Education
    Work with bike shops, local clubs, universities, other user groups, 
city bike programs, mountain bike outfitters and guides, and other 
interested parties to educate bicyclists about low impact use, 
etiquette, and consideration for other users. Develop posters, 
brochures, and a logo or trademark to become a recognized reminder or 
symbol of considerate cycling.
Use Closed Roads
    Emphasize and encourage use of closed roads as bike routes because 
single track trails become congested quickly and have high potential 
for conflict.
Soft-Cycling Training Programs
    Develop training programs on low impact cycling for adults and 
school children to be presented by clubs, organizations, bike shops.
Trail Design
    On new trails or trails that can be reconstructed, include design 
features that restrict speed and enhance sight distance, and build 
wide, or pull-out, sections to facilitate safe passing of cyclists, 
horses, and hikers.
Barriers To Control Speed
    Leave or install barriers in the trail to control speed. Things 
like protruding rocks, roots, bumps, sharp curves, down trees, speed 
barriers and waterbars will help.
Requested Walking Zone
    Request or require that cyclists walk their bikes in certain areas 
where speed, recklessness, or congestion are potential problems.
One-Way Only
    Designate the direction of travel on trails with very heavy use to 
avoid the potential for head on collisions.
Post Speed Limits
    Set maximum allowable or recommended speeds for cyclists. Encourage 
voluntary compliance or involve local cyclists in positive enforcement. 
Encourage speeds that allow a cyclist to stop in less than half the 
distance they can see.
Patrolling
    Use properly trained volunteer groups to patrol and talk with 
cyclists.
Restrict Cyclists By Time
    Allow for mountain bike use only at certain times of day.
Restrict Cyclists By Day
    Allow for mountain bike use on only certain days when other use may 
be at lower levels. (odd/even days or weekend/week day)
Separate Sections
    Construct separate routes for mountain cyclist use where there is 
the greatest congestion (like at trailheads).
Construct Separate Routes
    Construct separate trails for mountain bikes where there is strong 
user support (like money and/or labor) and where no other solutions are 
feasible.
Zoning
    Close certain areas to cycling and then allow and encourage that 
use in other designated areas. This method is dependent on having other 
areas available and usable.
Close Area To Cyclists
    This should be only used as a last resort after other efforts have 
proven ineffective.
                                 ______
                                 
    Mr. Grijalva. Thank you.
    Mr. John Stansfield, Coordinator, Central Colorado 
Wilderness Coalition. Thank you.

  STATEMENT OF JOHN STANSFIELD, COORDINATOR, CENTRAL COLORADO 
            WILDERNESS COALITION, MONUMENT, COLORADO

    Mr. Stansfield. Thank you, Mr. Chairman, and Congresswoman 
DeGette.
    I am John Stansfield, representing Central Colorado 
Wilderness Coalition. CCWC is a regional all-volunteer 
organization founded in 2002, with the goal of working to 
secure designation of new wilderness areas in central Colorado, 
particularly in the Fifth Congressional District. We have 250 
members working in collaboration with local groups whose 
membership totals 3,000-plus, and more than 30 organizations 
and businesses have endorsed our wilderness proposal, which 
includes six of the areas in the Colorado Wilderness Act of 
2009.
    Thank you for the opportunity to testify in favor of H.R. 
4289. CCWC endorses the testimony of Steve Smith presented 
today on behalf of our group and others. In addition, we would 
like to comment specifically on five areas in the bill located 
in our region about which we know a fair amount and for which 
we care greatly. These wild and natural parcels are Beaver 
Creek, Grape Creek, Table Mountain, McIntyre Hills, and Badger 
Creek. We are also strong advocates for Browns Canyon, which 
Bill Dvorak has discussed in detail today.
    Our group has explored, inventoried, mapped and continues 
to promote these areas for wilderness designation. We heartily 
endorse your legislative efforts to make these designations a 
reality in the near future.
    As for myself, I have 40 years' experience as a volunteer 
in wild land inventory and assessment, especially in central 
Colorado. With a master's degree in education, I have conducted 
hundreds of back country educational, recreational and service 
trips for people of all ages in Colorado and Wyoming.
    In central Colorado's Fremont County, the ancient Arkansas 
River and its tributaries have created countless canyons 
intermingled with steep-sided ridges and peaks. It is in this 
rugged terrain the five islands of wildness, strong like uncut 
jewels on the chain of river flourish in close proximity to the 
rapidly urbanizing front range. We believe that as development 
takes place in the region wild public lands become inherently 
more valuable ecologically and recreationally.
    Like many of the proposed wildernesses in H.R. 4289, the 
Fremont County areas are the mid-elevation range of 6,000 to 
10,000 feet. In terms of ecological diversity, the importance 
of permanent protection for the lower elevation wildlands 
cannot be understated. Beaver Creek, for example, is situated 
in a biological cross roads of plains, mountain and New Mexican 
habitats blending prairie rattlesnakes and big blue stem grass 
with big horn elk and Engelmann spruce along with road runners, 
Mexican spotted owls, pinon-juniper woodland and ring tail; 
quite a mix, while only a few miles away Grape Creek and the 
other areas, a few air miles away Grape Creek and the other 
areas have their own blends of diverse plant and animal 
species.
    Mid-elevation areas make for a variety of primitive 
recreation as well. CCWC has conducted hiking trips into each 
of the Arkansas River areas every month of the year. While 
higher streams are ice bound, year-round fishing is common in 
Badger Creek and Grape Creek because some wildlife species, 
wild turkey for instance, occur at lower elevation, so do 
varied hunting opportunities.
    All five of the wilderness candidates have pending 
congressional action, receive some form of interim protection 
from their land management agencies in recognition of their 
wild and roadless values. The interim protections for each area 
are listed in my written testimony.
    However, administrative interim protections can be lost. 
Water storage projects or alterations in agency regulation, for 
example, can spell rapid change or elimination of wilderness-
quality lands. Only congressionally-designated wilderness can 
effectively preserve their values.
    There are resource issues in two of the areas of which the 
Committee should be aware. There is use of motorcycles, ATVs 
and mountain bikes in some of the Forest Service roadless are 
portion of the Grape Creek proposed wilderness. A draft Federal 
energy corridor proposal on BLM land may impact the potential 
southern wilderness boundary of Badger Creek. We believe that 
both of those issues can be successfully mitigated via public 
and agency participation during the legislative process.
    CCWC is extremely grateful for the de facto, and I say ``de 
facto'' interim protections all be they unofficial provided by 
Representative Diana DeGette's Colorado Wilderness Act 
proposals during the past 11 years. The recurring bills have 
assisted us in keeping the areas we treasure in front of the 
public and enabled us to keep up hope on the long road to 
wilderness designation, and now at last we have a hearing. 
Thank you.
    [The prepared statement of Mr. Stansfield follows:]

              Statement of John Stansfield, Coordinator, 
                 Central Colorado Wilderness Coalition

    Thank you, Mr. Chairman and members of the committee.
    I am John Stansfield, Post Office Box 588, Monument, Colorado 
80132. I represent Central Colorado Wilderness Coalition (CCWC). CCWC 
is a regional, all-volunteer organization founded in 2002 with the goal 
of working to secure designation of new wilderness areas in central 
Colorado, particularly in the Fifth Congressional District.
    Thank you for the opportunity to testify for H.R. 4289, the 
Colorado Wilderness Act of 2009. CCWC is a member group of Colorado 
Wilderness Network and endorses the testimony of Steve Smith presented 
today. In addition, we would like to comment specifically on five areas 
in the bill, located in our region, about which we know a fair amount 
and for which we care greatly. These wild and natural parcels are 
Beaver Creek, Grape Creek, Table Mountain, McIntyre Hills, and Badger 
Creek. Our group has explored, inventoried, mapped, and continues to 
promote these areas, as well as Browns Canyon, for wilderness 
designation. We heartily endorse your legislative efforts to make these 
designations a reality in the near future.
    As for myself, I have 40 years of experience as a volunteer in wild 
land inventory and assessment. With a master's degree in education, I 
have conducted hundreds of backcountry educational, recreational, and 
service trips for people of all ages in Colorado, Wyoming, and Alaska.
    My first wilderness inventory experience took place in Beaver Creek 
in spring 1971. My cohorts and I, all unfamiliar with the area, forced 
our way up the canyon bottom, fording the icy, thigh-deep water again 
and again, until we came to a seemingly impassable narrows, only 30 
feet wide with vertical walls 100 feet high, and the creek falling in 
rapids through it. We baled out of the stream bed. After climbing hand-
over-hand through a steep, brushy gulch, all of a sudden there was a 
trail. We were so pleased to walk the scenic path back to the 
trailhead, unaware of the cases of poison ivy we would soon be 
scratching. The surprises I had that day in 1971 were only the first of 
many I have had over the years in my wild land inventories.
    In central Colorado's Fremont County, the ancient Arkansas River 
and its tributaries have bored their ways through tough igneous and 
metamorphic rock, creating countless canyons intermingled with steep-
sided ridges and peaks. It is in this rugged terrain that the five 
islands of wildness, strung like jewels on the chain of river, flourish 
in close proximity to the rapidly urbanizing Front Range. We believe 
that as development takes place in the region, wild public lands become 
inherently more valuable--economically, ecologically, recreationally.
    And we can back up that contention. Our sister organization, Wild 
Connections, recently released a professional paper: (http://
www.wildconnections.org/images/
Ecosytem_Services_Economic_Value_Land_Use_Planning_Wild_
Connections_2010.pdf) documenting substantial previously unquantified 
economic values provided by ``ecosystem services'', those goods, 
including fresh water, the regulation of wastes, the control of 
climate, the formation of soil, and protection from natural hazards, 
which an ecosystem provides for human use.
    Like many of the proposed wildernesses in H.R. 4289, the Fremont 
County areas are in the mid-elevation range of 6,000 to 10,000 feet. 
(Most Colorado wilderness being at 9,000 feet and up.) In terms of 
ecological diversity, the importance of permanent protection for lower 
elevation wild lands cannot be understated. Beaver Creek, for example, 
is situated at a biological crossroads of plains, mountain, and New 
Mexican habitats, blending prairie rattlesnakes and big bluestem grass 
with bighorn, elk, and Engelmann spruce, along with roadrunners, 
Mexican spotted owls, pinon-juniper woodland, and ringtail. Quite a 
mix! While only a few air miles away, Grape Creek has its own blend of 
diverse plant and animal species.
    Mid-elevation wilderness areas make for variety in primitive 
recreation, as well. CCWC has conducted hiking trips into each of the 
Arkansas River areas in every winter month. While higher streams are 
icebound, year-round fishing is common in Badger, Grape, and Beaver 
Creeks. Because some wildlife species, wild turkey, for instance, occur 
at lower elevation, so do varied hunting opportunities there. When I 
meet outdoor people who enjoy the sandstone canyonlands of southeast 
Utah, I encourage them to also visit the soaring granite canyonlands of 
Beaver Creek or the slot canyons and rain water pour-offs of McIntyre 
Hills for a new experience.
    All five of the wilderness candidates have, pending congressional 
action, received some form of interim protection from their land 
management agencies, in recognition of the wild and roadless values 
they contain. Interim protections include:
    Badger Creek--Forest Service roadless area designation
    Beaver Creek--BLM Wilderness Study Area, Forest Service roadless 
area designation, Colorado Stewardship Trust Program (state trust 
inholdings only)
    Grape Creek--BLM Wilderness Study Area and Area of Critical 
Environmental Concern designations, Forest Service roadless area 
designation, Colorado Stewardship Trust Program (state trust inholdings 
only)
    McIntyre Hills--BLM Wilderness Study Area, Colorado Stewardship 
Trust Program (state trust inholdings only)
    Table Mountain--BLM Area of Critical Environmental Concern and 
Research Natural Area designations for portions of the area
    However, administrative interim protections can be lost. Water 
storage projects, or energy-related developments, or alterations in 
agency regulation, for example, can spell rapid alteration or 
elimination of wilderness-quality lands. Only congressionally-
designated wilderness can effectively preserve values on BLM and Forest 
Service lands which the people deem important for our nation's longterm 
wellbeing.
    There are resource issues in two of the areas of which the 
committee should be aware. There is use by motorcycles and ATVs in some 
of the Forest Service roadless area portion of the Grape Creek proposed 
wilderness. A draft federal energy corridor proposal on BLM land may 
impact the potential southern wilderness boundary of Badger Creek. We 
believe that both of these issues can be successfully mitigated via 
public and agency participation during the legislative process.
    In closing, I would like to share a highlight, factual or personal, 
about each of the proposed wildernesses to give you something of the 
experience of being there:
    The top-of-the-world view looking down from the expansive grass-
covered mesa top of Table Mountain into Devil's Hole and the Arkansas 
River 3,000 feet below.
    A high school biology class discovering a bighorn ram skeleton 
lying at the bottom of the 200-foot-high precipice that marks the 
confluence of East and West Beaver Creek.
    Broad, parallel fingers of wan fall grass and bright yellow aspen 
reaching downslope more than a mile to touch Badger Creek.
    History rising through boot soles treading the grassy roadbed of 
the short-lived railroad that once traversed Grape Creek valley.
    The feeling, in McIntyre Hills, of being what Colorado conservation 
pioneer Enos Mills called ``watched by wildlife'', and then glimpsing 
on the ridge above a mountain lion in motion.
    CCWC is extremely grateful for the de facto interim protections, 
albethey unofficial, provided by Rep. Diana DeGette's Colorado 
Wilderness Act legislative proposals during the past 11 years. The 
recurring bills have assisted us in keeping the areas we treasure in 
front of the public and enabled us to keep up hope on the long road to 
wilderness designation. And now, at last, we have a hearing.
                                 ______
                                 
    Mr. Grijalva. Thank you.
    Mr. Kent Holsinger of Holsinger Law, Denver, Colorado. 
Welcome, sir, and look forward to your comments.

   STATEMENT OF KENT HOLSINGER, HOLSINGER LAW, LLC, DENVER, 
                            COLORADO

    Mr. Holsinger. Thank you, Mr. Chairman, Congresswoman 
DeGette. My name is Kent Holsinger. I am the managing partner 
of Holsinger Law LLC. We are a Denver, Colorado-based natural 
resources law firm that specializes in lands, wildlife, and 
water law.
    I appreciate the opportunity to be here to testify today to 
express the great concerns that I have personally and many of 
my clients, many colleagues have with this legislation of both 
a procedural and substantive nature.
    First and perhaps foremost is a real concern with local 
input into this legislation. This would designate vast swaths 
of land, many of which are crisscrossed by roads, trails, 
pipelines, and other manmade facilities into the most 
restrictive Federal land use designation possible.
    Club 20's Public Lands Committee, Club 20 is the 
organization representing 20 West Slope counties has expressed 
concerns with how wilderness bills are implemented and 
ultimately enacted. Their latest resolution on this subject 
says that wilderness bills should be passed only with the 
strong support of the county commissioners representing the 
most immediately affected counties.
    Action 22, the coalition of 22 southeastern Colorado 
counties, has opposed H.R. 4289, again with concerns over local 
input. As Action 22 stated, this piece of legislation 
designating public lands as wilderness is the most restrictive 
of all Federal land designations and severely limits the 
opportunities for the public's use of their lands as well as 
the local economic benefits associated with those uses.
    Colorado Counties, Inc., their own policy on wilderness 
designation is that wilderness be supported by the county 
within which the designation is proposed.
    In addition to these concerns in regard to local input, we 
represent many folks that are interested in water in Colorado. 
I should note that the Colorado River Water Conservation 
District opposes H.R. 4289 as drafted. They have raised 
significant concerns, and I would echo those concerns of 
Congressman Salazar that this legislation could affect our 
compact apportioned waters, the very life blood to Colorado, 
our ability to grow crops and recreate and provide for domestic 
and municipal uses.
    The Southwest Water Conservation District has raised 
similar concerns and have expressed their opposition to 4289 as 
drafted. My clients, the Montezuma Valley Irrigation Company 
have grave concerns about impacts that this legislation could 
have on them, their ability to continue to farm and even their 
ability to do good things to the downstream environment.
    My clients, the Uncompahgre Valley Water Users Association 
have concerns with regards to potential impacts on their goals 
to create renewable hydropower on their existing water 
facilities. The Jackson County Water Conservancy District also 
has concerns with this legislation and its impacts on water.
    Many of our other clients, the Colorado Cattlemen's 
Association, the Colorado Wool Growers Association, have great 
concerns with access to public lands with multiple uses and 
recreation, continued grazing, the ability to do new and 
improve existing water developments and reach their allotments. 
Recreation interests have concerns as well. The Colorado Off 
Highway Vehicle Coalition, Colorado Snowmobilers Association, 
the Blue Ribbon Coalition and the American Motorcyclist 
Association all oppose H.R. 4289 as drafted.
    In summary, Mr. Chairman, we have great concerns that this 
legislation would have significant economic impacts at a time 
when Colorado faces a billion dollar budget deficit. We urge 
the Committee to oppose this legislation. We urge the 
Congresswoman to work with local communities and continue the 
significant efforts I know her and her staff have devoted to 
this bill unless and until local communities support it.
    With that, I thank you, Mr. Chairman, Congresswoman 
DeGette.
    [The prepared statement of Mr. Holsinger follows:]

            Statement of Kent Holsinger, Holsinger Law, LLC

    Thank you for the opportunity to present my views on this 
legislation. I respectfully urge the members of the subcommittee to 
oppose H.R. 4289 unless and until the serious concerns of many of the 
individuals, companies, organizations and local governments we work 
with are addressed. Holsinger Law, LLC is a small, Denver-based law 
firm that specializes in lands, wildlife and water law. I am testifying 
as the manager of Holsinger Law, LLC. In that capacity, I can attest to 
the impacts this sweeping legislation would have on many of our clients 
such as individual landowners, agricultural entities, water providers 
and energy producers. Many clients, colleagues and friends have also 
authorized me to pass along their opposition, or at least their real 
concerns, with this legislation as drafted.
    There are ample substantive and procedural shortcomings in this 
bill. With its clear aim at restricting domestic energy production, I 
believe H.R. 4289 is bad for Colorado and bad for our economy. Even 
worse, H.R. 4289 equates to a massive federal takeover of private land 
and compact-apportioned water in Colorado. This will come at a huge 
social and economic cost and cause much to harm Colorado's economy. 
Incredibly, it also comes at a time of deep recession, joblessness and 
budget deficits.
I. H.R. 4289 is Bad for Colorado Water
    Wilderness designations coupled with implied, if not express, 
federal reserved water rights claims at the state line are tremendous 
and unheralded threats to Colorado's lifeblood--its compact apportioned 
water.
    In addition to the grave concerns of our clients, the Montezuma 
Valley Irrigation Company, the Uncompahgre Valley Water Users 
Association and the Jackson County Water Conservancy District, we 
understand the Colorado River Water Conservation District and the 
Southwestern Water Conservation District have expressed their 
opposition to this legislation.
II. Lands Do Not Qualify for Wilderness Designation
    The Wilderness Act of 1964 was passed to protect lands untrammeled 
by man. Colorado boasts some of the most spectacular wilderness areas 
in the nation. Many of the lands included in this bill have not been 
designated as wilderness--and for good reason. Acreage crisscrossed by 
roads, trails, powerlines and pipelines should clearly be excluded from 
consideration. So too should lands subject to leasing, or potential 
leasing, for energy development. We urge the subcommittee to require 
careful surveys, mapping and legal descriptions of the proposed 
wilderness prior to enactment rather than after-the-fact.
III. Concerns Expressed by Club 20, Action 22 and Colorado Counties, 
        Inc.
    H.R. 4289 was crafted with little-to-no input from the people that 
would most be affected by it. For example, Club 20's Public Lands 
Committee passed a resolution which relates to many of my concerns with 
H.R. 4289. This resolution will be considered before the Club 20 board 
early in April. A copy of this good work is included, along with many 
other statements and concerns.
    I have been authorized to represent that Action 22, a coalition of 
22 counties in southeastern Colorado, opposes H.R. 4289 as written.
    Colorado Counties Inc. (CCI) policy supports multiple uses of 
public lands and strongly encourages wilderness designation be based on 
county input. A copy of their policy, as well as a similar National 
Association of Counties (NACO) policy is attached.
IV. H.R. 4289 Would Harm Domestic Energy Development and Production
    Now is hardly the time to impose even more restrictions on domestic 
energy. Congress should be working to reduce, rather than increase, 
economic burdens and impacts to jobs. Many of the lands proposed for 
wilderness designation are subject to mineral leasing and development. 
The Independent Petroleum Association of Mountain States (IPAMS) has 
documented extensive overlap and conflict in its attached presentation.
V. H.R. 4289 is Bad for Colorado Agriculture
    Our clients the Colorado Cattlemen's Association and the Colorado 
Wool Growers Association oppose this legislation as drafted given their 
concerns with the lack of local input and support, federal land 
management, grazing, mechanized use, access and water.
VI. Opposition from Recreational Interests
    The Colorado Off-Highway Vehicle Coalition (COHVCO), the Blue 
Ribbon Coalition, Colorado Snowmobile Association and the American 
Motorcyclist Association opposes this legislation.
VII. Impacts to Aviation
    As a private pilot, I also have concerns that H.R. 4289 could 
impact aviation in Colorado. H.R. 4289 overlaps with at least three 
important Military Operations Areas (MOAs) including the Airburst MOA 
and the La Veta High and La Veta Low MOAs that are used for training 
and testing military aircraft. In addition, many of the areas proposed 
for designation overlap with commonly used visual flight rules (VFR) 
airways. Some areas appear to overlap with airstrips and could 
potentially interfere with the ability to land and take-off from public 
or private airstrips. These could all adversely affect aviation, 
commerce, and the ability for our military to train its pilots.
VIII. H.R. 4289 Lacks Meaningful Local Support
    Wilderness legislation should be introduced, and enacted, only with 
significant local support. H.R. 4289 clearly lacks meaningful local 
support. Many of our colleagues, friends and clients have expressed 
that wilderness legislation should be carried by the Member in which 
the lands are situated. I whole-heartedly agree.
IX. Conclusion
    Thank you again for the opportunity to testify. Please include this 
testimony, as well as the attachments hereto, in the record for this 
proceeding. This legislation would have severe and lasting impacts to 
private property, water rights, energy development and production and 
access to private and public lands in Colorado. It would do much harm 
to Colorado, the economy and our national defense. I urge the 
Subcommittee to oppose H.R. 4289 unless and until these concerns are 
adequately addressed.
                                 ______
                                 
    Mr. Grijalva. Thank you. Let me ask a couple of quick 
questions and turn it over to Congresswoman DeGette.
    Mr. Holsinger, let me go back a little bit. The interests 
that you represent or the opinion that you represent is well 
taken. During the discussion of the legislation that 
Congressman Salazar brought before this Committee, were those 
interests in opposition or in support of that particular piece 
of legislation given the concerns?
    Mr. Holsinger. I am sorry, Mr. Chairman, which legislation 
is that?
    Mr. Grijalva. Congressman Salazar's legislation which was 
referred to earlier, were the interests that you represent in 
favor or for it or----
    Mr. Holsinger. You know, Mr. Chairman, I have no talked to 
my clients about that specific legislation, but I do know 
several of the entities that authorized me to speak today and 
to relay the positions they have on 4289 are in support of 
Congressman Salazar's efforts.
    Mr. Grijalva. OK, thank you.
    There was one question that I had for Mr. Smith from The 
Wilderness Society. You made the point about the process having 
to be careful but quick in terms of getting these designations 
done, and I agree with you.
    How long does the Society believe it will take to work out 
the problems outlined let us say by agencies or by Mr. 
Salazar's earlier testimony? What would be the timeline since 
time is one of the issues that keeps coming up in all of these 
discussions?
    Mr. Smith. Thank you, Mr. Chairman. I think that the 
timeline will vary according to which area you talk about or 
which watershed you talk about because it depends primarily on 
those local discussions and those local attitudes and some are 
gong to come sooner than others. We are delighted to work with 
our full delegation, especially with Congresswoman DeGette, to 
cue this up on a timeframe, on a time plan to get these done.
    Mr. Grijalva. In a designation process and you are going 
through a public process, hypothetically you reach a point that 
can't be accommodated on the designation. Those irreconcilable 
differences are going to occur. They occur in any one of these 
processes, and the suggestion that we wait or get a check off 
at some point on any wilderness designation on these 
differences to wait interminably until who knows when is 
something that concerns me because it has always been like a de 
facto veto on moving forward on some of these designations. 
Your opinion on what happens when you reach that crucible 
before you cannot reconcile.
    Mr. Smith. I think that is very astute, Mr. Chairman. I 
will offer two quick thoughts. One is that, yes, eventually you 
cannot get to the perfect. You cannot get to absolute 
agreement, but you will come so close that most of the 
participants will feel satisfied, and all of the participants 
will realize that they can live with what happened.
    The second thought is we found in several of these 
negotiations on these areas and on other wilderness proposals 
in Colorado after perhaps months of lots of posturing where 
organizations will say, we are sweepingly against this, when we 
actually sit down with maps and actually talk about specific 
places, we find resolution within weeks.
    Mr. Grijalva. There are points of tolerance.
    Ms. Dice, IMBA supports the San Juan Mountains Wilderness 
Act. Can you tell us how long it took in that process to work 
out the issues in that legislation because I assume there must 
have been some issues at the beginning of that process, and how 
long do you think it would take your organization in particular 
to work out some of the issues that you raised today regarding 
the Colorado Wilderness Act?
    Ms. Dice. Thank you, Mr. Chairman. It took us about two 
years to work through the issues with the San Juan Wilderness 
legislation, and if you look at each one of the parcels or the 
units in that legislation, a lot of times you can see right 
outside of the boundary of the wilderness is a trail system 
that the local mountain bike community enjoys.
    That legislation also has a companion designation of a 
special management area that allows us to continue to ride 
until there is a trigger point that turns it into wilderness in 
the future. So it took us about two years.
    With the Colorado Wilderness Act, I could guess probably 
the same thing. You know, one to two years. Like Steve said, 
when you sit down and you look at the maps and you get to the 
specific places, there are a lot of things that can be worked 
out on the ground: boundary adjustments, companion 
designations, and corridors for trails.
    Mr. Grijalva. Thank you. Ms. DeGette.
    Ms. DeGette. Thank you. Following up, Ms. Dice. You know, I 
really appreciated your testimony because even though I myself 
am not a mountain biker I will take you up on your offer as 
long as it is not one of those really steep.
    Ms. Dice. Nice, make it flat.
    Ms. DeGette. On those trails I prefer to hike or go 
horseback riding, but I will come with you, and I also agree 
that we really need to have--I think that the mountain bike 
community needs to have a conversation with the Forest Service 
about some of these trails, and I also think that the 
Congressional Delegation can help you with that.
    But I will say in the areas of my bill that are currently 
being managed as Wilderness Study Areas as you know because of 
the current Forest Service rules mountain bikes are not allowed 
in those areas. So if we designated a lot of those areas that 
would not be removing mountain bike usage, correct?
    Ms. Dice. Correct.
    Ms. DeGette. and I also want to thank you for your 
endorsement of 13 of the areas in my bill that you did not 
mention in your verbal testimony today, and I also want to say, 
and this goes with just about everybody here, I think we can 
work out some of the specific areas that you talk about by 
boundary adjustments and natural discussions.
    For example, the Tabawatch Trail I known in Banks Canyon is 
really important to the mountain bike community, so I am going 
to take a closer look at that to see if wilderness designation 
is appropriate for Banks Canyon or if we should look at 
something else, and like with Thompson Creek, I think we can 
look at some boundary issues to preserve those trails. They 
still have wilderness designation but allow the mountain 
biking.
    I just want to ask you, will your association agree to work 
with me to keep trying to resolve the issues with the 
additional areas that you flagged for discussion?
    Ms. Dice. Absolutely, and we look forward to working with 
you on it, and we look forward, of course, to taking you on a 
bicycle ride.
    Ms. DeGette. OK.
    Ms. Dice. But I think more so than just a boundary 
adjustment for existing trails like the Tabawatch Trail, we 
don't want the boundary to be moved and the land around our 
trails still mined or logged or leased.
    Ms. DeGette. Right. You want those other kinds of 
designations----
    Ms. Dice. Exactly.
    Ms. DeGette.--that will still preserve the wilderness 
characteristics but allowing mountain bikes.
    Ms. Dice. Exactly.
    Ms. DeGette. I want to ask you, Mr. Stansfield, in the 
Forest Service's testimony regarding Beaver Creek they mention 
that the area has no nonconforming uses, but they are concerned 
about the ability to fight fires in this area if it is 
designated wilderness. You mention in your written testimony 
that Beaver Creek was the first area you inventoried back in 
1971.
    Have you ever heard this concern about fires in your many 
years of work, almost 30 years? No, I am sorry, 40 years----
    Mr. Stansfield. That is OK.
    Ms. DeGette.--of work on these issues.
    Mr. Stansfield. I may not look that old but I really am.
    Ms. DeGette. Yes, I know. Me too. Have you ever heard a 
concern about that, and does the Wilderness Act allow for fire 
fighting in wilderness areas?
    Mr. Stansfield. I will answer both if I can.
    Ms. DeGette. Super. Thanks.
    Mr. Stansfield. No, I have never until very recently heard 
that concern raised about the little bit less than the 5,000 
acre portion in your bill--Forest Service portion in your bill 
regarding Beaver Creek. So it was a surprise, and I have 
already talked with several of the Forest Service 
representatives here today, and we will continue to explore 
that concern and bring the results of that discussion to you, 
and make you part of it as well.
    Regarding generally fire, yes, the Wilderness Act does 
allow for appropriate methods and in some place extreme, all 
methods to be allowed to be approved by the agency to fight 
forest fires, where needed, in designated wilderness.
    Ms. DeGette. And also to take care of other emergencies. If 
a hiker, for example, falls, they are allowed to be evacuated 
by helicopter, et cetera----
    Mr. Stansfield. Absolutely.
    Ms. DeGette.--under the Wilderness Act, correct?
    Mr. Stansfield. Absolutely.
    Ms. DeGette. Mr. Dvorak, thank you so much for your 
wonderful testimony today, and Mr. Chairman, I am going to 
reiterate my offer to take you on one of Mr. Dvorak's raft 
trips.
    I want to ask you if you agree with Mr. Holsinger's 
statement that this bill would cause harm to Colorado's 
economy?
    Mr. Dvorak. Well, no. I guess what I actually see is that 
it kind of is an addition to Colorado's economy because a 
designated wilderness area, in my experience, has proved to be 
an actual good marketing tool, and I have seen that over the 
years wild and scenic river designation, national park 
designation, wilderness designation, all of those things 
actually add to your ability to sort of market to both domestic 
and international clientele.
    Ms. DeGette. Thank you. Mr. Chairman, that is all the 
questions I have. I just want to sort of tell some of the folks 
who are here today, and also you, I agree with some of what 
folks have said, is that, you know, this is an omnibus bill 
that has been in progress for a number of years, even before I 
introduced it, and so my concept, and I have talked to Mr. 
Salazar and the rest of the delegation about this, is to really 
go through and determine which areas are pretty ripe, just need 
maybe a few boundary adjustments, some water language or 
something like that. They have really good community support, 
and so we just need to go back and talk once again to those 
communities, and then there are some other midterm ones. So we 
are going to be talking about how we proceed forward, but we 
think that time is of the essence, and we agree with you, and 
also Chairman Rahall, that we can't just let this drift along 
indefinitely, that at some point we have to act to preserve 
these very special resources, especially as the witnesses have 
seen in Colorado, as the population growth throughout our state 
on the western slope but also in our front range cities, as 
that continues to grow and put additional pressure, so we will 
be coming to you with that very, very shortly.
    And I also wanted to just say one last thing about the 
water language. I agree with Mr. Salazar and also with Mr. 
Smith that the water language has now evolved even since the 
sand dunes language that Secretary Salazar originally 
negotiated, so we are going to be incorporating that language 
into our legislation, and that is going to help alleviate a lot 
of the water concerns that people have expressed.
    With that, let me just thank you on behalf of myself and 
also everybody else who has worked on this bill for holding 
this hearing today. This is the day we have been waiting for--
for many, many years
    Mr. Grijalva. Thank you, Congresswoman. I couldn't agree 
with you more that the pressure on those of us that are out in 
the West in terms of population growth, shifting demography, 
and the need to still try to retain some of the special places 
before they are overgrown, for lack of a better word, is 
essential. So I understand the process. I believe it is 
essential to get collaboration and get a good product, and get 
community support, but there is an underlining urgency that I 
think we all recognize to get some of these things moving and 
done, so that is why I concentrated on a lot of time questions 
today, because these things can go on forever and ever and 
ever, and I don't think anyone of us wants it to go on that 
long.
    So thank you very much.
    Ms. DeGette. Thank you, Mr. Chairman.
    Mr. Grijalva. The meeting is adjourned.
    [Whereupon, at 2:47 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    [A letter submitted for the record by Glenn Graham, 
President and Chairman of the Board, Colorado Off-Highway 
Vehicle Coalition, and Don Riggle, Director of Operations, 
Trails Preservation Alliance, follows:]

March 10, 2010

The Honorable Raul Grijalva
Chairman House Subcommittee on
National Parks, Forests, and Public Lands
United States House of Representatives
1440 Longworth House Office Building
Washington, D.C. 20515-0307

The Honorable Rob Bishop
Ranking Minority Member
House Subcommittee on
National Parks, Forests, and Public Lands
United States House of Representatives
123 Cannon House Office Building
Washington, D.C. 20515-4401

Dear Chairman Grijalva and Ranking Member Bishop:

    We are writing in opposition to H.R. 4289, the Colorado Wilderness 
Act of 2009 sponsored by Representative Diana DeGette and scheduled for 
hearing on March 11, 2010, in the House Subcommittee on National Parks, 
Forests, and Public Lands. Please incorporate into the record the 
following comments and attachments of the Colorado Off-highway Vehicle 
Coalition, (COHVCO) and the Trails Preservation Alliance (TPA). 
Additionally, the American Motorcyclist Association and its sister 
organization the All-Terrain Vehicle Association opposes H.R. 4289.
    COHVCO is a volunteer based non-profit conservation organization 
that has focused on preserving and enhancing opportunities for all off-
highway vehicle (OHV), and snowmobile users in Colorado since 1987. 
COHVCO represents nearly 200,000 Coloradans, and thousands of visitors 
from outside Colorado, who enjoy recreating on our public lands with 
off-highway vehicles. We represent motorcycle, 4WD, ATV and snowmobile 
enthusiasts. COHVCO, its participating clubs, and enthusiasts not only 
provide thousands of volunteer hours, but also contribute over $2.5 
million dollars each year to public lands, through Colorado's OHV 
Registration Grant Program. These funds provide maintenance, signage, 
restoration and opportunity on trails and roads on federal public lands 
in Colorado and are indispensable given continuing cutbacks in federal 
funding in these areas. These funds also contribute to enforcement 
activities and education programs for motorized recreation enthusiasts.
    The Trails Preservation Alliance is a Colorado based IRS 501(c) (3) 
organization. It represents over 2500 members (of which a majority are 
military veterans), who are dedicated to preserving public access to 
public lands. The TPA has generated over $500K in OHV funding to the 
U.S. Forest Service and the Bureau of Land Management to build and 
preserve single track trails for all recreational user groups. The TPA 
is dedicated to public recreation on public lands. The TPA has a long 
history of working with Region 2 of the U.S.D.A. Forest Service and 
other state and federal agencies in Colorado.
    A recently completed study on the economic contribution to the 
State of Colorado by both winter and summer motorized recreation showed 
that these activities are responsible for about 12,000 jobs and a cash 
flow of over $ 1 billion. Many of the jobs and a significant part of 
the total cash flow benefit smaller communities located within or near 
large tracts of federal public lands. In addition, the Colorado 
Division of Wildlife (DOW) estimates that approximately 70% of hunters 
use OHVs (almost exclusively ATVs) to facilitate their hunt and use 4 
wheel drive vehicles to reach the general area of the hunt. Additional 
loss of access for this majority of hunters could have a negative 
effect on game management and hunter success.
    Not one acre of any of the land recommended for Wilderness 
designation in Representative DeGette's bill is located within her 
district and the people and communities most affected by her proposal 
are not her constituents. Therefore they have no opportunity to show 
their opposition or support by voting for or against her in any 
election. In order to avoid problems and conflicts within the state and 
amongst organizations and local governments, the process of developing 
a Wilderness bill must include all affected parties. This collaborative 
process was not present in the development of the DeGette bill.
    While Representative DeGette's website describes this proposal as a 
``Citizen's Wilderness Proposal'', and claims that all stake holders 
have been involved, neither COHVCO, TPA nor any of their individual 
members or member clubs were contacted or asked for input to avoid 
conflict with existing multiple use (including, but not limited to 
motorized) activities. The maps posted on her website that show the 
individual areas proposed for Wilderness designation are so poor in 
quality and lacking in any geo-reference information that it has proven 
to be extremely difficult and time consuming to perform any analysis 
for any potential conflicts. With one exception, all of the maps appear 
to have been created by the Colorado Environmental Coalition, an avowed 
anti-motorized access group.
    Individuals who actually live near, and recreate in the areas 
identified as suitable for Wilderness designation by Representative 
DeGette have, on their own initiative, provided comments identifying 
access conflicts. By their very nature, these existing uses violate the 
criteria for consideration as Wilderness. Those site specific comments 
are shown in the attachment titled On the Ground Comments. In addition, 
the attachment also contains a sampling of detailed map examples that 
show the existing conflicts and shortcomings of the maps presented on 
Representative DeGette's website.
    In summary, our objections to H.R. 4289 can be identified as a 
failure to subject this legislation to previous review by all affected 
parties, a failure to consider the negative economic consequences to a 
faltering economy in the most difficult of times, a failure to consider 
far more practical and less restrictive means of protecting lands short 
of a Wilderness designation, and the lack of identification of 
conflicts in areas as identified by the sponsor's maps.
    Parts I through III, following, contain more detailed comments on 
substantive and procedural flaws in the content of and process of 
development of H.R. 4289.
PART I
 The Public and the Resource are better served by Designations other 
        than Wilderness; such options were not considered
    By some estimates, the population of Colorado will triple in the 
next 35 years. The current, greatest demand for public lands is for 
recreation of all forms allowed under the Multiple Use and Sustained 
Yield Act. Couple this with a Colorado population that is, at this very 
moment, growing dramatically older, and Wilderness designation becomes 
a poor choice. Americans are looking for viable alternatives to 
Wilderness that are friendlier to the majority of the recreating 
public.
    Further, Wilderness designations are not in the best interests of 
Americans. A century or more ago, mining, mineral and timber 
production, and protection of watersheds were of critical importance to 
the nation. Extraction was the primary activity on public land then. It 
now appears obvious that the predominant use of public land in the 21st 
century may well be recreation. A recent National Visitor Use 
Monitoring study for the USFS shows very interesting results.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    This USFS data demonstrates that only 3% of visits to National 
Forests are to designated Wilderness areas. The study goes on to 
demonstrate that there is a decrease in the length of visits, and that 
preferred visits are those to developed facilities, from campgrounds, 
to trailheads, and resorts. The means of access to enjoy these 
resources is most often motorized, whether it is via auto, or off-
highway vehicle.
    Millions of acres of wild lands in Colorado are already protected 
as Wilderness; specifically, 3.5 million acres. But this is only a 
small part of the complete picture. Over 4.8 million acres of Forest 
Service Lands are designated as Inventoried Roadless Areas (IRA). 
Colorado has 2 National Parks and 6 National Monuments including a list 
of non-multiple use prescriptions such as Areas of Critical 
Environmental Concern that, once added to the unusable and impassable 
areas of the mountains and canyon lands, leaves precious little left 
for a state and a nation seeking recreational opportunity and release.
    All forms of motorized and mechanized recreation are prohibited in 
Wilderness and that includes the simple but beloved family outing by 
car to view the land.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    While some areas shown above are worthy of the Wilderness 
prescription, and no one is arguing the set aside of lands for National 
Parks and Monuments, the fact must be faced that the management 
prescriptions for these lands severely limit access to a significant 
majority of the recreating public. Wilderness areas, above all other 
designations, are available only to an elite few with the time and 
physical capability to enjoy them. The vast majority of citizens find 
Wilderness an obstacle to their enjoyment of public lands. Further, the 
amount of congressionally designated Wilderness to date has far 
surpassed the amount of Wilderness contemplated in the original 
Wilderness Act of 1964.
    How far have we moved from the promises of the Wilderness Act? The 
USFS has recommended 11,000 acres of Wilderness from 4.8 million acres 
in Colorado IRAs. Yet what began as an inventory has been translated 
into a limited use prescription despite the absence of suitability as 
Wilderness. De facto Wilderness is not provided for in law and it can 
be argued violates the Multiple Use Act and the National Environmental 
Policy ACT.
    Some lands in Colorado do need protection and this protection is 
available in practical and useful designations that can be tailored to 
fit resource values and public need equally well without locking out 
much of the population and threatening the very security of the nation 
by forever holding precious commodities out of reach in times of crisis 
and need.
    In short, the vast majority of lands held up as suitable for 
Wilderness not only do not meet the criteria of the Wilderness Act, but 
most are clearly at odds with what the land management professionals 
believe should be managed as Wilderness. Congress has two well known 
tools that provide answers to administrative paralysis; National 
Conservation Areas and National Recreation Areas (NCA and NRA 
respectively). COHVCO and TPA also support a third designation 
developed by the Blue Ribbon Coalition, a nationally respected 
recreational advocacy group. That alternative is the Back Country 
Recreation Area, which will protect the land but will also allow it to 
be used and enjoyed by the public.
    History has shown that administrative action has been unable to 
resolve the conflict associated with public land recreation and 
Inventoried Roadless Areas. It is imperative that Congress take some 
specific action to put this issue to rest. Congress needs to establish 
a land designation that provides the protection the public demands for 
these lands while at the same time providing the managing agencies with 
the necessary flexibility to respond to recreational demands and to 
address critical concerns of forest health, fire prevention and 
wildlife habitat enhancement.
    Much of our public land reflects an undeveloped, back country 
character. Evidence of man's activities may be present and obvious to a 
knowledgeable observer. However, this evidence is not dominant and the 
landscape is generally perceived as possessing natural, primitive, or 
back country characteristics. It is important that these 
characteristics be maintained under any land designation category 
established by Congress.
    These lands provide a very valuable resource for recreational 
activities that allow people to experience and enjoy these natural 
appearing landscapes. They provide opportunities for people to escape 
from the pressures of large crowds and the more developed world. This 
can include a wide range of recreational activities including use of 
ATVs and off-highway motorcycles, hunting, snowmobiling, fishing, 
hiking, bicycling, horseback riding and 4-wheel driving. At the same 
time, many of these lands are threatened by insect and disease 
epidemics, and by catastrophic wildfires that could destroy the very 
values that the public wants to see preserved. Therefore, it is 
essential that this land designation also allow the managing agencies 
the ability to apply the minimum level of management to deal with these 
threats.
    Any management activities that are planned for these areas must 
also be subject to all the existing laws, regulations and policies that 
address the protection of the environment and cultural and historic 
resources. Any public land management process must also apply to these 
lands. In this way the public's ability to participate in and influence 
the process is preserved.
    The establishment of a Congressional Back Country land designation 
can achieve all of these objectives. The land will be protected and the 
public will still be able to experience and understand the values of 
these unique areas and the countless court cases and legal challenges 
can be reduced. Congress needs to begin the process to make this new 
land designation a reality.
    Representative DeGette's bill does not provide the best balance 
between protection of the resource and the public's desire for 
recreation.
PART II
 H.R. 4289 was not Developed with Input from all Recreational users nor 
        was it Developed in full Cooperation with Local Government
    The Colorado Off-highway Vehicle Coalition is the umbrella 
organization representing individuals and families that recreate with 
all-terrain vehicles, trail bikes, full size 4 wheel drives, and 
snowmobiles. The approximately 200,000 individuals engaged in motorized 
recreation are represented locally by clubs all over Colorado. The 
Trails Preservation Alliance likewise has statewide participation. 
Representative DeGette's bill shows a failure to engage the motorized 
recreation community in Colorado at any level. It further seems that 
not all local governments directly affected by this Wilderness proposal 
have been a part of the process. This raises further questions 
regarding the level of contact with sportsmen, mountain bikers, 
equestrians and other major recreational groups.
    Without question, neither COHVCO nor TPA has ever been approached 
by Representative DeGette or her staff on this proposal. Representative 
DeGette is a Representative of the City of Denver proper and while it 
may be her prerogative to run legislation directly affecting 
constituents in other Districts, it should also certainly involve 
engaging important affected parties. None of the 50 plus COHVCO clubs 
has been approached and, indeed, some of those clubs, such as the Mile 
High Jeep Club, whose members live in the Denver Metropolitan area, and 
who are her constituents, were never contacted for their opinion. A 
critical element of their comments would relate to the numerous 
conflicts existing in the proposed Wilderness areas that infringe on 
the access and multiple use of such lands. These conflicts raise issues 
of suitability, and suitability is an essential element of a Wilderness 
proposal where land is withdrawn for what has been treated as final 
prescription.
    Winter recreation has not been spared the negative impacts of the 
bill nor have the snowmobile clubs of Colorado been consulted. The 
Colorado Snowmobile Association, the statewide organization of 
snowmobile clubs has this to say about the legislation:
    The process, or lack thereof, exhibited by the Congresswoman's 
office has been unprofessional and completely lacking in representation 
of the citizens of Western Colorado. Our opposition to H.R. 4289 also 
encompasses the fact that this proposal is so very piecemeal in nature. 
There is little apparent consistency in the reasons for proposal other 
than appealing to a small constituency that wants exclusive access to 
public land and promotes a desire to close off large chunks of land to 
the majority of other users.
    Colorado (using 2007 statistics) has 3,431,176 Wilderness acres 
made up of 41 Wilderness areas and covers over 5% of Colorado public 
land. Couple that with the 4.1 million acres proposed in Colorado's 
Roadless Rule (another 6+% of Colorado public land) and much of the 
most beautiful part of Colorado is accessible by a minority population. 
A plethora of recreationists, motorized and non-motorized, are now 
denied the opportunity to recreate in these areas. Adding more closures 
through Wilderness is not in the best interest of Colorado residents or 
visitors.
    Most, if not all, of the parcels in the Congresswoman's proposal 
will have a negative impact on winter motorized recreation. The forests 
in Colorado do not restrict snowmobiles to designated trails (with a 
few rare exceptions in winter wildlife habitat areas) so most areas 
that get adequate snow are open to snowmobiling.
    More specifically, we think it is fair to say that any of the 
parcels in Gunnison, San Juan, Hinsdale, Eagle and Garfield County 
would greatly affect winter activity. These would be the West Elk 
Addition, Powderhorn Addition, Handies Peak, Redcloud Peak, Flat Tops 
Addition, Bull Gulch, Deep Creek, etc. Handies and Red Cloud are winter 
spots.
    There are a few areas where the statement ``BLM has prohibited 
motorized use'' that may apply to summer use only. A couple of them are 
high altitude areas and the probability that these areas remain open to 
winter motorized use are high, but are not identified as such in the 
proposal.
    The American people seek transparency in all matters of government 
including how their public lands are to be used. Providing website maps 
of a proposal that fails to identify all open roads and trails is not 
transparency. To the contrary it seems to indicate a guarded approach 
to a very public process.
    Even more disconcerting is that not all County Commissioners have 
been consulted for their position on the impact of this bill and the 
various consequences to their constituents. Of course, when the bill 
seems to be attempting to stop future extraction of what may be 
critical resources, a job killing Wilderness bill of this magnitude is 
not a topic of polite conversation.
PART III
 Failure of the DeGette Wilderness Maps to Include Sufficient 
        Information on Transportation Systems within Proposed 
        Wilderness Areas
    The public information provided on Representative DeGette's website 
does not meet the standard of quality that this issue requires. It is 
critical that these deficiencies be considered, as they relate directly 
to the suitability for Wilderness designation and analyses of the 
effects of the proposed action on surrounding communities.
    See attached On The Ground Comments & Conflict Analysis Maps.
    The accompanying maps display the following features: The Pink 
areas are the boundaries of the proposed Colorado Wilderness Act (CWA). 
The Blue areas are the boundaries of the BLM Wilderness Study Areas 
(WSA). Blue areas overlay to form a Purple layer that defines where the 
WSA and the Wilderness proposal come together and where study has been 
done and budgets have been used to determine the suitability of the 
land for wilderness designation.
    The maps make it immediately apparent that the proposed Wilderness 
segments far exceed the areas of study recommended by the agencies. To 
the best of our understanding, those segments that coincide with the 
National Forest Inventoried Roadless Areas (IRA) were not recommended 
to be Wilderness, failing to have the necessary Wilderness' values.
    The several types of bold Red lines show the actual road and trail 
networks that are de-emphasized or completely missing from 
Representative DeGette's website. The absence of this critical 
information in the DeGette maps made public makes it impossible to 
determine what part of the terrain is actually suitable for Wilderness 
designation and does not contain numerous existing roads and trails.
    It is clear that IRA and WSA studies were not properly considered 
in determining the appropriate boundaries for wilderness, and it is 
obvious that the pre-existing roads and trails in virtually every 
segment of the proposed Colorado Wilderness act make them unsuitable 
for wilderness designation.
    There is a clear lack of accurate information necessary for local 
government and the public to make informed decisions.

Respectfully Submitted,

/s/Glenn Graham

Glenn Graham
President and Chairman of the Board
COHVCO

/s/Don Riggle

Don Riggle
Director of Operations
Trails Preservation Alliance

[NOTE: Attachments have been retained in the Committee's official 
files.]
                                 ______
                                 
    [The documents listed below have been retained in the 
Committee's official files.]

    <bullet>  Colorado Off-Highway Vehicle Coalition ``Economic 
Contribution of Off-Highway Vehicle Recreation in Colorado,'' Executive 
Summary, July 2009
    <bullet>  IPAMS Building a Sustainable Energy Future: ``Small and 
Temporary? Assessing the Impacts of 100 Years of Oil and Natural Gas 
Development in Western Colorado''
    <bullet>  ``2006 Colorado Summary,'' 2006 National Survey of 
Fishing, Hunting and Wildlife-Associated Recreation--Colorado, U.S. 
Fish and Wildlife Service, U.S. Department of the Interior
    The following individuals have submitted documents for the 
record, which have been retained in the Committee's official 
files:
In opposition to H.R. 4289:
Brown, Allen, Commissioner, Hinsdale County
Chappell, Steve D., Commissioner, Montezuma County Board of 
        Commissioners (2 letters)
Dolores County Commissioners
Koppenhafer, Gerald W., Commissioner, Montezuma County Board of 
        Commissioners (2 letters)
Kukuk, Janelle, President, Colorado Snowmobile Association
Martin, John, Chair, Garfield County Board of County Commissioners
Porter, John, President, Southwestern Water Conservation District
Porter-Norton, Marsha, Facilitator, Dolores River Dialogue, Lower 
        Dolores Plan Working Group
Preston, Michael, General Manager, Dolores Water Conservancy District 
        (2 letters)
Rule, Larrie D., Commissioner, Montezuma County Board of Commissioners 
        (2 letters)
Salazar, The Honorable John T., a U.S. Representative in Congress from 
        the State of Colorado
Samson, Mike, Commissioner, Garfield County Board of County 
        Commissioners
Treese, Christopher J., Manager, External Affairs, Colorado River 
        District
No Position on H.R. 4289
Churchwell, Ty, Backcountry Coordinator, Trout Unlimited
In Support of H.R. 4289
Browns Canyon Wilderness Area Supporters
Central Colorado Wilderness Coalition ``Wild Ten'' Endorsers
DeGette, The Honorable Diana, a U.S. a Representative in Congress from 
        the State of Colorado, Document for the record, Talmey-Drake 
        Poll
Houpt, Tresi, Commissioner, Garfield County Commissioner
U.S. Fish and Wildlife, 2006 Colorado Summary
                                 ______
                                 
    [A letter submitted for the record by Edward Moreland, Vice 
President, Government Relations, American Motorcyclist 
Association, follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               <all>

</pre></body></html>
